<html>
<title> - JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT: OVERVIEW AND PERSPECTIVES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
     JUVENILE JUSTICE AND DELINQUENCY PREVENTION ACT: OVERVIEW AND 
                              PERSPECTIVES

=======================================================================

                             JOINT HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                                and the

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                       COMMITTEE ON THE JUDICIARY

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 12, 2007

                               __________

             Serial No. 110-55        Serial No. 110-68     

(Committee on Education and Labor)      (Committee on the Judiciary)    
                                      

                               __________

      Printed for the use of the Committee on Education and Labor
                   and the Committee on the Judiciary


                       Available on the Internet:
    http://www.gpoaccess.gov/congress/house/education/index.html and
                     http://www.house.gov/judiciary



                        U.S. GOVERNMENT PRINTING OFFICE

36-466                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001



                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     Dean Heller, Nevada
                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                  ROBERT C. SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
TAMMY BALDWIN, Wisconsin

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 12, 2007....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    71
    Forbes, Hon. J. Randy, ranking minority member, Subcommittee 
      on Crime, Terrorism, and Homeland Security, Committee on 
      the Judiciary..............................................     8
        Prepared statement of....................................     9
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities, Committee on Education and Labor.     1
        Prepared statement of....................................     3
    Platts, Hon. Todd Russell, ranking minority member, 
      Subcommittee on Healthy Families and Communities, Committee 
      on Education and Labor.....................................     4
        Prepared statement of....................................     5
    Scott, Hon. Robert C. ``Bobby,'' Chairman, Subcommittee on 
      Crime, Terrorism, and Homeland Security, Committee on the 
      Judiciary..................................................     5
        Prepared statement of....................................     7
        ``Juvenile Justice,'' editorial from the New York Times, 
          July 12, 2007..........................................    65

Statement of Witnesses:
    Freed, David, Cumberland County District Attorney............    19
        Prepared statement of....................................    21
    Johnson, Derrick, vice-chair, Arizona Juvenile Justice 
      Commission.................................................    13
        Prepared statement of....................................    15
        Questions for the record.................................    72
        Responses for the record.................................    72
        Additional submissions:
            JJDPA Statement of Principles........................    83
            Internet link to the Coalition for Juvenile Justice 
              report, ``Childhood on Trial: The Failure of Trying 
              & Sentencing Youth in Adult Criminal Court,'' dated 
              2005...............................................    88
    Jones, Shannon, former participant in the Community Intensive 
      Supervision Program........................................    30
        Prepared statement of....................................    32
        Additional submissions...................................    88
    Lawrence, Hon. Paul, Goffstown District Court, New Hampshire 
      State Juvenile Justice Advisory Group......................    25
        Prepared statement of....................................    27
        Questions for the record.................................   116
        Responses for the record.................................   116
        Additional submissions:
            Internet link to Coalition for Juvenile Justice 2003 
              annual report: ``Unlocking the Future: Detention 
              Reform in the Juvenile Justice System''............   118
            Internet links to Coalition for Juvenile Justice 
              briefs, parts I and II, ``What Are the Implications 
              of Adolescent Brain Development for Juvenile 
              Justice?''.........................................   118
    Shepherd, Robert E., Jr., emeritus professor of law, 
      University of Richmond School of Law.......................    33
        Prepared statement of....................................    34
        Questions for the record.................................   118
        Responses for the record.................................   119
    Woolard, Jennifer L., Ph.D., assistant professor of 
      psychology, Georgetown University..........................    39
        Prepared statement of....................................    41
        Additional submissions:
            ``Effects on Violence of Laws and Policies 
              Facilitating the Transfer of Juveniles from the 
              Juvenile Justice System to the Adult Justice 
              System,'' 2007, American Journal of Preventive 
              Medicine...........................................   120
            Internet link to Campaign for Youth Justice report, 
              ``The Consequences Aren't Minor,'' dated March 2007   142
            Internet link to International Journal of Forensic 
              Mental Health article, ``Juveniles Within Adult 
              Correctional Settings: Legal Pathways and 
              Developmental Considerations,'' Vol. 4, No. 1, 2005   142


                          JUVENILE JUSTICE AND
                      DELINQUENCY PREVENTION ACT:



                       OVERVIEW AND PERSPECTIVES

                              ----------                              


                        Thursday, July 12, 2007

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

        Subcommittee on Crime, Terrorism, and Homeland Security

                       Committee on the Judiciary

                             Washington, DC

                              ----------                              

    The subcommittees met, pursuant to call, at 2:05 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the Subcommittee on Healthy Families and 
Communities] presiding.
    Present from Subcommittee on Healthy Families and 
Communities: Representatives McCarthy, Clarke, Shea-Porter, 
Grijalva, Sarbanes, Yarmuth, Platts, and Davis of Tennessee.
    Present from Subcommittee on Crime, Terrorism, and Homeland 
Security: Representatives Scott, Johnson, Jackson Lee, Forbes, 
Gohmert, Coble, and Chabot.
    Also present: Representative Kennedy.
    Staff present from Subcommittee on Healthy Families and 
Communities: Aaron Albright, Press Secretary; Tylease Alli, 
Hearing Clerk; Denise Forte, Director of Education Policy; 
Lamont Ivey, Staff Assistant, Education; Deborah Koolbeck, 
Policy Advisor for Subcommittee on Healthy Families and 
Communities; Lisette Partelow, Staff Assistant, Education; 
Rachel Racusen, Deputy Communications Director; James Scholl; 
James Bergeron, Deputy Director of Education and Human Services 
Policy; Kathryn Bruns, Legislative Assistant; Kirsten Duncan, 
Professional Staff Member; Taylor Hansen, Legislative 
Assistant; Victor Klatt, Staff Director; Susan Ross, Director 
of Education and Human Resources Policy; and Linda Stevens, 
Chief Clerk/Assistant to the General Counsel.
    Staff present from Subcommittee on Crime, Terrorism, and 
Homeland Security: Bobby Vassar, Chief Counsel; Rachel King, 
Counsel; and Veronica Eligan, Professional Staff Member.
    Chairwoman McCarthy [presiding]. A quorum is present. The 
hearing of the subcommittee will come to order.
    Pursuant to Committee Rule 12A, any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    Before we begin, I would like everyone to take a moment to 
ensure that your cell phones and BlackBerrys are on silent. So, 
I will give you a second to turn everything off, please--
members, also.
    I now recognize myself, followed by the ranking member, Mr. 
Platts from Pennsylvania, for an opening statement.
    I am pleased to welcome all of you to the Subcommittee on 
Healthy Families and Communities joint hearing with the 
Judiciary Subcommittee on Crime, Terrorism and Homeland 
Security, chaired by my colleague, Representative Bobby Scott 
from Virginia.
    We appreciate the subcommittee's participation today and 
his personal desire to demonstrate the importance of the 
Juvenile Justice Delinquency Prevention Act, or J.J.
    I would also like to thank my ranking member, Mr. Platts, 
my colleague on the Healthy Families Subcommittee, and Ranking 
Member Forbes, for their interest and supporting the hearing.
    Finally, I want to recognize Chief Joseph Wing, from the 
Hempstead Police Department in my district. We met yesterday 
with Detective Thomas Doran, talking about the projects that we 
have in my district on helping juveniles.
    I met with Chief Wing. And also, we talked about Project 
CeaseFire, Project Impact and the Nurse and Family 
Partnership--some effective juvenile programs they are working 
with, with our D.A. in Nassau County.
    So, I want to thank you both for being here this afternoon 
and thank you for coming down to see me.
    Today's hearing serves as an overview of the legislation 
and will also offer perspectives for the Subcommittee on 
Healthy Families and Communities to consider as we move through 
the reauthorization process.
    Although this is our first hearing on this topic in 
Washington, last month our subcommittee held a hearing on gang 
prevention in my district, with Ranking Member Platts and Ms. 
Clarke in attendance.
    We heard about the challenges faced by law enforcement, the 
courts and local communities in dealing with the juvenile 
justice system. Ideally, we would like to prevent youth from 
entering the juvenile justice system, but we must also look at 
how to serve those young people already in the system and 
develop ways to help them get involved in their communities 
after they have served their time.
    J.J. began with a focus on prevention and rehabilitation, 
and has shifted its focus towards accountability and 
sentencing. Unfortunately, many of us think that is just not 
working.
    During a trip to Northern Ireland in May, I had the 
privilege of meeting a number of young people, that they have 
the same rates of crime as we do here. But their system over 
there, president with myself, showed me a play that they wrote. 
And it happened to be about two young women, young girls. They 
were both about 14 at the time.
    And it went through where they got into a little bit of 
trouble. One judge took one young lady and said, you know, this 
is your first offense, and we think that, you know, we want to 
work with you. And she did not go to prison.
    The other young woman, unfortunately, got another judge, 
and he put her into prison. Their paths certainly separated, 
but their lives changed dramatically.
    The young woman that did not go to prison was doing 
community service, got involved in the right agencies and went 
on and finished high school, went on to college and certainly 
had a productive life.
    The other young woman, every time she came out of prison 
ended up doing a criminal act. And in the end, unfortunately, 
ended up killing someone and ended up going to prison for the 
rest of her life.
    What the play showed, and what we know in life, depending 
on how we handle our young people, that is going to be how 
their lives are going to go. And I think that is important for 
us to remember as we go through all the testimony that we are 
going to be hearing.
    Sorry, I adlibbed on that one.
    Young people who do not feel connected to society will look 
to other sources such as gangs for acceptance, stability, 
companionship and a sense of identity.
    For these at-risk children and teenagers, we must invest in 
their education and their personal development. Communities 
must come together to address these challenges. Leaders in 
government, law enforcement, education, business and 
communities must work with kids, parents and citizens to 
address the needs of our young people so they do not enter into 
the juvenile justice system.
    Far too many youth prevention efforts have fallen short, 
and our goal is to reverse that trend.
    The overview today will be to educate members on J.J. and 
raise questions such as, what is the appropriate federal role 
in juvenile justice? Is the coordinating council effective? Do 
we need to update the core mandates?
    What is research telling us about effective programs and 
interventions? What does research into early childhood 
development tell us?
    We will hear testimony today that will help the 
subcommittee answer these questions, as we move to reauthorize 
this important legislation.
    I want to thank you all for joining us today. And now I 
yield to Ranking Member Platts for his opening statement.
    [The prepared statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I am pleased to welcome you to the Subcommittee on Healthy Families 
and Communities Joint hearing with the Judiciary Subcommittee on Crime, 
Terrorism, and Homeland Security, chaired by my colleague, 
Representative Bobby Scott from Virginia.
    We appreciate his Subcommittee's participation today and his 
personal desire to demonstrate the importance of the Juvenile Justice 
and Delinquency Prevention Act, or ``JJ''.
    I would also like to thank Ranking Member Platts, my colleague on 
the Healthy Families Subcommittee and Ranking Member Forbes for their 
interest in this important hearing.
    Finally, I want to recognize Chief Joseph Wing from the Hempstead 
Police Department in my district.
    I met with Chief Wing yesterday and he told me about Project 
Ceasefire, Project Impact and the Nurse and Family Partnership, some 
effective juvenile programs they are working on in Nassau County.
    Thank you Chief for the hard work you and your officers are doing.
    Today's hearing serves as an overview of the legislation and will 
also offer perspectives for the Subcommittee on Healthy Families and 
Communities to consider as we move through the reauthorization process.
    Although this is our first hearing on this topic in Washington, 
last month our Subcommittee held a hearing on gang prevention in my 
district with Ranking Member Platts and Ms. Clarke in attendance.
    We heard about the challenges faced by law enforcement, the courts, 
and local communities in dealing with the juvenile justice system.
    Ideally, we want to prevent youth from entering the juvenile 
justice system, but we must also look at how to serve those young 
people already in the system and develop ways to help them get involved 
in their communities after they have served their time.
    JJ began with a focus on prevention and rehabilitation and has 
shifted focus towards accountability and sentencing.
    Unfortunately, it may not be working. During a trip to Northern 
Ireland, which has had its share of juvenile crime, I saw a play 
written about 2 young girls who commit the same crime.
    One of the girls received a sentence that didn't involve jail time.
    She learned from her mistake and lived a normal crime-free life. 
The other girl was sent to prison. While in prison, she became more 
involved with the crime world, and there were no efforts to educate or 
train her. When she left prison, she was well educated, however--in 
crime. She eventually killed another person. Not only was her life 
destroyed, but she has destroyed other lives as well. This story 
highlights how a single decision in the court system can directly 
affect the outcome of a person's life.
    We heard similar stories to this at our field hearing from former 
gang members, and we need to remember this as we consider JJ. We know 
there are factors which will lead to crime. Young people who don't feel 
connected to society will look to other sources, such as gangs, for 
acceptance, stability, companionship, and a sense of identity.
    For these at-risk children and teenagers, we must invest in their 
education, and their personal development. Communities must come 
together to address these challenges. Leaders in government, law 
enforcement, education, businesses, and communities, must work with 
kids, parents and citizens to address the needs of our youth so they do 
not enter the juvenile justice system.
    Far too many youth prevention efforts have fallen short and our 
goal is to reverse that trend.
    The overview today will educate Members on JJ and raise questions 
such as what is the appropriate Federal role in juvenile justice? Is 
the Coordinating Council effective? Do we need to update the Core 
Mandates? What is research telling us about effective programs and 
interventions? What does research into early childhood development tell 
us? We will hear testimony today that will help the Subcommittee answer 
these questions as we move to reauthorize this important legislation. 
Thank you all for joining us today, and I now yield to Ranking Member 
Platts for his opening statement.
                                 ______
                                 
    Mr. Platts. Thank you, Madam Chair. I appreciate you and 
Chairman Scott hosting this hearing and starting the ball 
rolling on the reauthorization of the Juvenile Justice and 
Delinquency Prevention Act. I also appreciate having Ranking 
Member Forbes with us.
    To each of our witnesses, we very much appreciate the time 
you have taken from your schedules to be here today, and in 
preparation of your testimonies and the first-hand knowledge 
you bring to this topic. And today's hearing is very much about 
us learning from you. And each of you in your respective fields 
are, in some fashion, on the front lines of this issue.
    We appreciate your participation and the expertise you 
bring to us. Your presence will help to ensure that we are more 
dutiful and informed as we move forward with reauthorization.
    I am going to submit my written statement for the record. 
And as we get into introductions, I will recognize one of my 
constituents, our district attorney, at the appropriate time.
    So, thank you, Madam Chair.
    [The prepared statement of Mr. Platts follows:]

   Prepared Statement of Hon. Todd Russell Platts, Ranking Minority 
        Member, Subcommittee on Healthy Families and Communities

    Good afternoon. I'd like to welcome each one of you to this joint 
hearing entitled ``Juvenile Justice and Delinquency Prevention Act: 
Overview and Perspectives.'' I am pleased that the House Judiciary 
Subcommittee on Crime, Terrorism, and Homeland Security is able to join 
us today in learning about the very important issue of juvenile crime 
prevention.
    Over 30 years ago, Congress enacted the Juvenile Justice and 
Delinquency Prevention Act (JJDPA) to coordinate the federal 
government-wide response to juvenile delinquency. The JJDPA provides 
grants to states so that they can effectively implement juvenile 
justice systems within their borders. In order to receive these funds, 
states must formulate comprehensive plans of administration that meet 
specific requirements outlined by JJDPA. The states then use these 
funds to implement community based alternatives to detention, 
counseling and mentoring programs, substance abuse prevention programs, 
or other delinquency treatment programs.
    In addition, JJDPA provides federal grants to programs aimed to 
prevent juvenile delinquency through the Juvenile Delinquency 
Prevention Block Grant. Block grant funds can be used to encourage 
juveniles to stay in school, prevent gang activity, or research new 
approaches to prevent school violence and vandalism.
    The purpose of today's hearing is to learn more about current 
efforts that are being taken to effectively treat juvenile delinquents, 
as well as to gain a better understanding of the prevention efforts 
employed around the country. It is important that we take the wisdom 
that will be shared with us by these experts in the field and use it to 
improve the juvenile justice system.
    I am glad that we are holding this hearing today and look forward 
to hearing testimony from this expert panel. I believe that one of the 
most important things that we can do as legislators is to craft 
legislation that prevents juvenile delinquency and encourages healthy 
child development.
    We know that investing in prevention methods now, saves substantial 
resources in the future. For that reason, I am a strong advocate for 
quality home visitation programs. Home visitation programs connect 
nurses or teachers with new families to educate them on healthy child 
development and school readiness, as well as connect them to critically 
needed services. Home visiting is a bridge that links the resources of 
the community with the safety of the home environment, empowering even 
the most vulnerable parents to build a better future for themselves and 
their children. Research shows that families that participate in home 
visitation services rely less on public assistance, have fewer problems 
with substance use, and have substantially less involvement with the 
criminal justice system. With that, I yield back to Chairwoman 
McCarthy.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Platts.
    I now yield to the chairman of the House Committee on 
Judiciary Subcommittee on Crime, Terrorism and Homeland 
Security, Mr. Bobby Scott, for his opening statement.
    Mr. Scott. Thank you. Thank you, Madam Chairman. I would 
like to thank you for holding this afternoon's hearing on the 
reauthorization of the Juvenile Justice and Delinquency 
Prevention Act.
    Both of our subcommittees have jurisdiction over juvenile 
justice. However, the Subcommittee on Crime does not have 
jurisdiction until they actually commit a crime. And therefore, 
the Crime Subcommittee has an interest in helping the Healthy 
Families Subcommittee prevent crime and keep those youths out 
of my subcommittee. [Laughter.]
    Over 100 years ago, differing needs of juveniles and adults 
in the criminal justice system were recognized with the 
establishment of separate juvenile courts. This system has 
since been confirmed by brain development research showing that 
treating juveniles as adults is not physiologically or fiscally 
sound.
    Since 1974, JJDPA has turned this concept into separate 
systems and to national standards for the states. The act 
creates two federal agencies--the Office of Juvenile Justice 
Delinquency Prevention and the Coordinating Council for 
Juvenile Justice and Delinquency Prevention--and authorizes 
several grant programs, including state formula grants and 
delinquency prevention block grants.
    Although JJDPA's original focus was on prevention and 
rehabilitation, in recent years, juvenile justice policies have 
reflected an increasing trend towards punishment and 
lengthening incarceration. I hope we can help shift juvenile 
justice policy back towards prevention and rehabilitation 
programs, which have been proven to reduce crime and save 
money.
    This shift towards prevention and rehabilitation would be 
in line with research-driven crime prevention strategies. 
Research has consistently shown that continuum of services can 
significantly reduce crime.
    Those kinds of services would start with teen pregnancy 
prevention, prenatal care, parental training for teen parents, 
nurse home visits, early childhood education, things like Head 
Start and after-school activities, substance abuse treatment, 
dropout prevention and access to college--getting them on the 
right track and keeping them on the right track.
    Many of these strategies are contained in the state formula 
grant program, which requires state juvenile justice agencies 
to use this money for a wide variety of programs, including 
services that focus on child abuse and neglect, mental health 
services and community-based alternatives to incarceration.
    In order for states to receive the formula grant money, 
they must agree to abide by four, core mandates. These mandates 
require states to address the de-institutionalization of status 
offenders. They talk about how long and under what conditions 
juveniles can be detained and the over-incarceration of 
minorities. These mandates were milestone achievements in 
juvenile justice.
    Unfortunately, in recent years, we have seen an influx of 
juveniles into the adult system. And since 1990, the number of 
youth in adult jails has increased by over 200 percent.
    But research has shown time and time again that treating 
more juveniles as adults does not work. At juvenile facilities, 
youth offenders receive education and other services, such as 
counseling, and the judge may even order family services.
    However, juveniles going to the adult system get no such 
program, but they do have new role models--the hardcore, adult 
criminal offenders.
    Moreover, studies show that juveniles in adult facilities 
are five times more likely to be sexually assaulted and eight 
times more likely to commit suicide than in juvenile 
facilities. So, it comes as no surprise that studies show that, 
if we treat more juveniles as adults, we will create more 
crime, those crimes will be created sooner and are more likely 
to be violent.
    As we move towards the JJDPA reauthorization in the 110th 
Congress, I hope that we can continue using evidence-based 
research practices that cost-effectively reduce crime. In 
addition, I hope that we can continue to recognize the benefits 
of treating youth as youth and not as adults.
    So, thank you, Madam Chairwoman for holding the hearing, 
and I look forward to the testimony today.
    [The prepared statement of Mr. Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Chairwoman McCarthy. I would like to thank you for 
holding this afternoon's joint hearing on the reauthorization of the 
Juvenile Justice and Delinquency Prevention Act. Both of our 
subcommittees have jurisdiction over juvenile justice; however, the 
Crime subcommittee doesn't have jurisdiction until after a crime is 
committed. Therefore, the Crime subcommittee has an interest in helping 
the Healthy Families subcommittee prevent crime and keep these youths 
out of the criminal justice system--and out of our subcommittee.
    Over 100 years ago, the differing needs of juveniles and adults in 
the criminal justice system were recognized with the establishment of 
separate juvenile justice courts. This separation has since been 
confirmed by brain development research showing that treating juveniles 
as adults is not physiologically--or fiscally--sound.
    Since 1974, JJDPA has turned this concept of separate systems into 
national standards for the states. JJDPA creates two federal agencies--
the Office of Juvenile Justice and Delinquency Prevention and the 
Coordinating Council for Juvenile Justice and Delinquency Prevention--
and authorizes several grant programs, including state formula grants 
and delinquency prevention block grants.
    Although JJDPA's original focus was on prevention and 
rehabilitation, in recent years juvenile justice policies have 
reflected increasing punishment and lengthening incarceration. I hope 
we can help shift juvenile justice policy back towards strategies 
proven to reduce crime and save money.
    This shift towards prevention and rehabilitation would be in line 
with research-driven crime prevention strategies. Research consistently 
shows that a continuum of services can significantly reduce crime; 
these services include teen pregnancy prevention, prenatal care, 
parental training for teen parents, nurse home visits, early childhood 
education programs like Head Start, afterschool activities, substance 
abuse treatment, drop out prevention, and access to college.
    Many of these strategies are contained in the state formula grant 
program, which requires state juvenile justice agencies to use this 
money for a wide variety of prevention programs including services that 
focus on child abuse and neglect, mental health services, and 
community-based alternatives to incarceration.
    In order for states to receive state formula grant money, they must 
agree to abide by four core mandates. These mandates require states to 
deinstitutionalize status offenders, to outline how long and under what 
conditions juveniles can be detained, and to address any over-
incarceration of minorities. These mandates were milestone achievements 
in juvenile justice. Unfortunately, in recent years, we have seen an 
influx of juveniles into the adult criminal system--since 1990 the 
number of youth in adult jails has increased by over 200% .
    Research has shown time and time again that treating more juveniles 
as adults doesn't work. At juvenile facilities, youth offenders receive 
education and other services, such as counseling, and judges can even 
order family services. However, juveniles going to adult prison get no 
such programs and have new role models--hard core adult criminal 
offenders. Moreover, studies show that juveniles in adult facilities 
are 5 times more likely to be sexually assaulted and 8 times more 
likely to commit suicide than those in juvenile facilities. So it comes 
as no surprise that studies show that if we treat more juveniles as 
adults, we will create more crime, those crimes will be committed 
sooner and are more likely to be violent.
    As we move forward with JJDPA reauthorization in the 110th 
Congress, I hope we can continue using evidence-based research 
practices to cost-effectively reduce crime. In addition, I hope we can 
continue to recognize the benefits of treating youths as youths, not 
adults. Thank you again, Chairwoman, for holding this hearing and I 
look forward to today's testimony on JJDPA is working.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Scott.
    I now would like to yield to ranking member of the House 
Committee on Judiciary, Subcommittee on Crime, Terrorism and 
Homeland Security, Mr. Randy Forbes, for his opening statement.
    Mr. Forbes. Thank you, Madam Chairman, and thank you, 
Chairman Scott and Ranking Member Platts. It is great to be 
here today. And I want to thank all the witnesses for being 
here.
    Certainly, the Juvenile Justice and Juvenile Delinquency 
Prevention Act, which was enacted in 1974 and reauthorized in 
2002, established an important framework for juvenile justice 
in America. And I am pleased that we are going to be looking to 
reauthorize the act again and take a meaningful look at how the 
act works, what other strategies and approaches might work and 
possible revisions to the act.
    One of the things that seems clear to us is that the stakes 
could never be higher. We are looking at alarming gang rates 
across the country now, probably about 850,000 gang members, 
25,000 gangs, and they operate in about 3,000 communities 
across the country.
    At the same time, we realize that we spent about $2 billion 
between 2001 and 2004 on things that we described as juvenile 
gang prevention programs. A lot of times, what we have got to 
do in this committee is try to get apples and oranges and 
separate the two of them, because almost everything everybody 
says we are going to agree with.
    Nobody is going to say that we should not give young people 
opportunities and chances. We should do that. Nobody is going 
to say we should not have prevention programs. We should do 
that.
    The question for us is how we strike the right balance 
between these programs with the limited number of dollars that 
you have to spend on federal--federal dollars that we have to 
spend, because we have to strike that balance.
    And one of the balances we have to realize is, prevention 
programs do not reach everybody. They reach a lot of people, 
and we should do those prevention programs. But we have got to 
find that mix.
    For example, if you take an individual--and some of our 
criminal gangs that we have testimony in, where we had 60 to 85 
percent of the members who are here illegally--as part of that 
gang member, those intervention dollars are not getting to the 
people that we want to stop.
    And so, for those particular gangs, we have got to ask, how 
do we pull down the gang networks? And part of that is doing 
prevention programs early on to stop individuals who may want 
to be recruited by gangs.
    But the other part of it is, how do we formulate the 
coalitions between local law enforcement, state law enforcement 
and federal law enforcement to rip those recruiting machines 
down, which is exactly what some of these gang networks are, so 
that we can strike that right balance. And that is what we are 
hoping to be able to do today, is to be able to strike that 
balance.
    And one of the other things. My dear friend from Virginia, 
Bobby Scott, will always talk about evidence-based studies. But 
I still remember years ago I had a good friend of mine in the 
Virginia General Assembly. He was a great trial lawyer. And he 
was telling us about a case--and Bobby would know this guy. He 
has since died.
    But he said he went into a trial one day, and he looked at 
the jury. And there were some people on the jury that he knew. 
And he was just excited, with his client, came back and sat 
down and said, ``We are going to be okay with this trial.''
    They go through the trial. And at the end he is doing the 
summation and he is telling the jury, ``Now, listen to all the 
evidence that has been presented. And when you do, I know you 
are going to acquit my client.''
    Well, they found his client guilty. And afterwards he was 
asking the jurors, especially the one he knew. He said, ``Why 
did you let this guy go?''
    And the juror said, ``Well, based on the evidence, he was 
guilty.''
    And he said, ``No, I did not mean all the evidence. I mean 
the evidence that I put in that you are supposed to look at.'' 
[Laughter.]
    And that is sometimes the way we all are. We listen to our 
evidence and we say, this is an evidence-based program.
    But what we have got to try to do is to realize that most 
of the people we will hear testify here are right, you know. 
And the question, though, is striking the balance and how we 
get that balance. And I am just appreciative, Mrs. Chairman, 
that you are having this hearing today, and hope we will be 
able to strike that right balance.
    I yield back the balance of my time.

 Prepared Statement of Hon. Randy Forbes, Ranking Member, Subcommittee 
               on Crime, Terrorism and Homeland Security

    Thank you, Chairwoman McCarthy, Chairman Scott, and Ranking Member 
Platts. I appreciate this joint hearing on such an important topic.
    The Juvenile Justice and Juvenile Delinquency Prevention Act, which 
was enacted in 1974, and reauthorized in 2002, established an important 
framework for juvenile justice in America.
    I am pleased that we are looking to reauthorize the Act again, and 
taking a meaningful look at how the Act works, what other strategies 
and approaches might work, and possible revisions to the Act.
    The stakes could not be any higher--while it is true that the 
number of violent crimes committed by juveniles has declined in the 
last 25 years, juveniles continue to commit violent crimes at an 
alarming rate. Moreover, recent statistics show that youth gang 
membership is on the rise.
    Gang members today are younger and younger--that is a most 
troubling development. Now, we hear about gang recruitment that occurs 
with children as young as 8 years old. Young gang members now graduate 
in their teens to be violent shooters, violent robbers and carjackers 
who terrorize our law-abiding communities. According to recent FBI 
crime statistics, nearly one in every three gang homicide murders is 
committed by offenders under the age of 18. Gang members know that 
juveniles are unlikely to be prosecuted and punished as adults, 
especially in the federal system.
    According to the most recent survey, gang membership has grown to 
750,000--850,000 in 25,000 gangs operating in 3,000 communities across 
the country. Conservative estimates show that we spent over $2 billion 
dollars between 2001 and 2004 on juvenile and gang prevention programs. 
From 1999 to 2005 Congress appropriated over $3.3 billion for juvenile 
justice programs. Yet, juvenile gang violence is on the rise, including 
the number of gang murders committed by juveniles.
    The Juvenile Justice and Juvenile Delinquency Prevention Act 
created a mix of enforcement, intervention and prevention programs. We 
must make sure that the balance is appropriate--meaning that violent 
juvenile offenders who commit serious crimes must be removed from the 
community. At-risk youth must be identified and effective intervention 
strategies must be implemented. We can no longer afford to provide 
``feel good'' intervention strategies and programs and hope for the 
best. We must ensure that State and local governments provide cost-
effective programs that have been evaluated using valid statistical 
techniques and found to reduce juvenile crime.
    To me, it makes little sense to waste federal dollars on an 
intervention strategy unlikely to succeed. Consider a 15 year-old MS-13 
gang member who is an enforcer for this international gang and whether 
he really is an appropriate candidate for a juvenile intervention 
strategy.
    I also am gratified to see the research on the effectiveness of 
intervention programs based on graduated sanctions. Whether it is the 
drug court, reentry court or juvenile court context, we have seen time 
and again research that shows that such programs are cost effective and 
reduce the risk of recidivism. I am interested in how such programs can 
be expanded in the juvenile justice context.
    To be sure, reducing the rate of recidivism among juvenile 
offenders should be a high priority for federal, state and local 
governments. The burden of a high number of career juvenile offenders 
is mind-boggling when you consider the cost of incarceration, the harm 
to victims and communities, and the impact on families.
    I look forward to hearing from today's witnesses and working 
together on this important issue.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Forbes.
    Without objection, all members will have 14 days to submit 
additional materials or questions for the hearing record. Let 
me introduce our witnesses.
    Today we will hear from a panel of witnesses. Your 
testimonies will proceed in the order of your introduction.
    Now, I wish to recognize the distinguished gentleman from 
Arizona, Mr. Grijalva, to introduce our first witness, Mr. 
Derrick Johnson.
    Mr. Grijalva. Thank you very much, Madam Chair and Chairman 
Scott, Ranking Members Platts and Forbes, for this hearing--
indeed, a very important hearing--on the reauthorization of 
this very important act.
    I look forward to hearing from the witnesses today, as we 
explore what works and what does not for youth in our justice 
system, looking at juvenile justice as a whole, prevention, 
management, and a special and important topic to me that I hope 
to work with the committee on, programs and initiatives on re-
entry, which deals with recidivism as much as prevention--very 
important.
    What do we do with these 200,000 young men and women being 
released from our correctional facilities on a yearly basis? 
And what programs do we have in place for them, to assure that 
they stay in the community and go about leading a quality life 
and not return to the process of incarceration?
    But today, I honor I have is to introduce Captain Derrick 
Johnson, with the Phoenix Fire Department, and vice-chair of 
the Arizona State Advisory Group on Juvenile Justice.
    Captain Johnson has been a member of ASAG since October 
1998, was appointed by then-Republican Jane Hull, and 
reappointed by our current governor, Janet Napolitano.
    He also serves on the Governor's Task Force on Juvenile 
Correction Reform, served on the Governor's Juvenile Justice 
Federal Advisory Board from 2003 to 2006.
    Throughout his tenure as a civil servant, Captain Johnson 
has been dedicated to being an active member of his community 
and a champion for child welfare. He has been involved in many 
children's welfare issues, such as gang prevention and youth 
mentoring programs.
    The Arizona Governor's School Readiness Board, he is a 
member of, an early childhood development nonprofit 
organization, and has served on served on several local and 
county government commissions.
    I sincerely want to thank Captain Johnson for being here, 
for his commitment to youth, and look forward to his testimony.
    With that, Madam Chair, I yield back.
    Chairwoman McCarthy. Thank you.
    Now I wish to recognize the distinguished ranking member, 
Mr. Platts from Pennsylvania, who will introduce our next 
witness, the Honorable David Freed.
    Mr. Platts. Thank you, Madam Chair. It is a great pleasure 
and honor to introduce our district attorney for Cumberland 
County, Pennsylvania, David Freed.
    Prior to being district attorney, David was first assistant 
district attorney in Cumberland County, as well as a deputy 
prosecutor in my home county of York County, Pennsylvania. 
Through his work in these various positions, he is certainly 
well familiar with the juvenile justice system and the 
challenges and importance of prevention.
    He also is here as an active member of the Fight Crime: 
Invest in Kids effort, which is, across the nation, a great 
organization of law enforcement officials--district attorneys, 
such as David, sheriffs, chiefs of police and others--who, when 
I talk about being out there on the front lines, truly know 
what is impacting our youth and what will have an impact on 
preventing juvenile delinquency.
    So, we are delighted, David, to have you here and to have 
your expertise shared with the committees.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you, Mr. Platts.
    Now I would like to introduce Congresswoman Shea-Porter 
from New Hampshire. She is going to introduce our next witness, 
the Honorable Paul Lawrence.
    Ms. Shea-Porter. Thank you.
    I am pleased to introduce the Honorable Paul Lawrence, the 
presiding judge of the Goffstown district court in my home 
state of New Hampshire, a position he has served in since 1988. 
Judge Lawrence received his B.A. degree at the University of 
Denver, and also his juris doctorate from the University of 
Denver College of Law.
    Throughout his impressive career, Judge Lawrence has worked 
as an advocate for true social justice for juveniles, with a 
real understanding of the special considerations that must be 
taken into account when addressing youth in our judicial 
system.
    In my state of New Hampshire, Judge Lawrence has served 
since 1991 on the board of directors for PlusTime New 
Hampshire, which provides technical assistance to organizations 
and communities for the development of after-school programs. 
And we know how essential they are for juveniles.
    Since 1994, he has been a member of the State Advisory 
Group on Juvenile Justice, which oversees the development of 
statewide juvenile justice programs. He has also served as the 
co-chair of the New Hampshire Juvenile Detention Alternatives 
Initiative, an organization involved in statewide, 
comprehensive detention reform efforts.
    The judge's efforts on the national level include his 
tenure as chair of the Coalition for Juvenile Justice, his 
continued service as a member of the national steering 
committee of the coalition. And further, since 1993, he has 
served as a member of the National Council of Juvenile and 
Family Court Judges. And we can certainly see where his talents 
and where he chooses to place his heart's interest for the 
interests of the juveniles.
    We certainly thank you for your service, and we are 
delighted to have you here today. Thank you.
    Chairwoman McCarthy. Thank you.
    Our next witness is Mr. Jones. He comes to us from 
Pennsylvania. Mr. Jones is an assistant teacher at a parental 
stress center, but is here today to share with us his 
experience in the Community Intensive Supervision Program, a 
program that is an alternate to incarceration.
    Those participating in the program remain in their 
communities, continue to go to school, complete the community 
service, are connected with positive community resources.
    As he moved through the program, Mr. Jones mentored younger 
and newer entries into the program and completed his high 
school. In fact, he graduated with honors.
    We are very pleased to have you here with us, and we are 
looking forward to your testimony.
    I would like to recognize the chairman of the Judiciary 
Subcommittee on Crime, Terrorism and Homeland Security, a 
member of the Education and Labor Committee, Mr. Bobby Scott, 
to introduce our next witness, Mr. Robert Shepherd.
    Mr. Scott. Thank you, Madam Chairman, and it is my pleasure 
to introduce Robert Shepherd, emeritus professor of law, 
University of Richmond Law School.
    Bob Shepherd holds both undergraduate and law degrees from 
Washington and Lee University and has truly worked in all 
fields of juvenile justice, from the Attorney General's Office 
to directing a youth advocacy clinic.
    He is well respected in his field and has earned numerous 
accolades and awards, including the Juvenile Justice Community 
Service Award from the Virginia Juvenile Officers Association 
and the Livingston Hall Award in Juvenile Justice from the 
American Bar Association.
    He is a nationally recognized expert on juvenile justice 
law, and I would like to thank him for being with us today to 
talk about the importance of integrating research-based 
practices into JJDPA, and look forward to his recommendations.
    So, Bob, it is good to see you here.
    And thank you, Madam Chairman, for the opportunity to 
introduce him.
    Chairwoman McCarthy. Thanks, Mr. Scott.
    Our last witness today is Dr. Jennifer Woolard. She is an 
assistant professor in the Department of Psychology at 
Georgetown University. Her current research with juvenile 
defendants addresses police interrogation, the attorney-client 
relationship and the role of parents in adolescents' legal 
decision-making.
    She also works with local nonprofit agencies to study 
community change and youth violence prevention. Her recent 
research collaborations include membership on the John D. and 
Catherine T. MacArthur Foundation Research Network on 
Adolescent Development and Juvenile Justice.
    She has presented her research findings to a wide variety 
of academic, legal and policy audiences, and won several awards 
for undergraduate teaching excellence.
    We thank you for being here. We thank all of you for being 
here.
    For those of you who have not testified before this 
subcommittee, let me explain our lighting system.
    When it is your turn--and certainly, even the members' 
turn--you get 5 minutes. That will be a green light. When the 
yellow light goes on, that means that you have 1 minute to 
finish up.
    When you hear me start tapping, I will start tapping 
lightly, and then I will get louder. We have to cut you off.
    We are going to have votes probably around 4:30, so this 
should be good, because we will probably get through all the 
testimony and questions by that time. So, again, when we start, 
your light will go on.
    We will now hear from our first witness, Mr. Derrick 
Johnson.

  STATEMENT OF DERRICK JOHNSON, VICE-CHAIR, ARIZONA JUVENILE 
                       JUSTICE COMMISSION

    Mr. Johnson. Thank you, Madam Chair and Ranking Member 
Platts. And thank you, Congressman Grijalva, for your 
introduction and also for your welcome, and also, the committee 
as a whole and subcommittee for listening to us today and 
listening to what we have to say about this issue.
    Some people have asked me, well, how did a firefighter get 
involved in juvenile justice? My experience started with 
working in the inner city of Phoenix, and I currently still do, 
where I was seeing young people, and unfortunately, as recently 
as the last 2 months, have seen four young people who have been 
shot to death and also seriously injured.
    I wanted to know why this was going on, because not only 
were the lives of these children being destroyed, but also 
their families and the community.
    So, that led me into actually going out and spending time 
with the kids and listening to their families and to their 
issues, and finding out that a lot of these children were 
misinformed. They had certainly had the wrong view of the 
world, in the sense that they felt like they were invincible.
    And when you looked at the influences involved with these 
children--and there is certainly a lot of social, economics and 
values and beliefs--what was common to me was that, most 
children did not want to be in that process, if they had an 
alternative.
    That led me to being involved with children's issues, as my 
testimony spoke about. And what I found myself looking at was a 
systematic way of dealing with these children and these 
families.
    You could fix a neighborhood. You can maybe even fix a 
certain part of the city, but it seemed to just move around and 
be very pervasive.
    So, when I looked at and was asked by former Governor Jane 
Hull to sit on the SAG, I did not know much about it. It said 
for state advisory group, and I thought that was kind of a 
catchy name, and so, I started looking into it.
    What I found out was that the core principles--the four 
principles that were very important to this--and what was very 
important to me was that it came from a federal level. It just 
did not allow states to decide what they wanted to do, because 
collectively as a nation, we decided that kids should be 
treated differently.
    And we may go back and forth on how that should be and why 
that should be, but we all agree as a country that kids are 
different than adults.
    And some of those principles were: to prevent juvenile 
delinquency and keep kids out of the criminal justice system--I 
think we all know that that, as you go through life, no one 
wants to stay in that process their entire life; reduce racial 
and ethnic disparities at all points of the system; provide 
age-appropriate and developmentally appropriate programs, as 
well as punishments, for children; and then also to invest in 
the resources, which is our children.
    At a state level, what that did--this particular act did--
was it allowed the state advisory groups to be made up of 
people across the community. And that is how I actually was 
involved in this.
    It also requires that there is federal funding for 
delinquency programs and improvement in local and juvenile 
justice programs, if there is a coordination. And it also 
created the OJJDP, the Office of Juvenile Justice and 
Delinquency Prevention.
    The four requirements are DSO, which is de-
institutionalization of status offenders, which simply just 
means you cannot lock kids up for things that an adult would do 
that would not be considered a crime, such as smoking, truancy, 
tobacco use, things like that.
    Adult in jail lockup removal. What we found through 
research is that, when kids are put in with adults, they are 
easily influenced. But they also become victims of adults that 
are in the system.
    Sight and sound separation, which just means keep kids and 
adults away from each other, so they cannot be intimidated, and 
they certainly cannot be touched.
    And disproportionate minority contact with youth. And that 
just meant making sure that kids that are in the system that 
are minorities are just treated with equity. It is just as 
simple as that.
    The money that comes down to the states is very important. 
And I wanted to share a few successes that have happened in our 
state of Arizona.
    We have, through this group, we all collectively look at 
this and we decide how these monies should be spent, based on 
these programs, and one is alternatives to detention.
    In our state, in 2006, approximately 3,400 youth were going 
through the system that would have gone through the law 
enforcement system, but actually went to detention programs. 
And this keeps kids out of the system.
    And these were very simple things in the sense that kids 
just did not have to go through the criminal system. They could 
go through alternatives. And that was good for the family.
    General prevention. And out of that, we had 1,500 youths 
that were served in these delinquency programs.
    Some of the outcomes were that 85 percent of the youths 
reported a positive change in their school attendance. Also, 86 
percent of the youths served reported a positive change in 
their anti-social behavior. And then DMC, and we looked at 
doing different practices.
    And I wanted to share that with you, just to say that this 
is a very important act. I certainly hope that you reauthorize 
it, and I would just ask you to support this program.
    And that is all I have to say.
    [The statement of Mr. Johnson follows:]

  Prepared Statement of Derrick Johnson, Vice-Chair, Arizona Juvenile 
                           Justice Commission

Introduction
    Good afternoon. I am honored to have been asked by Chairwoman 
McCarthy to speak on behalf of the Juvenile Justice and Delinquency 
Prevention Act , better known as the JJDPA.
    My name is Derrick Johnson and I am Vice-Chair of the Arizona 
Juvenile Justice Commission, which is Arizona's State Advisory Group on 
Juvenile Justice as required by the JJDPA and which comprises 24 
members appointed by the Governor, each of whom has training, 
experience and special knowledge concerning the prevention and 
treatment of juvenile delinquency and the administration of juvenile 
justice. Our membership includes representation from juvenile justice 
agencies, other child- and family-serving agencies, private nonprofit 
organizations, locally elected officials, citizen-volunteers and youth. 
Through the Arizona SAG, I am also a member of the Coalition for 
Juvenile Justice (CJJ), which is the national leadership association of 
State Advisory Groups under the JJDPA.
    I have been a member of the Arizona SAG since 1998. I also serve on 
the Governor's Taskforce on Juvenile Corrections Reform and previously 
served as Governor Napolitano's appointee to the Juvenile Justice 
Federal Advisory Board from 2003--2006. My background, however, does 
not begin in juvenile justice.
    I am currently a Captain and Paramedic with the Phoenix Fire 
Department where I have served for 24 years in the central/downtown 
areas of the city. Early in my career, I found myself responding to 
homeless children and families in crisis. I would soon learn that there 
were an estimated 5,000 children in the Metro Phoenix area who were not 
in school because of homelessness. Beginning in the 1990s, I also found 
myself responding to a number of homicides of children and youth that 
were linked to gang violence. This experience led me to begin looking 
at gangs and ways to prevent gang violence.
    Thus, in addition to my service with the Arizona SAG, I have been 
extensively involved in children's issues such as the development of 
the Thomas J. Pappas (Public) School for homeless children in Central 
Phoenix, gang prevention and youth mentoring programs, the Arizona 
Governor's School Readiness Board and early childhood development non-
profit organizations. I bring my experiences and perspectives on all of 
these issues with me as I talk to you about the importance of the JJDPA 
and its reauthorization.
Reauthorization of the JJDPA
    Established in 1974 by bi-partisan legislation and most recently 
reauthorized in 2002, the Juvenile Justice and Delinquency Prevention 
Act (JJDPA) embodies a partnership between the federal government and 
the U.S. states, territories and the District of Columbia (``the 
states'').
    For more than 30 years, the JJDPA has provided protection to 
children and youth who come in contact with the juvenile and criminal 
justice systems, transformed the lives of young people and contributed 
to historic lows in juvenile crime and delinquency rates nationwide.
    Unfortunately, the federal government's wavering commitment to this 
partnership--evidenced by a 55% decrease over the last five years in 
federal funding to the states for improvement of their juvenile justice 
systems--may undo the good work that we have accomplished together and 
hinder future advancements and achievements for young people, their 
families and our communities.
    Therefore, as the 110th Congress approaches the 2007 
reauthorization of this important legislation, the Arizona Juvenile 
Justice Commission and the Coalition for Juvenile Justice (CJJ) look to 
you to affirm the federal-state partnership around juvenile justice and 
delinquency prevention and strengthen that partnership so that together 
the federal government and the states more effectively prevent and 
reduce juvenile delinquency. In doing so, the Arizona Juvenile Justice 
Commission and the Coalition for Juvenile Justice, along with 150 
organizations under the Act 4 Juvenile Justice Campaign, urge Congress 
to adhere to the following four principles:
    1. Prevent juvenile delinquency and keep children and youth out of 
the juvenile and criminal justice systems;
    2. Reduce racial and ethnic disparities at all points with the 
juvenile justice system;
    3. Provide age- appropriate and developmentally-appropriate 
sanctions and interventions for young people who come into contact with 
the juvenile justice system; and
    4. Invest adequate financial resources in evidence-based programs 
and practices that yield immediate and long-term results.
Brief history and overview of the JJDPA
    As early as 1909, Congress recognized a role for the federal 
government in supporting and improving juvenile justice systems at the 
state and local level. This role, which would evolve over the next 60 
years, culminated with the enactment of the Juvenile Justice and 
Delinquency Prevention Act (JJDPA) in 1974.
    In short, the JJDPA provides for:
    1) A state-level juvenile justice planning and advisory system via 
the establishment of governor-appointed State Advisory Groups (SAGs) 
comprised of volunteer citizens in all U.S. states, territories and the 
District of Columbia to determine state needs, craft state juvenile 
justice and delinquency prevention plans and meet federal mandates;
    2) Federal funding for delinquency prevention and improvements in 
state and local juvenile justice programs conditioned upon the states' 
compliance with four core requirements/protections (explained in 
further detail below); and
    3) Operation of a federal agency--the Office of Juvenile Justice 
and Delinquency Prevention (OJJDP)--dedicated to training, technical 
assistance, model programs, and research and evaluation to support 
state and local juvenile justice and delinquency prevention efforts.
Core Requirements/Protections
    To be eligible for the Title II state formula funds provided under 
the JJDPA, each state must comply with the following core requirements/
protections:
    1. Deinstitutionalization of Status Offenders (DSO). Under Sec. 
223(a)(11) of the JJDPA, status offenders--children under the age of 18 
who commit acts that if done by an adult would not be considered crimes 
such as skipping school, running away, breaking curfews and possession 
or use of tobacco and/or alcohol--may not be held in secure detention 
or confinement, with a few exceptions. The DSO provision seeks to 
ensure that status offenders who have not committed a criminal offense 
are not held in secure juvenile facilities for extended periods of time 
or in secure adult facilities at all.
    2. Adult Jail and Lock-up Removal (Jail Removal). Under Sec. 
223(a)(13) of the JJDPA, youth may not be detained in adult jails and 
lock-ups with limited exceptions. However, the ``jail removal'' 
provision does not apply to children who are tried or sentenced in 
adult criminal court. This provision is designed to protect children 
from psychological abuse, physical assault and isolation.
    3. Sight and Sound Separation (Separation). Under Sec. 223(a)(12) 
of the JJDPA, when children are placed in an adult jail or lock-up for 
any period of time, not matter how limited, ``sight and sound'' contact 
with adults is prohibited. This ``separation'' provision requires that 
children cannot be housed next to adult cells, share dining halls, 
recreation areas or any other common spaces with adults, or be placed 
in any circumstance that could expose them to threats or abuse from 
adult inmates.
    4. Disproportionate Minority Contact (DMC). Under Sec. 223(a)(22) 
of the JJDPA, states are required to assess and address the 
disproportionately high contact of youth of color with the juvenile 
justice system at all points of contact--from arrest to detention to 
confinement. The DMC provision requires states and local jurisdictions 
to gather data to determine whether and what extent DMC occurs and to 
address the reasons for disproportionate minority contact and racial/
ethnic disparities.
Funding
    Under the JJDPA, three major streams of funding support the 
federal-state partnership:
    1. The State Formula Grants Program, authorized under Title II of 
the JJDPA, supports state efforts to implement comprehensive state 
juvenile justice plans based on detailed studies of needs in their 
jurisdictions and achieve compliance with the core requirements of the 
JJDPA.
    2. The Incentive Grants for Local Delinquency Prevention Program, 
commonly known as the Community Prevention Grants Program and 
authorized under Title V of the JJDPA, provides funding to the locals 
for collaborative, community-focused and community-based delinquency 
prevention efforts to reach youth in high-risk situations before they 
make poor choices.
    3. The Delinquency Prevention Block Grant Program (DPBG), created 
during the 2002 JJDPA Reauthorization, but only funded for one year, 
was meant to provide funding directly to the local jurisdictions in 
order to prevent and reduce juvenile crime including projects that 
provide treatment to juvenile offenders and juveniles who are at risk 
of becoming juvenile offenders.
    In addition, the Juvenile Accountability Block Grant Program 
(JABG), authorized under the Omnibus Crime Control and Safe Streets Act 
of 2002 and administered by OJJDP, supports state and local units of 
government, particularly law enforcement, in their efforts to support 
the state plan and strengthen their juvenile justice systems. JABG 
provides funding for a variety of different programs, including but not 
limited to, gang prevention and anti-bullying initiatives; graduated 
sanctions programs that include counseling, restitution, community 
service, and supervised probation; substance abuse programs; mental 
health screening and treatment; reentry; and restorative justice 
programs.
The importance of the JJDPA
    The JJDPA has always enjoyed bi-partisan support and is viewed as 
legislation that benefits children and youth, families and communities. 
At its heart, the JJDPA is a prevention Act. What the JJDPA has 
accomplished, it has accomplished quietly. The accomplishments 
themselves, however, speak volumes and underscore the importance of the 
Act.
    First, justice-involved youth are safer because of the core 
requirements/protections in the JJDPA. Under the DSO core requirement/
protection, Sec. 223(a)(11), youth charged with non-criminal status 
offenses, such as skipping school, running away or breaking curfew, are 
kept out of secure facilities, which should be reserved only for those 
youth who pose a direct safety risk to themselves and the community. 
Furthermore, under the Jail Removal and Separation core requirements/
protections, Secs. 223(a)(12) and (13), youth who are detained in 
secure facilities are protected from the psychological abuse, physical 
assault and isolation of adult jails where they have been found to be 
eight times more likely to commit suicide,\1\ two times more likely to 
be assaulted by staff \2\ and 50 percent more likely to be attacked 
with a weapon than children in juvenile facilities.\3\
---------------------------------------------------------------------------
    \1\ Michael G. Flaherty, An Assessment Of The National Incidence Of 
Juvenile Suicide In Adult Jails, Lockups And Juvenile Detention 
Centers, The Community Research Forum of the University of Illinois 10 
(1980).
    \2\ Forst, Martin, Jeffrey Fagan, and T. Scott Vivona. (1989) 
``Youth in Prisons and Training Schools: Perceptions and Consequences 
of the Treatment-Custody Dichotomy.'' Juvenile and Family Court Journal 
9:1.
    \3\ Ibid.
---------------------------------------------------------------------------
    Second, the disparate treatment of minority youth is assessed and 
addressed because of the JJDPA. Youth of color make up one-third of the 
general youth population but two-thirds of youth who come into contact 
with the juvenile justice system.\4\ Moreover, studies indicate that 
youth of color receive tougher sentences and are more likely to be 
incarcerated than white youth for the same offenses.\5\ Under the DMC 
core requirement/protection, Sec. 223(a)(22), states are required to 
assess and address the disproportionate contact of youth of color at 
all points in the justice system--from arrest to detention to 
confinement and re-entry.
---------------------------------------------------------------------------
    \4\ Snyder, H., & Sickmund, M. (1999). Juvenile offenders and 
victims: 1999 National Report. Washington, D.C.: Office of Juvenile 
Justice and Delinquency Prevention.
    \5\ Office of Juvenile Justice and Delinquency Prevention, Juvenile 
Offenders and Victims: 2006 National Report, Washington, DC, 2006.
---------------------------------------------------------------------------
    Arizona is a good example of what this core requirement/protection 
can accomplish. Between 1991 and 1995, Arizona was one of five pilot 
sites to receive training, technical assistance and financial 
assistance via an OJJDP-sponsored demonstration project designed to 
address disproportionate minority contact with the juvenile justice 
system.
    Through this partnership, Arizona found evidence of DMC at several 
points within our juvenile justice system. We also identified several 
potential sources of DMC, including system barriers to effective 
parental advocacy on behalf of system-involved youth; inadequate 
cultural knowledge and skills among juvenile justice personnel; and 
limited communication between minority neighborhoods and juvenile 
justice system agencies.
    Armed with this information, Arizona has implemented a number of 
programmatic and policy changes aimed at addressing the state's 
identified DMC challenges. Arizona used grant funds administered 
through the Arizona SAG to host mini-conferences geared towards 
creating integrated systems across five different agencies. All of this 
was accomplished as a result of the guidance, funding and technical 
assistance provided under the JJDPA.
    Third, under Sec. 201, the JJDPA provides a critical ``home'' for 
juvenile justice within federal government for purposes of informing 
national policies, objectives, priorities and plans via OJJDP, which 
provides guidance, support and oversight to states/territories in 
implementing the JJDPA via research, policies and grants to states and 
localities to assist in planning, establishing, operating, coordinating 
and evaluating projects for the development of more effective 
intervention, prevention and systems improvements.
    Finally, Sec. 223(a)(3) of the JJDPA helps the states collaborate 
with the federal government and across various state agencies to reduce 
juvenile crime and delinquency via the State Advisory Groups (SAGs). 
The majority of SAGs serve multiple functions, coordinating other 
federal and state funding streams for the benefit of children and 
youth. For instance, the Arizona Juvenile Justice Commission also 
serves as Arizona's Juvenile Accountability Block Grant State Advisory 
Board as required under the Omnibus Crime Control and Safe Streets Act 
of 2002, and is responsible for establishing a coordinated plan for 
reducing juvenile crime through accountability-based programs.
    In addition, the SAGs, individually and collectively, embody models 
for collaborative systems change, serve as incubators for cost-
effective innovations that produce optimal outcomes for the prevention 
of delinquency and help states develop strategies that work across 
various state agencies to meet state and local needs.
    For example, in May 2006, the Arizona SAG and the Governor's 
Division for Children jointly held a Child Welfare Juvenile Justice 
Summit. In Arizona, Mental Health, Behavioral Health, Housing and 
Education as well as Child Welfare and Juvenile Justice are major 
systems that impact children and families, and are impacted by children 
who have suffered maltreatment. Research shows that greater cross-
system coordination and integration is more effective and in the long 
term, costs state and local governments and agencies fewer financial 
resources.
    At our invitation, multidisciplinary teams from each Arizona county 
and a state-level team--totaling nearly 250 attendees--gathered 
together to participate in a learning and planning Summit to help 
promote greater integration in the provision of services to children 
and families in their communities. The Summit, supported by funds 
administered by the Arizona SAG, led to the official establishment of 
the Interagency Coordination and Integration Initiative, which is 
currently working to (1) identify youth and families at-risk for 
multiple systems involvement earlier, (2) provide more comprehensive 
and effective services, and (3) cultivate improved outcomes for 
children and youth who are at-risk for, or who have experienced 
maltreatment. A blueprint for action will be completed by August 2007.
Strengthening the JJDPA
    The last reauthorization of the JJDPA occurred over a six-year 
period between 1996 and 2002, and resulted in a few substantive changes 
to the Act. It did not, however, fully address continuing and 
contemporary challenges and opportunities presented by youth and the 
environments in which they are growing up.
    As important as it is to reauthorize the JJDPA again, it is as 
important to preserve the spirit of the Act and strengthen the Act in 
order to sustain and build upon past successes. The challenge is to 
develop and diligently administer age-appropriate, developmentally-
appropriate, gender-appropriate and culturally and linguistically 
competent interventions and sanctions that truly help young people 
avoid and reject risky and harmful behavior and that are adequately 
supported with federal funds.
    A complete overhaul of the Act is neither desirable nor necessary. 
Rather, as the 110th Congress approaches the 2007 reauthorization of 
the Act, there are particular strengthening amendments that it should 
concentrate on:
    First, Congress should place a premium on primary prevention 
efforts that proactively and positively shape and develop the character 
and choices of children and youth before they are tempted or pressured 
to make bad decisions by providing more opportunities for primary 
prevention programs and initiatives within the Act and providing the 
funding necessary to identify, implement, evaluate and sustain these 
programs and initiatives.
    The Title V Incentive Grants for Local Delinquency Prevention 
Programs, commonly known as the Community Prevention Grants program, is 
the only federal funding source dedicated solely to the prevention of 
youth crime and violence. The grants can be used to fund a wide range 
of programs, including mental health assessment and treatment, after-
school activities, mentoring, and tutoring, as well as drop-out, gang, 
and substance abuse prevention.
    Prevention activities such as those supported by Title V, however, 
remain so woefully under-funded that they can reach only a fraction of 
the kids who would benefit from them. For example, because of lack of 
funding for after-school programs, more than 14 million children and 
teens go home from school to an empty house each week. Research shows 
that these children are much more likely to drink, smoke, use drugs, 
commit a crime, and become a victim of a crime. In FY 2002 and prior 
years, Title V received $95 million. In FY 2007, Title V received only 
$64 million. While some funding is better than none, a long-term and 
sustainable reduction in juvenile crime and delinquency requires 
greater, sustained investments.
    Second, Congress should strengthen protections for children and 
youth under the age of 18, regardless of whether they are in the 
juvenile justice system or the adult criminal justice system. Youth who 
are charged as adults are not covered by the core protections provided 
in Secs. 223(a)(12) and (13)--Jail Removal and Separation--of the 
JJDPA. Studies, however, show that regular contact with adults can 
result in serious physical and emotional harm to children and youth.
    Instead of adult jails, states and counties could place children 
and youth, if they pose a risk to public safety, into juvenile 
detention facilities where they are more likely to receive 
developmentally-appropriate services, educational programming and 
supports by trained staff.
    Finally, Congress should motivate the states to build upon what 
they have learned about DMC and take steps to not only address the 
disparate treatment of youth of color who come into contact with their 
juvenile justice system but also reduce racial and ethnic disparities 
at all points along the continuum, from arrest to detention to 
adjudication to reentry.
    The current JJDPA supports states in gathering the data necessary 
to determine whether and to what extent minority youth suffer disparate 
treatment within the system. The next iteration of the JJDPA must 
direct major resources to states and localities to implement strategies 
with measurable outcomes designed to reduce those disparities. In turn, 
OJJDP and the states should report the progress they are making in 
reducing such disparities.
Conclusion
    The continuing success of effective juvenile crime and delinquency 
prevention and intervention depends on Congress strengthening the 
provisions of the JJDPA and providing the financial resources needed to 
fulfill these provisions to the greatest extent possible. The best 
JJDPA for children, youth and communities is a JJDPA that provides the 
states, through their respective State Advisory Groups, with the 
guidance, training, technical assistance and resources they need to 
sustain and create innovative practices that effectively address and 
prevent juvenile crime and delinquency.
    The Arizona Juvenile Justice Commission and the Coalition for 
Juvenile Justice and its national and local partners stand ready to 
provide further information, background and input as you deliberate 
reauthorization of the JJDPA. As a starting point, I have attached to 
my testimony of copy of the ``JJDPA Statement of Principles'' 
referenced at the beginning of my presentation.
    Thank you for the opportunity to speak with you today about this 
important piece of legislation.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Johnson.
    Mr. Freed?

 STATEMENT OF DAVID FREED, CUMBERLAND COUNTY DISTRICT ATTORNEY

    Mr. Freed. Thank you, Madam Chairwoman. Thank you for the 
opportunity to testify.
    My name is David Freed. I am the Cumberland County district 
attorney in Carlisle, Pennsylvania.
    I am a member of the Pennsylvania District Attorneys 
Association and Fight Crime: Invest in Kids, an organization of 
over 3,000 police chiefs, sheriffs, prosecutors and victims of 
violence who have come together to take a hardnosed look at the 
research on what keeps kids from becoming criminals.
    I am pleased that your committees are looking into what 
really works to prevent crime, as Congress considers the 
reauthorization of the federal Juvenile Justice and Delinquency 
Prevention Act.
    While youth crime has been going down for many years, some 
cities have seen modest increases in the past 2 years. It is 
too early to know whether this is a significant, nationwide 
trend, or just typical year-to-year fluctuations.
    What we do know is that much of juvenile crime is 
preventable.
    Title V local delinquency prevention grants and Title II 
state formula grants can provide support for evidence-based 
prevention and intervention approaches that meet the twin goals 
of protecting the public and turning offenders into productive 
citizens.
    Title V is the only federal funding source dedicated solely 
to the prevention of youth crime and violence. The grants can 
be used to fund a range of programs, including after-school 
mentoring and tutoring, as well as dropout, gang and substance 
abuse prevention.
    After-school programs during the prime time for juvenile 
crime, which is 3 to 6 p.m., are among our most powerful crime 
prevention tools. A study of Boys and Girls Clubs in housing 
projects found that the projects without the clubs had 50 
percent more vandalism and scored 37 percent worse on drug 
activity.
    Unfortunately, there is a vast unmet need for prevention 
programs like these. For example, more than 14 million children 
still lack adult supervision after school. We also need 
effective responses for kids who are already committing crimes.
    Title II can help states and communities expand the range 
of options for responding to these juvenile offenders.
    Public safety considerations require that some youth be 
placed in the custody of the state. For other serious offenders 
who do not need lockup, placement in a multi-dimensional 
treatment foster care home can be used as an alternative.
    This program provides specially-trained foster parents, 
supervision by a program case manager and frequent coordination 
of services with everyone in the youth's life. This approach 
cuts repeat arrests for seriously delinquent juveniles in half.
    It is also cost-effective, saving the public $77,000 for 
every juvenile treated.
    Functional family therapy and multi-systemic therapy are 
similar effective models. Unfortunately, only one in seven 
young offenders who could benefit from these evidence-based 
approaches is currently being served.
    Although some areas have started implementing these proven 
approaches, federal leadership can encourage their 
proliferation and expansion. In reauthorization of this law, 
Congress should reject funding cuts and block granting and 
increase authorized and appropriated funding, especially for 
Title V and Title II.
    Direct funding to what we know works, strengthen the Office 
of Juvenile Justice and Delinquency Prevention's role in 
funding more research and ensure that the office provides 
dissemination, training and technical assistance for 
policymakers and practitioners.
    Finally, I urge Congress to include in the Education Begins 
at Home Act as an additional title for this reauthorization 
legislation. The bill would support voluntary, evidence-based 
home visiting programs. These programs help new parents learn 
skills to promote healthy child development and be better 
parents, while also preventing crime.
    An example of this is the Nurse Family Partnership Program, 
which I have heard mentioned already. It cuts child abuse and 
neglect in half, reduces arrests by 60 percent and produces $5 
in savings for every $1 invested.
    Unfortunately, hundreds of thousands of at-risk families 
cannot benefit from these home services.
    I recently, personally prosecuted the cases of two murdered 
children, Quincy Thomas and Jordan Jackson. By the time the 
authorities became involved with these cases it was too late. I 
began each of these cases in the hospital with the bodies of 
these boys. I ended each case by watching the parents sent off 
to state prison.
    Early intervention by programs such as NFP could have saved 
Quincy's and Jordan's lives, I am convinced.
    Prosecutors necessarily focus much of our energy on public 
protection, locking criminals away where they cannot victimize 
anyone else, and we gladly accept that responsibility. But we 
also have a responsibility to support proven prevention 
programs.
    Early intervention in the lives of children works. Both the 
research and my everyday experience prove it.
    If we do not invest in proven crime prevention and 
intervention for America's most vulnerable kids, too many of 
them will grow up to become America's most wanted adults.
    Thank you for the opportunity to present my views on how, 
through effective reauthorization legislation, Congress can 
help to reduce crime and make us all safer. Thank you.
    [The statement of Mr. Freed follows:]

 Prepared Statement of David Freed, Cumberland County District Attorney

    Representatives McCarthy, Platts, Scott and Forbes and the other 
distinguished members of the Subcommittee on Healthy Families and 
Communities and the Subcommittee on Crime, Terrorism and Homeland 
Security:
    Thank you for the opportunity to present this testimony. My name is 
David Freed and I am the Cumberland County District Attorney in South 
Central Pennsylvania, including the towns of Carlisle and 
Mechanicsburg. I previously served as First Assistant District Attorney 
in Cumberland County and a Deputy Prosecutor in York County. I am a 
member of the Pennsylvania District Attorneys Association and FIGHT 
CRIME: INVEST IN KIDS, an organization of more than 3,000 police 
chiefs, sheriffs, prosecutors, and victims of violence, who have come 
together to take a hard-nosed look at the research on what keeps kids 
from becoming criminals.
    I'm so pleased that your committees are looking at what really 
works to prevent crime as Congress considers the reauthorization of the 
federal Juvenile Justice and Delinquency Prevention Act, or JJDPA. 
While youth crime has been going down for many years, some cities have 
seen modest increases in juvenile crime in the past two years. It is 
too early to know whether this is a significant, nationwide trend or 
just typical year-to-year fluctuations. What we do know is that much of 
the juvenile crime is preventable.
    As the lead law enforcement officer in my county, I personally 
prosecute homicide and other violent felony cases. While this is a key 
component of my job, it's the part I like the least. I see too many 
young kids whose lives could have been productive and full of promise--
high school graduations, college enrollment and healthy families of 
their own. Instead, they are in my courtroom--with far less positive 
outcomes and after victims have been harmed.
    My years of experience on the front lines in the fight against 
crime--as well as the research--show that there are proven prevention 
and intervention approaches that help kids get a good start in life and 
redirect offending juveniles away from further crime. The Juvenile 
Justice and Delinquency Prevention Act's Title V Local Delinquency 
Prevention Grants program and Title II State Formula Grants can provide 
needed support for these evidence-based prevention and intervention 
approaches to reduce recidivism. But Congress needs to ensure that 
sufficient funding is authorized and appropriated for these programs 
and that funding is directed toward proven programs that both keep kids 
from committing crimes in the first place and intervene effectively 
when kids start getting in trouble. District Attorneys throughout the 
nation recognize the importance of promoting programs that meet the 
twin goals of protecting the public and turning offenders into 
productive citizens.
Keeping Kids Away from Crime
    The Title V Local Delinquency Prevention Grants program is the only 
federal funding source dedicated solely to the prevention of youth 
crime and violence. Almost 1,500 communities have received Title V 
grants since 1994 through a competitive grant process that requires 
states and localities to match at least 50% of the grant with cash or 
in-kind contributions. To participate in the program, localities must 
engage in collaborative, comprehensive planning regarding needed 
community-based delinquency prevention efforts. The grants can be used 
to fund a wide range of prevention programs, including after-school 
activities, mentoring, and tutoring, as well as drop-out, gang, and 
substance abuse prevention.
    Mentoring and after-school programs funded by Title V help at-risk 
youth avoid criminal activity in the first place. In the hour after the 
school bell rings, violent juvenile crime soars and the prime time for 
juvenile crime begins. The peak hours for such crime are from 3:00 pm 
to 6:00 pm. These are also the hours when children are most likely to 
become victims of crime, be in an automobile accident, smoke, drink 
alcohol, or use drugs. After-school programs that connect children to 
caring adults and provide constructive activities during these critical 
hours are among our most powerful tools for preventing crime. For 
example, a study compared five housing projects without Boys & Girls 
Clubs to five receiving new clubs. At the beginning, drug activity and 
vandalism were the same. But by the time the study ended, the projects 
without the programs had 50 percent more vandalism and scored 37 
percent worse on drug activity.
    Similarly, a study of Big Brothers Big Sisters found that young 
people who were randomly assigned to a Big Brother or Big Sister mentor 
were about half as likely to begin illegal drug use and nearly one 
third less likely to hit someone compared to those who were assigned to 
a waiting list.
    There are also a number of proven approaches to reducing drug use 
and violence through the schools that could be funded by Title V. For 
example, Life Skills Training is a three-year intervention that targets 
all middle/junior high school students in 6th or 7th grade, with 
booster sessions in the two subsequent years. It is aimed at preventing 
gateway drug use: tobacco, alcohol, and marijuana. Teachers deliver the 
45-minute sessions: 15 in year one, 10 in year two, and 5 in year 
three. The programs seek to provide teens with the information and 
skills needed to develop anti-drug attitudes and norms, and to resist 
peer and media pressure to use drugs. More than 15 years of research 
with the LST program have consistently shown that participation in the 
program can cut drug use in half.
    Linking the Interests of Families and Teachers, LIFT, shows that 
long-term results are possible from a ten-week anti-aggression program. 
LIFT instructors offer classroom-based training in social and problem-
solving skills to students, and also train their parents. Children are 
rewarded individually and in groups on the playground for practicing 
their new aggression-avoidance skills. The program dramatically reduced 
aggressive behavior among first graders when measured three years 
later. For fifth graders, compared to LIFT participants, students in 
schools that did not receive the program were 59 percent more likely to 
drink alcohol regularly by eighth grade. The fifth graders left out 
were also two times more likely to have been arrested during middle 
school than those who received the program.
    Unfortunately, there is vast unmet need for prevention programs 
like these. For example, more than 14 million children nationwide still 
lack adult supervision after school.
Reducing Recidivism through Effective Interventions
    Juveniles account for only 16% of all arrests, but they present the 
greatest opportunity for effective intervention responses that can help 
young offenders get back on track. Once kids have gotten into trouble, 
targeted interventions may be needed, such as those funded by Title II 
State Formula Grants of the JJDPA. In many jurisdictions, prosecutors 
like myself and juvenile court judges are faced with very limited 
sentencing (or ``disposition'') options for a delinquency case--either 
lock up or probation--and often neither is appropriate in that case. 
State Formula Grants can help states and communities to expand that 
range of options and ensure that the most effective approach can be 
used for each case. By strengthening the juvenile justice system and 
deterring youth from committing more serious crimes, Title II State 
Formula Grants can make our neighborhoods safer and save lives.
    Research shows that the best results in reducing crime are achieved 
by targeting the worst offenders. The reason why is straightforward: 
one cannot prevent most low-risk juveniles from committing more crimes 
because they were not going to do more crimes anyway. Nationally, six 
in 10 juveniles brought before a juvenile court for the first time will 
not return to court on another charge.
    But high-risk offenders are very likely to commit more crimes, and 
often. In recent years, there have been approximately 100,000 juveniles 
in custody nationwide. The vast majority of these troubled youths will 
be released back into the community, with their expected ``prime crime 
years'' ahead of them and facing recidivism rates of up to 75%. But it 
doesn't have to be that way. A significant amount of research has 
identified effective approaches to help young offenders avoid 
committing further crimes, thereby enhancing public safety. Effective 
screening tools can distinguish chronic and violent offenders from less 
serious offenders.
    For some repeat and violent juvenile offenders, public safety 
considerations require that they be placed in custody of the state. 
Simply warehousing high-risk offenders during their time in custody is 
not adequate. They need to be required to do the hard work of 
constantly confronting and changing their anti-social beliefs and 
behaviors. Cognitive Behavioral Therapy (CBT) uses tested, concrete 
methods, such as Aggression Replacement Therapy (ART), to teach teens 
to stop and consider the consequences of their actions, to 
conceptualize other ways of responding to interpersonal problems and to 
consider how their actions will affect others. By learning what 
triggers their negative behaviors and by identifying and practicing 
more pro-social and effective ways to respond, CBT consistently reduced 
repeat crimes among juveniles. Young people in Brooklyn gangs without 
ART services had four times the number of arrests of similar young gang 
members receiving ART.
    For serious offenders who do not need high-security lock-up, 
individual placement in a Multidimensional Treatment Foster Care (MTFC) 
home can be used as an alternative. Foster care may sound like a pass 
for juveniles who should be paying a more severe price for the crime 
they committed. But for teens who are often used to running the 
streets, and who see a month in custody as just another chance to 
socialize with delinquent friends or learn new criminal behaviors, this 
is a more controlled experience and a tough intervention. MTFC provides 
specially trained foster parents and ongoing supervision by a program 
case manager, as well as frequent contact and coordination of services 
with a youth's parole or probation officer, teachers, work supervisors 
and other involved adults during and after a youth's out of home 
placement. Compared to similar juveniles placed in non-secure group 
facilities, the MTFC approach cuts the average number of repeat arrests 
for seriously delinquent juveniles in half, and six times as many of 
the boys in MTFC as boys in a group home successfully avoided any new 
arrest. MTFC is also cost-effective. MTFC saves the public an average 
of over $77,000 for every juvenile treated.
    Effective interventions that incorporate community sanctions have 
also been shown to cut crime. One such program is the Functional Family 
Therapy (FFT) program. FFT works to engage and motivate youth and their 
families to change behaviors that often result in criminal activity. In 
one evaluation, families with troubled youths were randomly assigned to 
either a group that received FFT or one that did not. The youths whose 
families received FFT were half as likely to be rearrested as the youth 
whose families did not receive the family therapy. By reducing 
recidivism among juvenile offenders, FFT saves the public an average of 
$32,000 per youth treated.
    Similarly, the Multi-Systemic Therapy (MST) program targets kids 
who are serious juvenile offenders by addressing the multiple factors--
in peer, school, neighborhood and family environments--known to be 
related to delinquency. One MST study followed juvenile offenders until 
they were, on average, 29-years-old. Individuals who had not received 
MST were 62 percent more likely to have been arrested for an offense, 
and more than twice as likely to be arrested for a violent offense. It 
is also more cost-effective than other mental health and juvenile 
justice services like residential treatment and incarceration, saving 
the public $4.27 for every dollar invested.
    In 2002, approximately 150,000 juvenile offenders were placed out-
of-home, and nearly 400,000 others were placed on probation. Some 
juvenile offenders must be placed in secure custody to protect public 
safety, and many others are first-time offenders who will not become 
repeat offenders and therefore are not high-risk enough to justify the 
expense and intrusion of the aforementioned programs. But even if only 
half of those on probation and half of those placed out of home are 
eligible for these effective intervention programs, the number of young 
offenders who could benefit from evidenced-based approaches would still 
amount to 7 times the 35,000 total currently being served by MST, FFT, 
and MTFC. In other words, these programs will have to expand 7 times 
their current capacity nationwide before they start running out of 
youth who could and should be receiving these services.
    Although some states and communities have begun to implement these 
proven approaches, federal leadership can encourage their proliferation 
and expansion. Our nation must target crime prevention funds toward 
kids -that that's the way those dollars to can have the greatest 
impact.
Reauthorizing the Juvenile Justice and Delinquency Prevention Act
    When we know what works to prevent kids from committing crime in 
the first place and how to steer them away from crime once they have 
committed an offense, it seems silly that we don't fully utilize these 
approaches. But many states and communities are not yet able to 
adequately fund such efforts, and federal funding falls far short of 
meeting the need. In 2002, JJDPA Title V was funded at $95 million, 
Title II was funded at $89 million and juvenile justice funding as a 
whole equaled about $550 million. In contrast, last year, juvenile 
justice programs only received about $300 million, including $64 
million for Title V and $79 million for Title II. Federal funding is 
currently so limited that my county does not receive any Title V or 
Title II money. Unfortunately, the Administration's FY08 budget 
proposes to eliminate all of the current JJDPA programs and create a 
single, new ``Child Safety and Juvenile Justice'' block grant funded at 
a level that is 25% lower than the total FY07 funding for the programs 
eliminated.
    On behalf of my colleague law enforcement leaders of Fight Crime: 
Invest in Kids, I urge Congress to demonstrate its commitment to crime 
prevention by rejecting proposed cuts and block-granting, and by 
increasing authorized and appropriated funding for federal juvenile 
justice and delinquency prevention programs, especially Title V and 
Title II, to ensure that more kids who need prevention and intervention 
services will have access to them.
    I also urge Congress to move reauthorization legislation forward to 
enactment that ensures that funding is directed first toward proven, 
effective programs and promising programs that are being rigorously 
evaluated. Unfortunately, there are many programs that don't work. 
Given limited federal, state and local resources, we need to direct 
funding toward what we already know works and toward finding out if 
new, promising programs have the potential to become model programs 
like those I discussed today. The JJDPA should also include performance 
standards and outcomes tied to new incentive funds, so that new federal 
dollars are tied to states and localities achieving results.
    JJDPA reauthorization also provides an important opportunity to 
substantially strengthen the leadership role of the Office of Juvenile 
Justice and Delinquency Prevention (OJJDP) in funding more evaluation 
research on promising new approaches in both delinquency prevention and 
intervention. Individual local grantees are not able to do rigorous 
evaluation using randomized control trials or well-matched comparison 
groups. OJJDP needs to provide resources to academics for evaluation. 
OJJDP should also provide much-needed dissemination, training and 
technical assistance so that state and local policy-makers and 
practitioners--including prosecutors--may benefit from the best 
information about what works in delinquency prevention and 
intervention.
A Recommended Addition to JJDPA Reauthorization
    Finally, I urge Congress to add a supplemental provision to this 
reauthorization bill. Voluntary, evidence-based home visiting programs 
are proven to prevent child abuse and neglect and reduce later arrests. 
These programs help new parents learn skills to promote healthy child 
development and be better parents.
    For example, one program, the Nurse-Family Partnership (NFP), 
randomly assigned interested at-risk pregnant women to receive visits 
by nurses starting before the birth of a first child and continuing 
until the child was age two. Rigorous research, originally published in 
the Journal of the American Medical Association, shows the program cut 
abuse and neglect among at-risk kids in half. In addition, children of 
mothers who received the coaching had 60% fewer arrests by age 15 than 
the children of mothers who were not coached. As a result, five dollars 
in savings were produced for every dollar invested, according to the 
researchers at Federal Reserve Bank of Minneapolis.
    Other home visiting models also produce positive results. For 
example, a randomized control study of the Parent-Child Home Program 
found that (of the six out of ten children they were able to follow) 
84% of the children finishing the program graduated from high school 
compared to 54% of those who did not receive the intervention. Separate 
studies have concluded that improving graduation rates reduces crime.
    Every year, over 600,000 low-income women in the U.S. become 
mothers for the first time, resulting in 1.5 million low-income mothers 
(who are pregnant or have a child under the age of two) who are 
eligible for NFP at any given time. The program is only able to serve 
about 20,000 mothers annually, however, due to a lack of funding. Other 
programs serve approximately 400,000 additional families at all income 
levels. However, hundreds of thousands of at-risk families across the 
country receive no home visiting or dosages of home visiting that are 
inadequate to prevent abuse and neglect and later crime. While there is 
an NFP program in my county, not all prosecutors, police chiefs and 
sheriffs are lucky enough to have this crime-prevention tool already at 
work in their jurisdictions. And that program cannot yet reach all of 
the eligible, at-risk new mothers.
    In my county, two children, Quincy Thomas and Jordan Jackson, have 
been murdered within the last five years. I personally prosecuted both 
cases. Both families had multiple children and were receiving 
assistance on various levels. Both parents had minor criminal records. 
However, by the time authorities became involved with each case, it was 
too late. I began each of these cases in the hospital with the bodies 
of these boys. I ended each case by watching the parents sent to state 
prison. I believe that early intervention by programs such as NFP could 
have saved the lives of Quincy and Jordan.
    I urge Congress to expand and improve this proven crime-prevention 
approach by including the Education Begins at Home Act as a title in 
JJDPA reauthorization legislation. This approach has proven how 
successful it can be in preventing later crime and we need to ensure 
more families have access. Please include these provisions in your 
reauthorization legislation.
    If we do not invest in research-proven crime-prevention and 
intervention programs for America's most vulnerable kids, many of them 
will grow up to become America's most wanted adults. By failing to 
adequately invest in proven crime-prevention and intervention 
strategies, Congress is not only failing to promote the well-being of 
millions of kids but is also permitting the cultivation of criminals--
jeopardizing the safety of all Americans for years to come.
    Thank you for this opportunity to present my views on how--through 
effective JJPDA reauthorization legislation--Congress can help to 
reduce crime and make us all safer.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Freed.
    Judge Lawrence?

   STATEMENT OF PAUL LAWRENCE, GOFFSTOWN DISTRICT COURT, NEW 
        HAMPSHIRE STATE JUVENILE JUSTICE ADVISORY GROUP

    Mr. Lawrence. Thank you very much. Good afternoon.
    My name is Paul Lawrence. It is my distinct honor to have 
been asked by Chairwoman McCarthy to speak on behalf of the 
Juvenile Justice Delinquency Prevention Act.
    I began hearing juvenile cases almost 30 years ago with the 
belief that the greatest cure for delinquency is maturation. At 
that time, before technology provided images of the brain that 
allow us to see its gradual development, extending well into 
the mid-20s, it was clear to me that the needs, thoughts, 
motivations and behavior of youth differ greatly from those of 
fully mature adults.
    Now, advancements in neural imagery enable us to take a 
look at the actual physical development and transformation of 
the brain in all stages of life.
    During adolescence, several areas of the brain go through 
their final developmental stages and develop greater 
complexity, which in turn affects thinking, behavior and 
potential for learning and rehabilitation.
    Confirmation of my maturation theory--and it is not really 
mine alone; others have espoused the theory, as well--can be 
found in the business community and to the auto insurance. And 
many of us have experienced insuring a son or daughter under 
age 25.
    But it is quite amazing, at age 25, the actuaries who work 
for the insurance companies figured out that the risk 
diminishes, and they cut the premium in half. They understood 
something, perhaps, about risk and impulsive behavior long 
before we thought of it in terms of even juvenile justice.
    Judges on the juvenile bench possess considerable power 
over the life pathways of young people and their families, 
particularly those that are vulnerable, troubled and fragile. 
Given this power, what judges do may prove productive and 
helpful or, regrettably, cause unintended harm.
    Every time a judge shepherds a young person through the 
juvenile justice system, she/he must be certain that all steps 
have been taken to enhance the use competencies before 
imposition of predominantly retributive measures.
    In fact, if judges, as well as congressional and federal 
decision-makers are to do what is best for children and youth 
involved in the courts, we would make a primary commitment in 
juvenile justice much like the Hippocratic oath: First do no 
harm.
    Included in such a commitment would be the following 
precepts, all of which are part of the original thinking that 
underlies the JJDP Act.
    We should strive to keep children and youth out of the 
court system and out of institutional settings, particularly 
lockups, and whenever possible at home or close to home, school 
and community. We should do everything possible to ensure that 
any and all court involvement by youth and families is 
appropriately limited in scope and effective in producing 
healthy outcomes for involved youth.
    We must ensure age-appropriate sanctions and supports and 
court services, as well as systems that treat children and 
youth in ways that are based on the best of what we know about 
adolescent development, brain science and the principles of 
positive youth development.
    Research supported by the MacArthur Foundation has shown 
that different brain capacities mature along different 
timetables. Competence-related abilities mature by age 16. Yet 
capacities relevant to decision about criminal culpability 
risk-taking are still maturing into young adulthood.
    Second, adolescents are responsible for their behavior, but 
not as responsible as adults.
    Third, adolescents are still works in progress.
    Adolescent brain development science highlights how 
critical the core protections of the JJDP Act are in keeping 
status offending, non-criminal youths out of lockups and 
placing clear restrictions on children and youth in adult 
jails, as well as ensuring that we do not needlessly sweep 
children of color into the juvenile justice system, because of 
systemic and societal racism.
    Furthermore, the JJDP Act can be improved, based on the 
best of what we know, by directing Title II state formula funds 
and Title V state and local prevention funds to programs that 
prevent repeated system involvement and show excellent results 
in restoring young people to productive home and community 
life.
    Examples of such programs are: the Juvenile Detention 
Alternatives Initiative spearheaded by the Casey Foundation; 
Restorative Justice, sponsored in part of OJJDP; and graduated 
sanctions, an active program of the National Council of 
Juvenile and Family Court Judges.
    Regarding use of federal funds under the JJDP Act, Congress 
should strongly consider prohibiting the use of federal funds 
for ineffective and damaging approaches, such as highly 
punitive models, shown to increase rather than decrease re-
arrest and re-offense, including boot camps, scared-straight 
programs, excessive use of physical restraint, force and 
punishment, over-reliance on transfer and waiver and the 
building of large residential institutions.
    Since my time is almost up, I would conclude my remarks and 
refer you to my lengthier written testimony, the citations as 
part of that testimony and accompanying publications.
    Thank you very much.
    [The statement of Mr. Lawrence follows:]

Prepared Statement of Hon. Paul Lawrence, Goffstown District Court, New 
            Hampshire State Juvenile Justice Advisory Group

    Good afternoon. It is my distinct honor to have been asked by 
Chairwoman McCarthy to speak on behalf of the Juvenile Justice and 
Delinquency Prevention Act (JJDPA).
    I am Paul Lawrence, the Presiding Justice of the Goffstown District 
Court in Goffstown, New Hampshire where I hear, among other things, 
juvenile delinquency, CHINS, and neglect and abuse cases. I am also 
Immediate Past Chair of the Coalition for Juvenile Justice (CJJ), the 
national leadership association of State Advisory Groups under the JJDP 
Act. I am Co-Chair of the New Hampshire Juvenile Detention Alternatives 
Initiative, past Chair of the state's the Committee to Study the 
Establishment of Dispositional Guidelines in Juvenile Delinquency Cases 
and a member of the New Hampshire Supreme Court's Judicial Education 
Services Committee. Also of relevance to today's hearing is my 
membership in the National Council of Juvenile and Family Court Judges.
    I began hearing juvenile cases in 1979 with a belief that the 
greatest cure for delinquency is maturation. At that time, before 
technology provided images of the brain that allow us to see its 
gradual development extending well into the mid-20s, it was clear to me 
that the needs, thoughts, motivations and behavior of youth differ 
greatly from those of fully mature adults. Now, advancements in neuro-
imagery, such as Functional Magnetic Resonance Imaging (fMRI), coupled 
with targeted research, enable us to take a look at the actual physical 
development and transformation of the brain at all stages of life. 
During adolescence, several areas of the brain go through their final 
developmental stages and develop greater complexity, which in turn 
affects thinking, behavior and potential for learning and 
rehabilitation.\i\
    Judges on the juvenile bench possess considerable power over the 
life pathways of young people and their families--particularly those 
that are vulnerable, troubled and fragile. Given this power what judges 
do may prove productive and helpful, or regrettably, cause unintended 
harm. Every time a judge shepherd's a young person through the juvenile 
justice system, he/she must be certain that all steps have been taken 
to enhance the youth's competencies before imposition of predominantly 
retributive measures. In fact, if judges--as well as congressional and 
federal decision makers--are to do what is best for children and youth 
involved in the courts we would make a primary commitment in juvenile 
justice much like the Hippocratic Oath: first, do no harm. Included in 
such a commitment would be the following precepts, all of which are 
part of the original thinking that underlies the JJDP Act:
    We should strive to keep children and youth out of the court system 
and out of institutional settings--particularly lockups; and whenever 
possible at home or close to home, school and community;
    We should do everything possible to ensure that any and all court 
involvement by youth and families is appropriately limited in scope and 
effective in producing healthy outcomes for the involved youth;
    We must ensure age-appropriate sanctions and supports and court 
services, as well as systems that treat children and youth in ways that 
are based on the best of what we know about adolescent development, 
brain science and principles of youth development.
    On June 11, 2007, I heard Dr. Laurence Steinberg of Temple 
University and Director of the MacArthur Research Network on Adolescent 
Development and Juvenile Justice, speak at the Coalition for Juvenile 
Justice Summit on the JJDP Act. He cited several implications of his 
Network's research which are worthy of consideration in the 
reauthorization of the JJDP Act.
    First, different brain capacities mature along different 
timetables:
    Competence-related abilities mature by age 16;
    Yet, capacities relevant to decisions about criminal culpability 
are still maturing into young adulthood.
    Second, adolescents are responsible for their behavior, but not as 
responsible as adults:
    Self-control is still developing and easily disrupted by 
emotionally or socially arousing situations;
    And, adolescents need support, structure and adult supervision.
    Third, adolescents are still works in progress:
    Most will mature out of reckless and impetuous behavior by their 
early 20s without any intervention;
    So, it is vitally important that involvement with juvenile justice 
system not derail their transition into productive adulthood.\ii\
    Adolescent brain development science underscores the mission of the 
court, as a helping hand for youth and families designed to help them 
heal and build their strengths and means to contribute to society. It 
highlights how critical the core protections of the JJDP Act indeed are 
in keeping status offending and non-criminal youth out of lock-ups and 
placing clear restrictions on placing children and youth in adult 
jails, as well as ensuring that we do not needlessly sweep children of 
color into the juvenile justice system because of systemic and societal 
racism.
    Furthermore, the JJDP Act can be improved based on the best of what 
we now know, by directing Title II (State Formula Funds) and Title V ( 
State and Local Prevention Funds) to programs that prevent repeated 
system involvement and show excellent results in restoring young people 
to productive home and community life, such as alternatives to pre-
adjudication detention, restorative justice and graduated sanctions.
Alternatives to Detention
    Nationwide, the youth confined in pre-trial/pre-adjudicative 
detention include an alarmingly high census of fragile youth with 
serious emotional, behavioral and substance abuse issues, and youth of 
color.\iii\ The number of youth who reside in detention centers on an 
average day is estimated to be more than 27,000, and has grown 72 
percent since the early 1990s--despite declines in juvenile offending. 
It is estimated that as many as 600,000 children and teens cycle 
through secure detention each year.\iv\
    My colleague, Bart Lubow, who directs the Juvenile Detention 
Alternatives Initiative for the Annie E. Casey Foundation, reports, 
``When you talk to judges, prosecutors, or other juvenile justice 
professionals, many of them say things like, `We locked him up for his 
own good.' Or, `We locked him up because his parents weren't 
available.' Or, `We locked him up to get a mental health assessment.' 
But none of these reasons are reflected in statute or professional 
standards.''
    Detention reform efforts, on the other hand, are evidenced-based 
efforts to reverse the unnecessary and harmful flow of youth into 
locked detention who could be more effectively served at home or in a 
community-based setting. In communities as diverse as New York City and 
Pima County (AZ) and the states of North Dakota and New Hampshire 
juvenile justice practitioners have found that keeping youth out of 
secure detention accrues many benefits for youth and families--
including better mental health assessment and treatment, greater and 
stronger connections with school, family and community, and a reduction 
of racial/ethnic disparities by guarding against more punitive 
treatment of youth of color as compared with their white 
counterparts.\v\
Restorative Justice
    Drawing upon international models from New Zealand, Australia and 
Native Canada, a new way of thinking about and addressing juvenile 
offending emerged in the mid-to-late 1990s, known variously as balanced 
and restorative justice, victim-offender mediation and family group 
conferencing. The essential idea of balanced and restorative justice is 
that repairing harm, as it relates to juvenile wrongdoing and 
offending, is pursued within a three-point balance of the needs of 1) 
victims, 2) offenders and 3) communities.
    Active participation of victims, victims' families, offenders and 
offenders' families and community members make the process work. Agents 
of the court and other child- and family-serving advocates and 
professionals facilitate, support and enforce reparative 
agreements.\vi\ Studies from the United States and other countries cite 
significant benefits to both offenders in terms of reducing recidivism 
and to victims and survivors in terms of enhancing their sense of well 
being and healing.\vii\
Graduated Sanctions
    Graduated sanctions programs utilize a continuum of disposition 
options for delinquency reduction. The term ``graduated sanctions'' 
implies that the penalties for delinquent activity should move from 
those that are limited in their scope and intrusion into the lives of 
youth to those that are highly restrictive, in keeping with the 
severity and nature of the offense committed. In other words, youth who 
commit serious and violent offenses should receive more restrictive 
sentences than youth who commit less serious and nonviolent offenses. 
However, for graduated sanctions programs to fulfill their promise of 
delinquency reduction, they must ensure that the right juveniles are 
connected to the right programs at the right time. Types of sanctions 
typically include:
    <bullet> Immediate sanctions, targeted toward less serious non-
chronic offenders;
    <bullet> Intermediate sanctions, appropriate for juveniles who 
continue to offend following immediate interventions; youth who have 
committed more serious felony offenses; and some violent offenders who 
can benefit from supervision, structure, and monitoring but not 
necessarily incarceration;
    <bullet> Secure care, appropriate for serious violent, chronic 
offenders; and
    <bullet> After care, appropriate for offenders transitioning back 
into the community following secure care.
    An OJJDP-funded study of existing graduated sanctions systems found 
them to be more effective and less costly than juvenile 
incarceration.\viii\ According to researchers at the University of 
Virginia, ``The graduated sanctions approach has many proven benefits: 
reduced cost, increased accountability by the juvenile and the 
community; and enhanced responsiveness to a juvenile's treatment 
needs.'' \ix\ Moreover, graduated sanctions are seen as a useful tool 
in the pursuit of ``restorative justice,'' supporting the process of 
reconciliation that holds offenders accountable through making 
amends.\x\
Funding Under the JJDP Act
    Regarding use of federal funds under the JJDP Act, Congress should 
strongly consider prohibiting the use of federal funds for ineffective 
and damaging approaches such as highly punitive models shown to 
increase, rather than decrease re-arrest and re-offense, including boot 
camps, scared straight programs, excessive use of physical restraint, 
force and punishment, and the building of large residential 
institutions.\xi\
    In addition, when crafting State Three-Year Plans for delinquency 
prevention, the State Advisory Groups are in an ideal position to 
recommend the use of JJDP Act funds for programs and practices that 
emphasize due process, positive youth development and adolescent brain 
development research, and restoration of an offender's relationship to 
society. In the current iteration of the JJDP Act too many ``core 
purpose areas'' are listed as possible uses for federal funding in 
Section 223 describing the requirements for State Plans. Regrettably, 
some ``core purposes'' have little to do with effective support for 
compliance with the core requirements or the promotion of best 
practices. Please consider ways to trim back the current laundry list 
of divergent possibilities so as to emphasize and elevate compliance 
with the core requirements and initiatives that strive to limit a young 
person's court involvement, out-of-home placement or any sort of 
confinement while ensuring community safety.
Conclusion
    In closing, I wish to leave with you copies of three publications 
from the Coalition for Juvenile Justice: two addressing adolescent 
brain development and implications for juvenile justice and the JJDP 
Act, as well as the Coalition's report on detention reform, supported 
by the Annie E. Casey Foundation. I was proud to serve as an expert 
advisor on all of these publications. I also wish to avail myself to 
you should you have any further questions. Many thanks for the 
opportunity to speak before you today.
                                endnotes
    \i\ Beatrice Luna, ``Brain and Cognitive Processes Underlying 
Cognitive Control of Behavior in Adolescence,'' University of 
Pittsburgh, Oct. 2005.
    \ii\ See www.juvjustice.org/conferences--4.html and ``Findings from 
the MacArthur Foundation Research Network on Adolescent Development and 
Juvenile Justice.''
    \iii\ Coalition for Juvenile Justice, ``Unlocking the Future: 
Detention Reform in the Juvenile Justice System, 2003.
    \iv\ Ibid.
    \v\ Coalition for Juvenile Justice, ``Unlocking the Future: 
Detention Reform in the Juvenile Justice System, 2003.
    \vi\ Bazemore,G., and M Umbreit and OJJDP. ``Conference, Circles, 
Boards and Mediations: Restorative Justice and Citizen Involvement in 
the Response to Youth Crime,'' 1999.
    \vii\ Ibid.
    \viii\ Wilson, J.J., and J.C. Howell. ``Comprehensive Strategy for 
Serious, Violent, and Chronic Juvenile Offenders. Program Summary.'' 
Washington, D.C.: Office of Juvenile Justice and Delinquency 
Prevention, U.S. Department of Justice, 1993.
    \ix\ Redding, R.E. (2000). ``Graduated and community-based 
sanctions for juvenile offenders.'' Juvenile Justice Fact Sheet. 
Charlottesville, VA: Institute of Law, Psychiatry, & Public Policy, 
University of Virginia, 2000.
    \x\ National Council of Juvenile and Family Court Judges, Juvenile 
Sanctions Center Training and Technical Assistance Center, ``First 
Monday,'' June 2005, http://www.ncjfcj.org/images/stories/delinquency/
june%202005.pdf.
    \xi\ Mendel, Richard A. and American Youth Policy Forum, ``Less 
Hype, More Help: Reducing Juvenile Crime, What Works--and What 
Doesn't,'' 2000 and ``Less Cost, More Safety: Guiding Lights for Reform 
in Juvenile Justice,'' 2001.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Judge.
    Mr. Jones?

STATEMENT OF SHANNON JONES, FORMER PARTICIPANT IN THE COMMUNITY 
                 INTENSIVE SUPERVISION PROGRAM

    Mr. Jones. Hello. My name is Shannon Jones. I am 18 years 
old. I live in the Garfield community, located in Pittsburgh, 
Pennsylvania.
    It is a great honor to be here today to speak on behalf of 
the CISP program, the Community Intensive Supervision Program, 
CISP.
    I will speak today, both of the collective experience of my 
peers in the program, as well as my own perspective of what the 
CISP has done for me.
    The program operates 7 days a week, from 3:30 to 11:30, 
Monday through Fridays, and on Saturdays and Sundays it is from 
2:00 to 10:00.
    The times at which the youth are there are 3:30 to 9:00. 
Depending on behavior, they can stay later.
    Not only do they monitor us by the centers, but we have to 
wear electronic bracelets around our ankles, so they know when 
we are leaving the house and when we enter.
    There were several aspects of this CISP that was able to 
help me complete the program, one of which was my primary. This 
position is called a community monitor. The good thing about 
that was, he was an African-American male, as most of my 
counselors are.
    The other good thing about that was they were from the same 
community as we are, so that makes it a lot easier to 
understand them.
    I think it is because they, too, know what it is like being 
in the inner-city and a young, black male. They were able to 
support, guide and encourage us every day so I can be the best 
possible me. That comes from the pledge we have to recite every 
day.
    ``Today I pledge to be the best possible me. No matter how 
good I am, I know I can do better.''
    It is longer, but I wanted to also say, because we live in 
our homes and attend our own schools, it gave us the 
opportunity to practice the skills that CISP helped us develop.
    When I first came into the CISP, I was not attending school 
daily, and I had Cs, Ds and Es on my report card. But because I 
had to turn in sign-in sheets that the teacher would write our 
progress on daily and encourage me to do better in school, 
because I did not want to be held accountable for negative 
behavior in school.
    I did what I was supposed to, and I was able to bring my 
grades up to As and Bs, and I graduated this past June from 
Peabody High School with honors.
    One of my other problems was I like to get high. I was high 
when I came into the program. This means that I was tested 
positive for marijuana use.
    There were drug and alcohol counselors in each center to 
help us understand the impact of drugs. My counselor's name was 
Little Marvin. He helped me out a lot. The program offers their 
own drug and alcohol support meetings.
    In these meetings, we would hear stories from local members 
of Narcotics Anonymous about how they started using drugs and 
how they developed bad lifestyles. I was able to see that a lot 
of them started out by smoking weed, and then they moved into 
harder drugs.
    I did not want this to happen to me, so I stopped using.
    We were drug tested randomly, every week. And if you tested 
positive for drugs, you were held accountable.
    What also helped me a lot was the things I did to keep 
myself busy and involved in positive things. We were supposed 
to get 100 hours of community service in order to get out of 
the program.
    We helped kids of murder victims get toys from a local toy 
store. We helped paint a women's shelter. We passed out flowers 
and did a lot of cleaning parks, lots and streets in our 
community.
    After the CISP basketball league, I volunteered supervising 
younger kids in the after-school program. I was able to get a 
job with them, and now I work as a full-time assistant teacher 
with the kids.
    Other clients get jobs through Abraxas WorkBridge. This 
gave me skills I needed to survive in my community, by helping 
me realize the importance of thinking and being responsible for 
my own actions.
    I had to make choices every day. CISP means change. I know 
kids who were in institutions that are still thinking and 
behaving the same way they did before they were sent to 
placement. They did not change. Everything we learned is tested 
the moment we walk out of the doors.
    They also allow us to come back for support, encouragement 
and guidance, and to enjoy some of the recreational activities.
    If I was in placement, how would I or anyone else reach to 
these stairs and to help us out through our communities?
    I would like to thank you all for listening to me today.
    [The statement of Mr. Jones follows:]

    Prepared Statement of Shannon Jones, Former Participant in the 
                Community Intensive Supervision Program

    Good morning. My name is Shannon Jones, I'm eighteen years old. I'm 
pleased to have the opportunity today to share my story with you. On 
January 7, 2007, my life changed for the better because that was the 
day that I was committed to the Community Intensive Supervision Program 
(CISP) in Pittsburgh, Pennsylvania. Although I will speak from my own 
experience, I am also here to represent the experiences of the other 
youth whose lives have been positively impacted through their 
participation in CISP.
    I want to start by describing the program that has changed my life. 
CISP was started in 1990 and is run by the Juvenile Section of the 
Family Division of the Court of Common Pleas of Allegheny County. It 
serves as both an alternative to institutionalization and an aftercare 
program for those youth who have been subject to institutional 
placements. CISP offers programming, including drug screening, in five 
neighborhood centers during the afternoon and evening, seven days a 
week. CISP also electronically monitors the youth at night. CISP's 
staff are traditional probation department personnel and 
paraprofessional ``Community Monitors'' who live in the same 
neighborhoods where we live.
    The CISP Program is designed to reach male juvenile offenders (ages 
10-18) from the targeted neighborhoods who are on probation, continue 
to recidivate and would be institutionalized but for the existence of 
this alternative. In other words, young men like me. Property offenders 
make up for the majority of youth placed into the CISP Program but 
other youth are also eligible. Since the CISP Program is neighborhood 
based, a youth must live in one of the designated neighborhoods to be 
placed in CISP. One of the most important parts of the CISP program is 
that we remain in our own communities, continue to attend our own 
schools, and are introduced to positive community resources. All the 
kids who participate in CISP are required to complete community 
service, which is important because it makes us feel like a positive 
part of the community.
    Today I want to talk about how CISP changed my life. I was 
committed to CISP in January and I spent six months participating in 
the program. When I entered CISP, I had a D-average in school and I was 
at risk of ending up in a juvenile correctional facility. Although I 
thought about college, it didn't always seem within reach. Being a part 
of CISP helped me to bring up my grades high enough that I graduated 
with honors and I plan to attend the community college of Allegheny 
county next spring. In the meantime, I'm working with children at a job 
I got through my volunteer work with CISP.
    When I was in CISP, I continued to go to my school everyday. I had 
to submit regular progress reports from my teachers to CISP, and 
knowing that my counselors at CISP were going to see my grades pushed 
me to work harder and do better in class. I would be picked up right 
after school everyday and taken to a CISP site. There I had the 
opportunity to participate in a range of programs, like Maleness to 
Manhood, Victim Awareness, Thinking Errors, Self-Assessment, and the 
Drug and Alcohol program. One of the programs that had the most impact 
on me was the Drug and Alcohol program. I remember that they took us to 
meet with recovered addicts, and hearing their stories made me think 
about how my drug use affected not only me and my future but also the 
people around me. I'm clean now, I no longer use illegal substances, 
and I plan to stay that way because I've seen what can happen to 
addicts and I know that I've got a better future ahead of me.
    On the last Thursday of every month, CISP also invited our family 
and friends in to meet with our counselors. This was important because 
CISP treated the people in our life like they were a part of our 
rehabilitation, and this means that I have support outside of the 
program as well as in the program.
    CISP not only gave me the opportunity to improve myself, it also 
made me take a more active role in my community. We spent every weekend 
doing community service by cleaning up our neighborhoods and local 
churches. In the six months that I was a part of CISP, I contributed 
100 hours of community service. Even today when I walk past the areas 
that I helped clean, I feel a responsibility to keep those areas clean. 
My neighborhood feels like a community now, not just the place where I 
live. I think that this was possible because CISP keeps young people in 
their neighborhoods instead of sending them somewhere else. Every time 
I leave my home, I can be reminded of the work I did to improve my 
community.
    CISP also provides jobs for young people through the Workbridge 
program. Those youth who have restitution to pay can use the money that 
they earn from these jobs to pay that restitution. I started at the 
parental stress center as a volunteer, but this became a real job after 
I graduated from high school. Part of what I like about my job is that 
I am serving as a mentor to other young people. I like knowing that I'm 
helping young people just the way the CISP staff helped me.
    One of the things that I am always going to remember about CISP is 
the constant support I got from the staff. Every time I came to the 
CISP center, I could count on the staff encouraging me to better 
myself. They didn't put me down or make me feel bad about myself, 
instead they always pushed me to be a better person and I wanted to be 
a better person to make them proud. I knew that as long as I was trying 
to improve, they would support me.
    I want to take this time today to encourage you to support other 
programs like CISP. I'm not the only young person CISP has helped, and 
I think that similar programs will help other youth as well. I've come 
a long way in six months and I have a bright future ahead of me. Maybe 
I would have gotten here without CISP, but I also know that being a 
part of CISP helped me become a positive force in my community. You 
have the ability to help other young people like me become more 
productive members of our communities, and I hope that you take this 
opportunity to help start and fund other programs like CISP.
    I want to thank you for taking the time to listen to me today.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Jones.
    Professor Shepherd?

 STATEMENT OF ROBERT SHEPHERD, JR., EMERITUS PROFESSOR OF LAW, 
              UNIVERSITY OF RICHMOND SCHOOL OF LAW

    Mr. Shepherd. In contrast to Mr. Jones, as I was introduced 
as an emeritus professor of law, that means I have been around 
a long time.
    As a matter of fact, the first time I went into a juvenile 
court, it was as a lawyer, before In re Gault made it a 
constitutional requirement.
    I have been asked to give a brief overview of the important 
role of research in informing us regarding the development of 
public policy on juvenile justice.
    In the past 20 years, a great deal of research has been 
undertaken and published on the risk and protective factors 
influencing the behavior of young people. And much of that has 
been funded by Juvenile Justice and Delinquency Prevention Act 
money.
    We also know considerably more about the development of the 
adolescent brain and the impact of its immaturity on judgment 
and impulse control.
    We need to draw on this research in advising state and 
local communities about what works and what does not work in 
addressing risky and criminal behavior by youth, and in 
providing technical assistance to them in implementing policies 
and programs that are affective.
    Let me give two brief illustrations of how this can be 
done.
    First, every piece of research that has been done on the 
practice of transferring children from juvenile court to adult 
court tells us that this is a practice that should be used in 
only the most exceptional cases, because it is wrongheaded and 
counterproductive.
    Young persons tried and incarcerated as adults have higher 
recidivism rates when released. They re-offend sooner, after 
they are returned to the community, and their repeat offenses 
are more serious than for similar youth retained in juvenile 
court for the same behaviors.
    Second, research tells us that young persons who engage in 
illegal sexual behavior are far more amenable to rehabilitative 
treatment than their adult counterparts. And there are 
generally at very low risk for engaging in such activity as 
adults, unlike adult pedophiles.
    And yet federal and state policies increasingly treat them 
as miniature molesters, and require their registration in sex 
offender registries and impose mandatory minimum sentences on 
them.
    There are many more examples. And I especially refer you to 
the recent report of a Centers for Disease Control task force 
and the early report in October of 2004, issued by a state-of-
the-science panel for the National Institutes of Health on what 
works and does not work when dealing with children who get in 
trouble.
    2007 is not only the year for reauthorization of the 
Juvenile Justice and Delinquency Prevention Act, it is also the 
40th anniversary of the historic Supreme Court decision in In 
re Gault, extending the protections of due process to 
juveniles.
    And a fitting way to celebrate that milestone would be to 
authorize a strengthened Juvenile Justice and Delinquency 
Prevention Act and mandate a new commitment on the part of the 
Office of Juvenile Justice and Delinquency Prevention to a 
meaningful collaboration with the state advisory groups in this 
unique partnership created in the 1974 act between the federal 
government and the states through the state advisory groups 
appointed by the governors.
    That way, we can truly realize the promise embedded in 
Gault, in providing meaningful justice for juveniles, and at 
the same time real safety for our communities.
    Thank you.
    [The statement of Mr. Shepherd follows:]

 Prepared Statement of Robert E. Shepherd, Jr., Emeritus Professor of 
               Law, University of Richmond School of Law

    Madam Chairman, Members of the Committee, I am Robert E. Shepherd, 
Jr., Emeritus Professor of Law at the University of Richmond Law School 
in Virginia, and a former Chair of the Juvenile Justice Committee of 
the American Bar Association. I am also a long-term member and leader 
with the Coalition for Juvenile Justice, a national group consisting of 
representatives of the State Advisory Groups created pursuant to the 
Juvenile justice and Delinquency Prevention Act. I am here to present 
testimony on ``The Juvenile Justice and Delinquency Prevention Act: 
Overview and Perspectives'' and I thank you for the opportunity to 
speak to you about this important piece of legislation and the issues 
it addresses.
    That Act, originally enacted more than thirty years ago, has 
contributed greatly to the prevention of delinquency, to early 
intervention in the suppression of delinquency, to treating delinquent 
behavior and rehabilitating delinquent youth so as to prevent future 
delinquency, and to ensuring humane treatment of these young people in 
the juvenile justice system. The Act, and its programs, is still the 
best possible federal vehicle for protecting society from antisocial 
behavior by children and adolescents and for enabling these youth to 
become good citizens and successful adults. It also creates a unique 
partnership between agencies of the federal government and leaders in 
the juvenile justice field in the states and localities as an integral 
part of the structure of the Act. A partnership which calls on the 
Congress and the agencies under the Executive Branch to work 
cooperatively with the Governors and the Governor-appointed State 
Advisory Groups on juvenile justice in a meaningful dialogue and in 
response to state and local concerns.
    I have been asked to give a brief overview of juvenile justice and 
what research shows are the best practices in dealing with at-risk and 
delinquent behavior among youth. Obviously, there are time constraints 
that make it impossible to address these issues in any depth, but I 
will attempt to highlight the most significant issues involving youth 
either in, or at risk of entering, the juvenile justice system as a 
beginning to the work of the Congress in reauthorizing the JJDP Act.
The incidence of juvenile crime
    Recent data show a dramatic reduction in the rate and seriousness 
of juvenile delinquency in the past ten or twelve years, contrary to 
the dire predictions of many ``experts'' whose ominous writings shocked 
legislators into abandoning the core principles of the juvenile system. 
Those principles, separating delinquent youth from hardened criminals, 
treating youth as developmentally different from adults, and viewing 
young people as being inherently malleable and subject to change in a 
rehabilitative setting, are still fundamentally sound. Indeed, as we 
have learned more from the developmental and brain research in recent 
years, we know better what does work in turning around these young 
lives and correcting their behavior. There has been a slight upswing--
barely 2 percent--in violent crime in the past year but it is not 
uniform across all categories of offending, and it may be aberrational 
rather than the beginning of a trend. (See Butts & Snyder, 2006)
Transfer or placement of juveniles in adult courts
    One issue that needs to be addressed in the reauthorized JJDP Act 
is the increased use of transfer to adult court of juveniles, a 
practice that is unwise and contrary to much evidence regarding the 
implications of transfer or certification. Several recent studies, by 
researchers in Florida, Minnesota, New York and New Jersey, and 
Pennsylvania, are consistent in showing that youth transferred to adult 
court and tried as adults had higher recidivism rates, they re-offended 
sooner after release from adult institutions, and their repeat offenses 
were more serious than similar youth retained in juvenile court for the 
same offenses in the same or comparable jurisdictions. (Lanza-Kaduce, 
Frazier, Lane & Bishop, 2002; Fagan, 1991; Mayers, 2003; Podkopacz & 
Feld, 1996; Coalition for Juvenile Justice, 2005) Thus, treatment as an 
adult created a greater risk for community safety in the long term than 
did juvenile treatment. A Miami Herald study of the Florida experience 
in 2001 concluded that ``[s]ending a juvenile to prison increased by 35 
percent the odds he'll re-offend within a year of release.'' (Greene & 
Dougherty, 2001)
    Juveniles incarcerated in adult correctional institutions are also 
at greater risk of assaults, both sexual and physical. Studies show 
that such youth are five times as likely to report being a victim of 
rape, twice as likely to be beaten by staff, and 50% more likely to be 
assaulted with a weapon than youth in juvenile facilities and they are 
eight times more likely to commit suicide. (Audi, 2000; Forst, Fagan & 
Vivona, 1989) Judges should have broad discretion in sentencing 
adolescents, even when they are tried and treated as adults. Juveniles 
involved in delinquent activity frequently have less culpability than 
the adults they are associated with in such behavior, they may be a 
lookout rather than a triggerman, and yet much legislation enacted in 
the past two decades denies juvenile courts the power to discriminate 
among different levels of involvement and different kinds of behavior. 
As Bob Schwartz of the Juvenile Law Center in Philadelphia is fond of 
saying, Oliver Twist, the ``Artful Dodger,'' Bill Sikes, and Fagin were 
not equally culpable in their criminal activity in Dickensian London, 
but they are treated as such in many state laws and some federal 
legislation.
    Two very recent reports highlight the dangers in trying and 
treating juveniles as adults in the courts and in corrections. The 
Campaign for Youth Justice gives an outstanding overview of the issues 
in its March report entitled THE CONSEQUENCES AREN'T MINOR: THE IMPACT 
OF TRYING YOUTH AS ADULTS AND STRATEGIES FOR REFORM (Campaign for Youth 
Justice, 2007), and the Task Force on Community Preventive Services of 
the Centers for Disease Control and Prevention reinforced the 
recommendations in an important report published in the American 
Journal of Preventive Medicine in April. The CDC task force in 
particular criticized the belief that the fear of adult treatment had a 
deterrent effect on youth behavior and agreed with the research on 
enhanced post-release offending by young people tried as adults. 
(McGowan et al, 2007)
Detention reform and DMC
    Two issues that have received a lot of attention in the states and 
from private foundations have been the disproportionate contact between 
the processes of the juvenile and adult justice systems and minority 
youth and the overuse of secure detention facilities for young people 
awaiting trial. The Annie E. Casey Foundation has worked with several 
states and many localities in reducing the use of secure placements by 
the judicious use of objective assessment instruments in determining 
who should be locked up awaiting trial, either because they are high 
risks for flight or for re-offending if they remain free in the 
community. And, since minority youth tend to be detained in 
disproportionate numbers, these new strategies help to address DMC 
issues. Likewise, a greater focus in the Act on transfer or placement 
in adult courts may have a beneficial impact on DMC problems because 
policies that increase the transfer of juveniles to adult court also 
have a disproportionate impact on children of color. Recent studies 
have shown that more than seven out of every ten youth admitted to 
adult facilities across the country were youth of color, and minority 
youth are more likely to be treated as adults that white youth charged 
with the same offenses. (Poe-Yamagata, 2000; Ziedenberg; Males & 
Macallair, 2002; Coalition for Juvenile Justice, 2005)
    Language should be included in the Act to encourage states to 
reduce the number of children unnecessarily or inappropriately placed 
in secure pretrial detention. The new language should encourage states 
to enact legislation that requires that secure pretrial detention be 
based on the criteria of public safety and risk of flight from the 
court's jurisdiction, set and adhere to guidelines for expedited case 
processing, and encourage states to develop and use appropriate 
alternatives to secure pretrial detention for juveniles who pose no 
immediate risk of public safety or risk of flight. An alarmingly high 
number of juveniles accused of crime are detained in secure detention 
centers before trial although they have been charged with only 
nonviolent, relatively minor offenses. Many of these are youth who have 
untreated drug abuse or mental health problems or are minority youth. 
Secure pretrial detention in these cases is both costly and detrimental 
to the youth. Juveniles placed in alternative pre-trial programs 
benefit from better mental health assessments and treatment and 
stronger connections with family, school, religious, and community 
supports.
Gangs
    Much attention has been given to the incidence of gang-related 
violence and the involvement of young people in these gangs and their 
activities. Transfer to adult court and the use of mandatory minimum 
sentences have often been advocated for impacting on youth gang 
activity. However, the research does not support the efficacy of either 
of these approaches and placing juveniles in adult facilities largely 
dominated by gangs would seem to exacerbate the problem. A report 
released in 2004 by Fight Crime: Invest in Kids, a law enforcement-
based group, points to the effectiveness of many current programs in 
preventing gangs--at the local and state level--and in interdicting 
violent gang activity. That report, CAUGHT IN THE CROSSFIRE: ARRESTING 
GANG VIOLENCE BY INVESTING IN KIDS, offers much useful advice about 
programs that work with the help of federal investment in anti-gang 
programs through the JJDPA and other entities.
Sex offenders
    Sex offenders seem to have become the modern equivalent of lepers 
and there is a tendency to lump juveniles in with adults who prey on 
young children when it comes to harsh punishments and mandatory 
registration laws. However, research does not support the inclusion of 
adolescents in such strategies since juveniles who commit illegal 
sexual behavior are amenable to treatment and rehabilitation and they 
are a very heterogeneous population that should not be lumped with 
adults, and they should be processed through the juvenile justice 
system. (Pierce and Bonner, 2004) The National Center on Sexual 
Behavior of Youth at the University of Oklahoma Health Sciences Center, 
an OJJDP project, has been responsible for much of this research and 
these conclusions, and Frank Zimring at the University of California 
Law School, Berkeley, has published research that reinforces their 
findings and recommendations. (Zimring, 2004)
    Both the Center and Professor Zimring have pointed to the extremely 
low incidence of re-offending by young people who engage in illegal 
sexual behavior. (See also Association for the Treatment of Sexual 
Abusers, 2006)
Effective prevention strategies and treatment of juvenile offenders
    We have more research-based information today about what works and 
what doesn't work in preventing delinquent behavior and in treating 
juvenile offenders who have violated the law. In October of 2004, the 
National Institutes of Health (NIH) convened an independent ``state-of-
the-science'' panel for a conference to address the important issues of 
preventing violence and related heath-risking social behaviors in 
adolescents, and the panel issued a significant report of importance to 
all those who make policy governing juvenile programs, and it is rather 
remarkable that this report has not received more attention than it 
has. The panel concluded that ``get tough'' programs that rely on 
``scare tactics'' for the purpose of preventing children and 
adolescents from engaging in violent behavior are not only ineffective, 
but may actually make the problem worse. The panel, which consisted of 
thirteen distinguished experts from a variety of disciplines, and which 
was charged with assessing the available evidence on preventing 
violence and other risky behaviors on the part of adolescents, released 
its report that same month summarizing its assessment of the current 
research.
    The panel found that many residential ``get tough'' programs, 
including group detention centers, boot camps and other similar 
residential programs, often exacerbate existing problems among 
adolescent youth by grouping those with delinquent tendencies together, 
where ``the more sophisticated instruct the more naive.'' Similarly, it 
also concluded that practice of transferring increasing numbers of 
juveniles to the adult criminal justice system noted above also can be 
counterproductive, resulting in greater violence among incarcerated 
youth and increased recidivism when they are ultimately released.
    The panel concluded that ``a number of intervention programs have 
been demonstrated to be effective through randomized controlled 
trials.'' and it spotlighted two particular programs that it found are 
clearly effective in reducing arrests and out-of-home placements: 
Functional Family Therapy, and Multisystemic Therapy. Among the 
significant characteristics that these two programs had in common are a 
focus on developing social competency skills, a long-term approach 
rather than a ``simple'' short-term ``fix,'' and the involvement of the 
family as well as the youth in the program. The two programs maintained 
positive results for nearly four years after the treatment ended. 
Several other programs were identified that were classified as 
``effective with reservation,'' meaning that they had only internal 
rather than external randomized controlled trials: Big Brothers Big 
Sisters (reductions in hitting), Multidimensional Treatment Foster 
Care, Nurse Family Partnership (reduction in incarceration), Project 
Towards No Drug Abuse (reduction in weapon carrying), Promoting 
Alternative Thinking Strategies (reduction in peer aggression), and 
Brief Strategic Family Therapy (reduction in conduct disorder, 
socialized aggression). The Evidence Report/Technology Assessment 
accompanying the panel conclusions contains probably the most extensive 
bibliography as of October, 2004, of the existing literature on 
violence prevention and treatment with a useful analysis of the studies 
and programs. (AHRQ Publication No. 04-E032-2 (October 2004))
The importance of research and its dissemination under the JJDP Act
    As the unique partnership between the federal government and the 
states relates to research on best or promising practices, I urge the 
Congress to consider ways to provide resources for field-based and 
field-strengthening research and evaluation that will refine and expand 
the array of best and evidence-based practices in delinquency 
prevention, intervention and treatment. Issues that states are hungry 
to address include the following among others:
    <bullet> effective approaches for diverse cultural and linguistic 
groups, as well as rural populations;
    <bullet> innovations to guard against bias and racial/ethnic 
disparities;
    <bullet> proactive approaches to truancy prevention;
    <bullet> ways to reduce school referrals to law enforcement;
    <bullet> effective approaches for positive family engagement;
    <bullet> analyses of what youth are being sent to adult criminal 
court and what happens to them in that system; and
    <bullet> proven approaches to community and school reintegration 
for youth who have been recruited into criminal street gangs.
    Please also look to strengthen the implementation of Part 5653 Sec. 
243 of the JJDP Act which addresses research, demonstration and 
evaluation and authorizes the OJJDP administrator to ``conduct, 
encourage, and coordinate research and evaluation into any aspect of 
juvenile delinquency, particularly with regard to new programs and 
methods which seek to strengthen and preserve families or which show 
promise of making a contribution toward the prevention and treatment of 
juvenile delinquency.'' Very explicit language is now included, yet 
most of the functions in this section are not being addressed. Perhaps 
because the OJJDP Administrator is given too much discretion to direct 
the limited resources now appropriated and designated for research 
under the JJDP Act to topics and questions that have little to do with 
the goals of the Act.
    Therefore, please consider simple language changes in the JJDP Act 
to state that the OJJDP Administrator shall rather than may provide 
support for research, replication and high fidelity adaptation of 
evidenced-based practice models, across a wide range of racial, ethnic, 
geographic and societal circumstances--urban and rural, both in and 
outside of institutional settings for applications with many 
populations, girls, Native American youth, Youth in the U.S. 
territories, Latino youth, African American youth, and others. Insist 
that the research and findings be made widely available to the public 
and backed-up with training and technical assistance to the parties 
principally charged with JJDPA implementation--state advisory group 
members and state juvenile justice specialists.
The Office of Juvenile Justice and Delinquency Prevention
    Again, speaking as a long-time member of a State Advisory Group and 
as one active in both the Coalition for Juvenile Justice and the 
Federal Advisory Committee on Juvenile Justice, I urge you to ensure a 
vibrant, rehabilitatively-focused ``home'' for juvenile justice within 
the U.S. Department of Justice at OJJDP--with an administration guided 
by experts and whose actions are both timely and transparent to the 
public.
    As cited in the recent Congressional Research Service Report (April 
2007) on the JJDP Act, the Act itself has ``trended away from having 
the rehabilitation of juveniles as its main goal'' turning instead, 
along with the majority of states, toward a counter-productive emphasis 
on increased punishment. Simultaneously, OJJDP rules and regulations 
for states to receive federal justice grants have increasingly 
prohibited staff and state juvenile justice advisors from developing 
appropriate policy and practice models in communication with elected 
officials.
    Since 2002, juvenile justice appropriations to the states--that 
support important priorities under the JJDP Act such as:
    <bullet> continuums of care;
    <bullet> alternatives to detention;
    <bullet> effective prevention initiatives;
    <bullet> and restorative justice have fallen by nearly 50% and the 
federal Office of Juvenile Justice and Delinquency Prevention (OJJDP), 
which has recently failed to advocate for its own purposes, has seen 
its budget slashed to one-fifth of its former status.
    In addition, with effective leadership and oversight by Congress, 
OJJDP's Federal Coordinating Committee on Juvenile Justice can be more 
effective to develop cross-system and cross-agency integration of 
programs, policies and services in education, employment, child 
welfare, children's mental health and substance abuse prevention.
    Effective and state-responsive leadership at OJJDP would also 
undoubtedly raise concerns about why OJJDP has disengaged from and 
disavowed the Coalition for Juvenile Justice--which serves as the 
national leadership association for the State Advisory Groups--as 
called for in Section 5633 (f)(Part A-E) of the Act itself. It has been 
damaging to prevention and intervention efforts and the promotion of 
best and promising practices in delinquency prevention to allow the 
OJJDP Administrator to ignore the letter and the spirit of the statute.
    Thank you for your attention and for your resolve to address these 
continuing issues presented by juvenile justice. This year is not only 
the year for reauthorization of the JJDP Act, it is also the fortieth 
anniversary of the United States Supreme Court's historic decision in 
In re Gault, 387 U.S. 1 (1967), in which the basic guarantees of due 
process were extended to youth in juvenile and family courts. A timely 
and thoughtful process for making needed amendments and reauthorizing 
the Act would be a fitting way to celebrate that anniversary. And the 
reauthorization process has always been the occasion for meaningful 
bipartisan cooperation and collaboration, and that would be pleasant as 
well.
                               references
Association for the Treatment of Sexual Abusers, REPORT OF THE TASK 
        FORCE ON CHILDREN WITH SEXUAL BEHAVIOR PROBLEMS (2006).
Audi, Tamara, ``Prison at 14: Teenage Girls Serve Time with Adult 
        Inmates,'' Detroit Free Press, July 10, 2000.
Butts, Jeffrey A. & Howard N. Snyder, TOO SOON TO TELL: DECIPHERING 
        RECENT TRENDS IN YOUTH VIOLENCE (Chapin Hall Issue Brief, 
        University of Chicago, 2006)
Campaign for Youth Justice, THE CONSEQUENCES AREN'T MINOR: THE IMPACT 
        OF TRYING YOUTH AS ADULTS AND STRATEGIES FOR REFORM (2007)
Coalition for Juvenile Justice, CHILDHOOD ON TRIAL: THE FAILURE OF 
        TRYING AND SENTENCING YOUTH IN ADULT COURTS (2005).
Fagan, Jeffrey, THE COMPARATIVE IMPACTS OF JUVENILE AND CRIMINAL COURT 
        SANCTIONS ON ADOLESCENT FELONY OFFENDERS (National Institute of 
        Justice, U.S. Department of Justice, 1991)
Fight Crime: Invest in Kids, CAUGHT IN THE CROSSFIRE: ARRESTING GANG 
        VIOLENCE BY INVESTING IN KIDS (2004).
Forst, Martin, Jeffrey Fagan & T. Scott Vivona, `` Youth in Prisons and 
        Training Schools: Perceptions and Consequences of the 
        Treatment-Custody Dichotomy,'' 40 Juvenile & Family Court 
        Journal (1989).
Greene, Ronnie & Geoff Dougherty, ``Kids in Prison: Tried as Adults, 
        They Find Trouble Instead of Rehabilitation,'' Miami Herald, 
        March 18, 2001.
Lanza-Kaduce, Lonn, Charles E. Frazier, Jodi Lane & Donna Bishop, 
        JUVENILE TRANSFERS TO CRIMINAL COURT STUDY: FINAL REPORT 
        (Florida Department of Juvenile Justice, Office of Juvenile 
        Justice and Delinquency Prevention, 2002).
Males, Michael & Daniel Macallair, THE COLOR OF JUSTICE: AN ANALYSIS OF 
        JUVENILE ADULT COURT TRANSFERS IN CALIFORNIA (Building Blocks 
        for Youth, 2000).
Mayers, David L., ADULT CRIME, ADULT TIME: PUNISHING VIOLENT YOUTH IN 
        THE ADULT CRIMINAL JUSTICE SYSTEM (Sage Publications, 2003).
McGowan, Angela, Dr Robert Hahn, Dr Akiva Liberman, Dr Alex Crosby, Dr 
        Mindy Fullilove, Dr Robert Johnson, Dr Eve Moscicicki, Dr 
        LeShawdra Price, Dr Susan Snyder, Dr Farris Tuma, Jessica 
        Lowry, Dr Peter Briss, Dr Stella Cory, Dr Glenda Stone, Task 
        Force on Community Preventive Services, Centers for Disease 
        Control and Prevention, ``Effects on Violence of Laws and 
        Policies Facilitating the Transfer of Juveniles from the 
        Juvenile Justice System to the Adult Justice System,'' 32 (4S) 
        American Journal of Preventive Medicine S7-S28 (2007).
National Institutes of Health State-of-the-Science Conference, 
        PREVENTING VIOLENCE AND RELATED HEALTH-RISKING SOCIAL BEHAVIORS 
        IN ADOLESCENTS (2004).
Pierce, Keri & Dr Barbara Bonner, ``Adolescent Sex Offenders: 10 
        Essential Questions Answered,'' Juvenile and Family Justice 
        Today 16 (Summer, 2004).
Podkopacz, Marcy R. & Barry Feld, ``The End of the Line: An Empirical 
        Study of Judicial Waiver,'' 86 Journal of Criminal Law & 
        Criminology 449 (1996).
Poe-Yamagata, E., AND JUSTICE FOR SOME (National Council on Crime and 
        Delinquency, 2000).
Ziedenberg, Jason, DRUGS AND DISPARITY: THE RACIAL IMPACT OF ILLINOIS' 
        PRACTICE OF TRANSFERRING YOUNG ADULT OFFENDERS TO ADULT COURT 
        (Building Blocks for Youth, 2002).
Zimring, Franklin, AN AMERICAN TRAGEDY: LEGAL RESPONSES TO ADOLESCENT 
        SEXUAL OFFENDING (2004).
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Professor.
    Dr. Woolard?

     STATEMENT OF JENNIFER WOOLARD, ASSISTANT PROFESSOR OF 
               PSYCHOLOGY, GEORGETOWN UNIVERSITY

    Ms. Woolard. Madam Chair, thank you for the opportunity to 
speak with you all this afternoon.
    Today, briefly, I would like to share with you some of what 
behavioral science research can contribute to this policy 
discussion about our responses to youth.
    First, adolescents are developmentally different from 
adults in ways that are critically relevant to our discussion 
of delinquency and crime.
    This will not be a news flash to many parents of 
adolescents, or those of who remember our own adolescence, that 
kids are different. But I am here to say that the news is, this 
is not only based in personal experience or stereotype, but in 
science.
    The advances in behavioral and brain research already 
mentioned support this fundamental tenet of the juvenile 
justice system and the JJDPA.
    To illustrate, I will focus briefly on two major aspects of 
adolescents' brain and behavior functioning.
    The socio-emotional network of the brain refers to systems 
responsible for emotion, rewards, social processing of 
information, which we know undergo major changes in early 
adolescence at the same time that we see behaviors that include 
increased sensation-seeking, increased and easier emotional 
arousal in young teens and increased attentiveness to social 
information and the influence of peers.
    So, adolescence is characterized by a social-emotional 
system that is easily aroused and highly sensitive to social 
feedback.
    At the same time, adolescence is characterized by a still 
immature cognitive control system. Although intellectual 
ability peaks by about age 16, the capacity for planning, 
future orientation and the ability to regulate oneself involve 
portions of the brain that continue to develop well into young 
adulthood.
    These areas, sometimes called the CEO of the brain, 
activate during what we might consider mature or deliberate 
thinking--the abilities to identify and consider future 
consequences, understand possible sequences of events and 
control impulses.
    As a result, adolescents are less able to control impulses, 
less able to resist pressure from peers, less likely to think 
ahead, and more driven by the thrill of rewards.
    Moreover, the effects of immaturity are probably even 
greater outside the control of the laboratory. Compared to 
adults, juveniles' cognitive capacity is undermined by the 
socio-emotional system I was talking about in particular 
circumstances--circumstances that are not controlled, not 
deliberate and not calm, circumstances that likely encompass 
much of the adolescent delinquency risk.
    Theories suggest that with maturation to adulthood comes 
the integration of these two systems, bringing their influence 
into greater balance and perhaps contributing to the reduction 
of risky behavior that we see in adulthood.
    Now, let me be clear. The advances in brain imaging 
techniques are exciting and offer windows into the structure 
and function of the brain that we could only dream about.
    However, this research is still at its early stages. I 
cannot definitively tell you that certain regions of the brain 
are directly responsible for risky behavior, immature thinking 
or delinquent acts.
    What we can tell you, however, is that our initial brain 
research is consistent with the decades of behavioral research, 
documenting important differences in the cognitive capacities, 
psychosocial development and behavior of adolescents compared 
to adults.
    Now, there are certainly adults who engage in risky 
behavior or act immaturely. They crucial distinction based on 
developmental research, though, is that adolescents as a class 
are more likely to demonstrate these deficiencies due to 
normative development that is incomplete. Most will mature into 
law-abiding, productive adult citizens.
    As a result, the research I describe on developmental 
differences challenges policymakers and practitioners to sort 
and manage a young population that can appear simultaneously 
adult-like and immature.
    So, what guidance can developmental research provide?
    I believe that the body of behavioral and brain research 
calls into question assumptions made by some that juveniles are 
simply miniature adults, because they are capable of committing 
certain offenses. Prior to age 16, they are different 
intellectually and emotionally. After age 16, they are still 
different emotionally.
    While many laws allowing or requiring juveniles to be tried 
as adults use age-based determinations, we really need to 
consider developmental maturity.
    The importance of separating youth from adults in 
correctional settings cannot be overemphasized. Used for a 
shortened time perspective, for example, can mean that the same 
amount of time in isolation for a disciplinary infraction can 
have a more severe or excessive impact on youth than it does 
adults.
    One study comparing youth in the adult system to the 
juvenile system found that juvenile sanctions had an affect on 
youths there, because they gained something--skills or hope. 
Adult sanctions use reported tended to have an effect, because 
they cost them something--a loss of hope, safety or respect.
    It is incumbent upon us to ask questions about outcomes 
that extend beyond recidivism to pathways of positive 
development, and the JJDP emphasis on prevention is crucial. 
These findings support the importance of a developmentally 
appropriate system that simultaneously works to prevent and 
reduce offending, while offering the opportunity for youth to 
follow a successful and productive developmental pathway.
    Thank you.
    [The statement of Ms. Woolard follows:]

 Prepared Statement of Jennifer L. Woolard, Ph.D., Assistant Professor 
                  of Psychology, Georgetown University

    Madame Chairwoman and members of the Subcommittee on Healthy 
Families and Communities, and the Subcommittee on Crime, Terrorism, and 
Homeland Security, thank you for the opportunity to speak with you this 
afternoon about the Juvenile Justice and Delinquency Prevention Act. As 
a developmental and community psychologist who specializes in 
adolescence and the law I share with you some of what behavioral 
science research can contribute to the policy discussion about 
responses to youth.
    First, adolescents are developmentally different from adults in 
ways that are critical to behaviors that are relevant to the justice 
system. Although the belief that adolescents are different may appear 
patently obvious to parents of adolescents or those of us who recall 
our own youth, the critical point here is that advances in behavioral 
and brain research support a fundamental tenet of the juvenile justice 
system itself--that these differences are critical to behaviors 
relevant to the justice system. In my brief time I will focus on two 
major aspects of adolescents' functioning--what my colleague Laurence 
Steinberg calls the cognitive control network and the socio-emotional 
network.
    The socio-emotional network refers to brain systems responsible for 
emotion, rewards, and social processing. Imaging research shows that 
these brain regions undergo major changes in early adolescence that are 
related in part to hormonal changes of puberty. These changes coincide 
with characteristics of adolescence such as increased sensation-
seeking, increased/easier emotional arousal, and increased 
attentiveness to social information. So, adolescence is a time 
characterized by a socio-emotional system that is easily aroused and 
highly sensitive to social feedback.
    At the same time, adolescence is characterized by a still-immature 
cognitive control system. When we talk about the cognitive system we're 
not just talking about intellectual ability, which does increase 
throughout childhood and adolescence but really reaches its peak at 
about age 16--perhaps disappointing news to those of us well beyond 
those years. We're also talking about planning, future orientation, and 
the ability to regulate oneself. These critical abilities involve 
prefrontal and anterior cingulate portions of the brain that continue 
to develop well into young adulthood. These areas are responsible for 
what we might consider mature or deliberate thinking--the abilities to 
identify and consider future consequences, understand possible 
sequences of events, and control impulses.
    As a result, adolescents are less able to control impulses, less 
able to resist pressure from peers, less likely to think ahead, and 
more driven by the thrill of rewards. Adolescents' psychosocial 
functioning, even at the age of 18, is significantly less mature than 
that of individuals in their mid-20s. Moreover, the effects of 
immaturity are probably even greater outside the control of a 
laboratory. For example, under conditions of emotional arousal or 
stress juveniles' cognitive capacity to think like adults is undermined 
by that socioemotional system. Risky behavior may be produced by these 
competing systems but in adolescence it's not a fair fight--the 
socioemotional system has an advantage in the circumstances that are 
not controlled, deliberate, and calm--circumstances that may encompass 
much of adolescent delinquency. Theory suggests that with maturation 
comes the integration of the two systems, bringing their influence into 
greater balance and perhaps contributing to the reduction in risky 
behavior we see in adulthood.
    Let me be clear--the advances in brain imaging techniques such as 
Functional Magnetic Resonance Imagine are exciting and offer windows 
into the structure and function of the brain. However, research is 
still at the early stages. We cannot definitively tell you that certain 
regions are ``responsible'' for risky behavior, immature thinking, or 
delinquent acts. It cannot be used to evaluate individual development, 
assess guilt or innocence, or give a probability of recidivism or 
responsiveness to treatment. It cannot tell us where adolescence ends 
and adulthood begins. What it does do, however, is tell us that our 
initial brain research is consistent with the decades of research 
documenting important differences in the cognitive capacities, 
psychosocial development, and behavior of adolescents compared to 
adults.
    The research on developmental differences challenges policymakers 
and practitioners to sort and manage a young population that can appear 
simultaneously adult-like and immature. Because it is a period of broad 
and fundamental change, adolescence is a time of incredible diversity 
within and among youth. Individuals may differ from each other, but the 
same adolescent may be more or less advanced in various specific 
capacities. For example, he may be able to think in quite sophisticated 
ways, but be emotionally immature. Also, age is not a consistent marker 
of maturity. Two fifteen-year-olds may vary widely in their physical 
appearances, cognitive abilities and social experiences. Adolescents 
face common developmental tasks but approach them in different ways and 
at different rates; variability is the norm. Out of this variability, 
we know that most adolescents mature into law-abiding, productive adult 
citizens. So, what guidance can developmental research provide?
    I believe the body of behavioral and brain research calls into 
question assumptions made by some that juveniles are simply ``miniature 
adults'' because they are capable of committing certain offenses. For 
example, while many laws allowing or requiring juveniles to be tried as 
adults facilitate categorical distinctions based on physical age, the 
expressed rationales for transfer legislation are tied to developmental 
maturity--which are often not equivalent. If the historical intent of 
transfer laws were met, i.e., the removal of a small number of serious 
offenders who are unamenable to treatment or pose a serious risk to 
public safety, one might argue that the youth who end up in the 
criminal justice system indeed represent the mature, hardened criminal 
for whom development differences are nonexistent or irrelevant.* In 
contrast, the expansion of transfer mechanisms has resulted in a 
larger, more heterogeneous population with many for whom that 
maturation is likely not yet complete.
---------------------------------------------------------------------------
    *Although even in this situation, it is not clear that these youth 
would be fully mature in the ways described above. The combination of 
serious crime with perceived lack of amenability or risk to public 
safety is neither a necessary nor sufficient guarantee of mature 
development.
---------------------------------------------------------------------------
    The reality of managing young offenders it is not simply a matter 
of adjusting existing adult programs and practices; rather, it requires 
a qualitatively different approach. The importance of separating youth 
from adults in correctional settings cannot be overemphasized. Youths' 
foreshortened time perspective, for example, can mean that the same 
amount of time in isolation imposed for disciplinary sanctions for 
adults can have a more severe or excessive impact on youth. One study 
comparing the perceptions of youth transferred to the adult system with 
those retained in the juvenile system found that over 60% of the youth 
rated prison as having a negative impact on their attitudes and 
behaviors, in part because staff treated them negatively or 
apathetically. Youths reported that juvenile sanctions had an effect 
because they gained something (e.g., skills, hope, services); adult 
sanctions tended to have an effect on attitudes and behavior because 
they cost something (e.g., loss of hope, safety, respect).
    It is incumbent upon researchers and policymakers to ask questions 
about outcomes that extend beyond recidivism to include pathways of 
development (e.g., appropriate relationship formation, individual 
capacities) and positive engagement in the larger society (e.g., 
employment, contributions to society). I applaud your interest in these 
issues and encourage you to consider the resources that developmental 
research can offer through systematic theory and evidence. These 
findings, at a minimum, support the importance of a developmentally 
appropriate juvenile justice system that simultaneously works to 
prevent and reduce offending while augmenting the opportunity for youth 
to follow a successful and productive developmental pathway.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    And I appreciate all the testimony.
    Being that we only get 5 minutes also to ask the questions, 
make our statement and to receive your answers, it is always 
hard when you have a panel that is offering so much 
information.
    So, I guess what I will say to the whole panel, if you 
could, on very short answers, if you have them, is that, as we 
go through the reauthorization, you are all experts in your own 
little way on dealing with juvenile justice.
    What do you think is probably the most important thing that 
we, as members of Congress, that are going to be doing the 
reauthorization--we always know it is money; we already know 
that--but what other areas do you think that we need to work 
on?
    Mr. Johnson, could you start off?
    Mr. Johnson. Madam Chair, I really believe that the first 
thing that you could do is put a premium on prevention efforts, 
regardless of what that is.
    As the people have said here today, prevention is really--
and it is something that I have found changes people's lives, 
whether it is in medicine, mental health and so forth.
    The other thing I think you could do, and probably the 
strongest thing you could do is make sure that the office of 
OJJDP has the ability to provide states with the technical 
assistance and the support they need to bring this out to a 
broader level of people.
    Chairwoman McCarthy. My background before I came here was a 
nurse. So, prevention has always been my key word on almost 
everything that I do here, with education and everything else.
    Mr. Freed?
    Mr. Freed. I would suggest that you demand information on 
what works, and fund that. Fund the most effective programs 
that people can describe to you that work.
    Early intervention to me is the key, whether it is after a 
child commits his or her first offense, or whether it is 
before.
    I mean, I spend too much time seeing people come through 
the system, going back in jail. I can name you families in town 
and in the county that they keep coming through the system. 
There are some people we are not going to reach. We need to 
reach those kids before they get in there, or the first time 
they get in there.
    So, I would say, as much intervention as possible, as early 
as possible.
    Mr. Lawrence. Specifically, Madam Chair, in the current 
iteration of the JJDP Act, too many core purpose areas are 
listed as possible uses for federal funding in Section 223, 
describing the requirements for state plans.
    Regrettably, some core purposes have little to do with 
effective support for compliance with core requirements or the 
promotion of best practices.
    Please consider ways to trim back the current laundry list 
of divergent possibilities, so as to emphasize and elevate 
compliance with the core requirements and initiatives that 
strive to limit a young person's court involvement out of home 
placement or any sort of confinement while ensuring community 
safety.
    Chairwoman McCarthy. Thank you, judge.
    Mr. Jones?
    Mr. Jones. I think that there should be more programs like 
the CISP all over the United States, because everybody makes 
mistakes. And not only should you punish people, but at least 
give them a chance and teach them ways to better themselves.
    Because where I am from, you see a lot of things. And 
usually you follow your environment, you adapt to your 
environment.
    And this program, it is a good way to have everyone--it is 
a good way to show everybody that there is another way to do 
things, and you can get whatever you want, but there is a legal 
way to do it.
    I think this program is very good for people who are like 
me.
    Chairwoman McCarthy. Thank you, Mr. Jones.
    Professor?
    Mr. Shepherd. Well, I certainly agree with what others have 
said, and especially the fact of strengthening OJJDP and 
increasing congressional oversight to make sure that what is 
communicated to the states is evidence-based.
    In light of the anniversary of Gault, and as a law teacher, 
I think emphasis on the competency of counsel is very 
important. Another hat I wear is as chair of the Virginia 
Indigent Defense Commission.
    And we have spent 2 years developing standards of practice 
for lawyers in juvenile court. And they were promulgated on 
April 1st, and govern every lawyer who practices in juvenile 
court in Virginia.
    We are one of only two states that have done this, and I 
would like to see OJJDP directed to help develop similar 
standards of practice that can then be tailored in each state 
to local practice and raise the bar for representation of 
children, not only on what happens in the courtroom, but on 
programs that work.
    A lawyer that knows what works, even if the juvenile is 
found guilty, that kid is going to be a round peg placed in a 
round hole.
    Chairwoman McCarthy. Thank you.
    Doctor?
    Ms. Woolard. I agree, as well.
    And I want to encourage you all to consider examining the 
capacity of OJJDP's research portfolio. Much of what each of 
the speakers here has said is driven in part by evidence-based, 
systematic research, either to understand risk factors, 
protective factors or to help understand what works.
    And I think research, partnered with those folks that are 
on the front line, is going to help ensure that OJJDP and this 
act could drive the research agenda, rather than simply waiting 
for others to respond to its needs.
    Chairwoman McCarthy. Thank you.
    Again, I want to thank all of you.
    I spend an awful lot of time in my schools when I am home 
on Mondays, and seeing so many of my young people, who I think 
are terrific kids. We also see an increase in gangs all over 
Long Island. And a lot of these kids are good kids, but they 
unfortunately got into--they are really looking for 
companionship.
    I have always been one to say, if we could start at the 
grade schools, start prevention in grade schools, then we would 
not be handling the problems that we are handling now.
    After-school programs I think are terrific.
    Through other committee work that we have done, we have 
seen, when we were looking just even at obesity and nutrition 
with children. Obviously, in the underserved areas we see worse 
conditions than that.
    But physical education every single day helped those 
children, number one, focus better. Certainly had a better 
mental outlook and tended to have higher marks and did not get 
into trouble.
    So, all of our community work, I think, does pull together. 
Because I look at things in a circle. How does it start, and 
how do we complete that circle, so that we have a complete 
child and hopefully a complete future?
    I think it is extremely important that we get this right, 
not only for the economical security of this nation in the 
future, but even for homeland security future.
    With that, I yield to Mr. Platts for 5 minutes.
    Mr. Platts. Thank you, Madam Chair.
    Again, my sincere thanks to all of you for your outstanding 
testimony here at the hearing, as well as your written 
testimony. All of you in some way touched on the issue of 
prevention and emphasize that.
    And Mr. Johnson, I think in your written you said it well. 
It says, ``At its heart, the JJDPA is a prevention act,'' and 
what we are after.
    Along those lines, Dr. Woolard, in your discussion you 
talked to us very much about the biological developmental 
differences, a lot of which relates to mental health and the 
challenges of our youth.
    Two of our colleagues, Patrick Kennedy and Jim Ramstad, are 
the leaders on mental health parity, which is a wholly 
different but very much related issue, I think, that a number 
of the juveniles that we are dealing with and maybe more 
serious juvenile delinquents have mental health problems.
    How would you rate the importance of, as we go through the 
reauthorization, of targeting additional assistance to mental 
health, the shortage of mental health providers in the broad 
sense, and then specifically in the school settings, to a 
greater number of counselors, elementary school counselors and 
middle school counselors?
    Ms. Woolard. Well, I would agree that it is of critical 
importance. And I think if we take the holistic approach that 
Madam Chair was talking about just a moment ago, we see that we 
have historically been reactive with mental health services. We 
have waited for people to ask or cry for help or demonstrate 
for help.
    And I think if we take the prevention approach we have been 
talking about here, then the notion that there would be 
additional services, both within the juvenile justice system--
we know, for example, that the vast majority of young people 
who are in pretrial detention exhibit at least one type--
symptoms of at least one type of significant diagnosis. And 
that is often not met through treatment at that time.
    That if we not only look at resources there during that 
system, but as you suggest, if we think about the other 
contexts in which kids are living those lives and families 
living those lives, school is certainly a critical intervention 
point at which we could see beefing up the ability to provide 
mental health services so that we could be talking about 
prevention and early intervention, rather than seeing these 
full-blown mental health problems we see when they are older.
    Mr. Platts. And we certainly are making progress. I know, 
you know, my children in the same school district I grew up in 
are now going into the third and fifth grade. And in our 
community at large in central Pennsylvania, it is more the norm 
to have counselors in the elementary schools, to have the 
school psychologist district-wide, but very involved.
    I do not remember that at all. There was no counselor in my 
elementary school, as there is now with my children's school.
    But I am also in an area that has got more significant 
resources for our public schools. And I do not think that is 
the norm across the country, to have that access. So, it is 
something I think maybe we need to look at.
    District Attorney Freed, David, you talked about the Nurse-
Family Partnership program and legislation that I am a co-
sponsor of, the education begins at home.
    Again, very much, when we talk early education and 
prevention, this is about as early as you get. It is helping 
new parents learn the skills of parenting, so that they can 
provide that stability and support and example at home.
    In your work as district attorney--and I know there is not 
an exact answer you can give--but how would you classify the 
family settings of the juveniles you come into contact with, 
and more likely, not having a positive example at home, versus 
less, you know, common?
    Mr. Freed. It is far more likely that there are problems in 
the home with the juveniles that we see come before us.
    You are always going to have the kid that went bad. You do 
not understand the explanation of how this kid could end up 
behaving that way.
    But generally what we see are the juveniles are acting out, 
because of some issue in the home, because of abuse, because of 
neglect, or because of, frankly, a complete lack of supervision 
or meaningful guidance by the parent, or more particularly, in 
our more crime-prone areas, the aunts or grandmother who is 
raising the child.
    A lack of meaningful male role models is a huge problem in 
our community. That is why I think after-school programs, such 
as Boys and Girls Clubs, scouting--anything you can think of to 
support that would be perfect.
    The Nurse-Family Partnership, one of the main reasons I 
support it is because it starts as early as you can start.
    You know, I talked about Quincy and Jordan, and I am happy 
that I could put those names on the Congressional Record and 
they will be there forever, because I honor and tribute those 
boys every day of my life.
    And I am convinced that if we could have helped out those 
families, Quincy would not have been starved to death and 
Jordan would not have been beaten to death. They would have 
been taken out or the parents would have known better.
    Mr. Platts. And I think that is one of the important 
lessons of your collective testimony. The investment we make up 
front, whether it is the home visitation programs or other 
prevention, you know, mental health counseling, that most 
importantly, the impact on the lives of these children and, in 
a broader sense, the community, will be dramatic.
    And we have to understand, it is hard to do here in 
Washington, because the way we budget everything is we are only 
going to look at what we are going to spend this year, not what 
we are going to--you could probably save next year and 5 years 
and 10 years. And so often, the focus on prevention gets short-
circuited, because it does not work from the way our budgeting 
process works.
    But we need to get beyond that and understand that 
investing now will save taxpayers money down the road much more 
and do right by the youth of our country.
    So, my thanks to all of you again for your testimony.
    Thank you, Madam Chair.
    Chairwoman McCarthy. And I thank you, Mr. Platts. But I am 
telling you, we are going to work on trying to get the money 
where it goes to.
    Mr. Scott?
    Mr. Scott. Thank you, Madam Chair.
    We have heard--I appreciated the testimony from all of the 
witnesses. We have heard that prevention programs work. We have 
heard about the crime reduction with Boys and Girls Clubs, Big 
Brothers, Big Sisters, the Nurse-Family Partnership, a 60 
percent reduction in crime. So, we obviously know what to do.
    I would ask Professor Shepherd, just about every 
jurisdiction in the country tries the most heinous criminals as 
adults already.
    Is there any question in the literature that the editorial 
this morning in the ``New York Times'' which cites a study that 
says children handled in adult courts and confined in adult 
jails committed more violent crime than children processed 
through the traditional juvenile system?
    Is there any question in the literature, in the research, 
that trying more juveniles as adults--those not now tried as 
adults, but trying more juveniles as adults--will increase 
crime?
    Mr. Shepherd. Mr. Congressman, the research is pretty 
consistent. I am not aware of a single study that indicates 
that trying juveniles as adults protects society or impacts 
positively on the behavior of those juveniles.
    One of the earliest studies was done by Dr. Jeffrey Fagan 
in the late 1980s for OJJDP, and it was not published by OJJDP 
for a number of years. It was suppressed.
    Mr. Scott. Well, let me ask you another quick question.
    Treating juveniles life without parole, do other countries 
than the United States subject juveniles to life without 
parole?
    Mr. Shepherd. Mr. Congressman, as you are probably aware, 
the United Nations Convention on the Rights of the Child treats 
life without parole just like capital punishment.
    And we are the only nation in the world that has not 
ratified that convention. So, we are the only nation that does 
it as a practice.
    Mr. Scott. Let me ask Dr. Woolard a couple of questions, 
because the mental health aspects of this are extremely 
important.
    And there is probably no Congressman more active in mental 
health than the gentleman from Rhode Island, Representative 
Kennedy, who is a strong supporter of mental health. And we are 
just delighted to see him here today.
    In terms of gang policy, what deterrent effect does the 
criminal justice system have on juveniles in terms of joining 
gangs?
    Ms. Woolard. Well, Congressman, the research that I am 
aware of--and there have been a couple of different reviews 
that have looked at various strategies for intervening with 
kids involved in the systems.
    My read is that the general consensus is that programs that 
emphasize a deterrent approach, such as a punishment approach, 
straight-up punishment in the criminal justice system, at best 
do not reduce recidivism, and at worst they exacerbate 
recidivism.
    So, the research that looks at risk and protective factors 
for going into gangs talks about some of the factors that were 
already mentioned in terms of the search for connection, for 
companionship, for guidance that may be lacking in other areas.
    So, my read is that more appropriate intervention would be 
directed at those factors, rather than taking a straight-up 
punishment approach.
    Mr. Scott. Your testimony says that you rated prison as 
having a negative effect on juvenile sanctions, because the 
youth reported sanctions, juvenile sanctions have positive 
effects, because they gain something. And adult sanctions 
tended not to work, I guess, because they lost some things.
    When I was in college, I learned that positive 
reinforcement was a better behavior modifier than punishment.
    Can you translate that into what we ought to be considering 
for juvenile crime policy?
    Ms. Woolard. Well, I think you may have said it better than 
I could have at this point.
    One of the messages that comes out of research, which came 
from colleagues in Florida, examining and comparing matching 
kids who had stayed in the juvenile system versus those who 
were transferred, is that we can think about both opportunities 
and costs.
    And if we think about the way that we want to reduce 
negative behavior, we not only need to think about eliminating 
that negative behavior, but putting something positive in its 
stead. And so, the kinds of approaches that look at positive 
reinforcement or a focus on strength and opportunity, I think 
provide a more well-rounded approach than those that focus 
simply on suppression or trying to prevent negative behavior.
    Mr. Scott. And so, how should our gang reduction, juvenile 
justice policy reflect that?
    Ms. Woolard. Well, I think that by its name, gang 
reduction, it is only talking about half of the equation. And 
so, a gang reduction policy that is designed to stop kids from 
getting into gangs has got to examine both the reasons why they 
are getting in and the reasons or pathways that they might need 
in order to get out. And the pathways in order to get out have 
got to offer positive opportunities.
    I currently work with some local nonprofits in D.C., one in 
particular called Peaceaholics, groups that are addicted to 
peace, that are working with young people in the district and 
trying to keep the out of gangs.
    And one of the things that they emphasize tremendously is 
that we have got to offer the constructive opportunities for 
kids to either not go into that gang in the first place or for 
them to come out. And that it is incumbent upon us to create 
that context for those kids, rather than saying ``Don't be in a 
gang, but now go figure out what else you are supposed to do.''
    Mr. Scott. Thank you.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you, Mr. Scott.
    And now, our colleague from North Carolina, Mr. Coble?
    Mr. Coble. Thank you, Madam Chairman.
    Good to have you all with us today.
    Judge Lawrence, what key factors do you see contributing to 
juvenile crime in New Hampshire--my favorite New England state, 
by the way; sorry about that, Mr. Kennedy--and how does the 
state address those factors? And in what ways is your courtroom 
directly or indirectly affected by the Juvenile Justice and 
Delinquency Prevention Act?
    That is a three-pronged question I threw at you.
    Mr. Lawrence. That is fine. I am happy to answer it. I will 
start with the last part of your question first.
    My courtroom is affected through efforts of the Juvenile 
Justice and Delinquency Prevention Act through a detention 
reform project that I happen to head up in the state. But we, 
from time to time, are asked to detain young people.
    And through efforts of the committee and the co-chair, we 
have developed dispositional guidelines--or a detention 
assessment screening instrument, sorry--which has allowed us to 
objectively measure the risk of a child and determine whether 
that child should be detained, as opposed to a subjective 
decision which has been made in the past.
    Generally, if a child irritated someone enough, they were 
detained. And if they did not irritate you enough, they were 
not detained. And that is not a basis to make a detention 
decision.
    It is interesting, when you detain a child and you have a 
similarly situated child--same crime, same socioeconomic 
background--the child you detain has a greater chance of 
sinking deeper into the system, and ultimately a greater chance 
of recidivating, versus the child you did not detain at the 
front end.
    So, it is just--the system works and the Juvenile Justice 
and Delinquency Prevention Act promotes that. And OJJDP has 
done some work in the detention reform area.
    In terms of factors to reduce juvenile delinquency, it is 
really a question of--it is really sort of the analysis would 
be reducing the risk factors, but really increasing the 
strength factors.
    And in a way it is quite simple. If you set up an 
environment for the children who come before you and families, 
really similar to the environment you might like to create and 
to raise your own children in.
    We try to connect our children to the community as much as 
we can. We get them involved in as many activities as we can. 
We do homework with them when they are young.
    We do all the things that contributed to their positive 
element. And it is trying to structure an environment for the 
families who do not do that, to do that. And you do see 
changes.
    One of the things that we often do is, we will take a 
photograph consensually of a child and family when they come 
in. And 6 months or a year later, and the affect and the 
demeanor of both the family and the child, having done some 
positive things with them, is dramatically different.
    So, you really can have an effect on whether or not 
delinquent behavior is enhanced or increases or decreases. So, 
those are a couple of answers to your question.
    Mr. Coble. Thank you, Your Honor.
    Dr. Woolard, what impact do parents have in preventing 
juvenile crime? And do parents impact the psychology of 
juveniles?
    I ask that, doctor, because I have known juveniles who had 
superb parents who become criminals. Conversely, juveniles with 
parents who are rotgut sorry, who are clean as mountain water.
    Ms. Woolard. That is right.
    Mr. Coble. What do you say to me?
    Ms. Woolard. I say yes, you are right.
    I think parents are actually one of my focuses in the 
research that I do. And I want to say a couple of things in 
response to your question.
    One is, I think parents have alternately been cast as both 
cause and cure for delinquency, depending on what era we are in 
in juvenile justice reform.
    I think the answer is that they can serve as both. And it 
depends a lot on the circumstances.
    I think that parents are--I want to be clear that juveniles 
are accountable for their behavior. I think that one of the 
groups that does not have representation in a sense in our 
juvenile justice system is parents. There is no one who--they 
do not have the kind of standing to be involved in the way that 
we would like them to be involved, unless judges and courts 
pull them in in that way.
    So, I think we can think about not just focusing on the 
child, but focusing on that family context. Some kids are able 
to surmount very difficult circumstances and----
    Mr. Coble. And before my red light illuminates and the 
chairman comes after me, I want to ask Professor Shepherd a 
question.
    Professor, have there been any reliable studies that have 
identified the reasons for the decline in juvenile crime in the 
last 30 years?
    Mr. Shepherd. Mr. Congressman, that is probably the hardest 
question that anyone could ask. There have been a lot of 
speculation about what causes juvenile crime to spike and what 
causes it to decline. And there is no consensus about it.
    You may recall, in the late 1980s, there were some very 
dire predictions that we were going to have a bloodbath caused 
by juvenile super-predators as we neared the year 2000, because 
of the children of the baby boomers. And those demographic 
studies proved to be terribly, terribly wrong. Juvenile crime 
went down.
    We really do not know. And I think the researchers that I 
have the most respect for, like Howard Snyder at the National 
Center for Juvenile Justice in Pittsburgh, the research arm of 
the National Council of Juvenile and Family Court Judges, are 
frank enough to say, we can track it, but we are not sure what 
the causes are.
    But there is a study going on now to try and identify and 
segregate out some of those factors that are significant. And 
hopefully, we will have that very soon.
    Mr. Coble. Thank you, Professor.
    Thank you all for your testimony.
    Thank you, Madam Chairman.
    Chairwoman McCarthy. Thank you.
    My colleague from Arizona, Mr. Grijalva?
    Mr. Grijalva. Thank you very much, Madam Chair.
    In the short period time I need to see how many questions I 
can get in, and I would appreciate short answers, if at all 
possible--not required, but appreciated.
    Judge Lawrence, in speaking of the practice of restorative 
justice, let me ask you specifically. Where do re-entry efforts 
fit into this equation of restorative justice? And how should 
they be weighed?
    Mr. Lawrence. Well, first of all, I guess I would say that 
if you had less re-entry--in other words, less people having to 
re-enter--you would end up with better outcomes. But assuming 
you do have people re-entering, then sort of the principles of 
balanced and restorative justice, you would end up with 
probably victim-offender mediation, perhaps, on the re-entry, 
if it was not done at the front end.
    And you would have them connect with the community more 
positively in terms of re-entry, so that they had some support 
from the community. They were not just viewed as someone who 
has gone away, done their time and we forget about them. In 
fact, the community would more or less embrace them. So, those 
are some principles I would employ.
    Mr. Grijalva. Thank you. Let me just follow up on another 
in your written testimony.
    In talking about the challenges and positives that you see 
in terms of juvenile justice prevention efforts, in diverse 
communities like my county of Pima that I am from, can you make 
the comparison between those efforts with diverse communities 
like Pima County, and then more homogeneous communities?
    Mr. Lawrence. Well, I think you have to call upon members 
of the community, actually, to determine what efforts they want 
to make with regard to reconnecting this child who is re-
entering. They need to reconnect with the family. They need to 
reconnect with the child.
    But I think it has to be community-driven, based on 
community values, based on the cultural values that are 
inherent in that community.
    Mr. Grijalva. Thank you.
    And Mr. District Attorney, you mentioned high recidivism 
for high-risk offenders. And just quickly, what did you see as 
the most effective re-entry transition practices to reduce this 
recidivism rate, to prevent, for lack of--spanning the 
definition of prevention--to prevent recidivism?
    Mr. Freed. The best way to prevent recidivism is to 
essentially, when the--if it is a juvenile or an adult who is 
leaving the system, do some sort of an exit interview, 
determine what services are needed for that person and make 
sure the person gets the services.
    That is one of the biggest problems we have. We can all 
debate about who should be in jail and who should not, how long 
they should be there and how shouldn't they.
    But we can all agree that, when they get out, if we just 
send them out with no services, they will fail.
    Mr. Grijalva. Thank you.
    Dr. Woolard, just a quick question. Where does scholastic 
competence, literacy, school achievement, closing that gap, 
doing well in school--where does that fit into prevention?
    Ms. Woolard. Well, we certainly know both that that is a 
tremendous risk factor for youths to begin engaging in 
delinquency and those that are already in the system are often 
achieving below grade level, often more than one grade level 
below.
    So, if we think about both in terms of primary prevention, 
that engagement with school, it is certainly something that we 
want to emphasize and to work on. And for those that are 
already involved in the system, providing the supports for them 
to become academically successful is a critical intervention 
strategy.
    Mr. Grijalva. Key linkage, right?
    Ms. Woolard. Yes.
    Mr. Grijalva. Thank you.
    And my last question--and I have some others for Captain 
Johnson and other people that I did not have a chance, and I 
will submit those questions so that--well, for you to submit to 
the committee in writing.
    Mr. Jones, what is the most important thing you try to 
share with the kids that you are now mentoring in your program? 
What is the most important thing you share with them?
    Mr. Jones. Well, where I am working now?
    Mr. Grijalva. Yes.
    Mr. Jones. Well, I let them know about the mistakes I made 
and try to hope that they do not follow in my footsteps. I tell 
them about everything that I learned, so that they do not make 
the same mistakes I did.
    Mr. Grijalva. That is a good answer. Thank you.
    I yield back.
    Chairwoman McCarthy. Thank you.
    And our next, Mr. Gohmert of Texas?
    Mr. Gohmert. Thank you, Madam Chair.
    And I do appreciate everyone's time and being here. 
Obviously, this is an extremely serious issue, because we are 
talking about the future of the country. And obviously, that 
goes hopefully to all of our hearts.
    Judge Lawrence, you made--you had a litany of things that 
we need to do everything to--excuse me. Did you need me? Okay.
    The litany of things we need to try to do, one of which was 
do everything we can to keep them close to home. And of course, 
as I am sure you have dealt with, or maybe it is not as big a 
problem, but some of them do not have much of a home.
    You know, you would think, well, one thing we might could 
do is set up a way to try to help single women trying to raise 
children, which was an issue that was dealt with in the 1960s.
    And the thing they came up with, out of an abundance of 
warm feelings and hope for doing the right thing, let us start 
giving single women that are just trying to get by, because 
there are not that many, but they are dealing with deadbeat 
dads, let us give them a check for every child they can have 
out of wedlock.
    And 40 years later, we have gotten what we paid for.
    And when we hear about those, we really do not like to lock 
young people up, and we have heard some anecdotal stories.
    Let me tell you about a fruit stand vendor in Smith County. 
Little did he know that there was a juvenile judge in the 
county that gave a young man chance after chance, because that 
judge really did not want to lock this guy up. Chance after 
chance, he kept offending. He kept telling him, don't do it 
again.
    Anyway, he could have been locked up for a period of time 
toward the end of his juvenile term, but he was not. He got 
with a couple of friends. They decided to rob a bank. They 
decided not to do it in their own car.
    So, they went and found a lady driving a red Suburban, 
followed her to her rural home, and then she had neighbors 
standing out in the yard, so they decided not to kill her and 
take her car.
    But they drove along and they saw a sweet, elderly man who 
is just a fruit stand vendor, and decided they would jack his 
car. So, they got out, went to talk about his onions and fruit.
    Ended up, when no one was looking, they made him get in his 
truck. They did not realize it was a standard. They drove him 
about a quarter of a mile down a rural road, right by his 
stand.
    The chance they gave him apparently was to let him run a 
few steps before he was sentenced to capital murder by this 
informal panel, and shot and killed there.
    Had he been incarcerated, the guy might still be vending 
fruit in Smith County.
    So, as a judge myself, I know that--and I did not handle 
juvenile cases, but I handled the results of some badly handled 
juvenile cases, like that one--there is a desire not to lock 
anybody up. But what I ran into over and over were juveniles 
who dealt with judges and teachers--and before that, parents--
who had never followed through on what they said.
    I had kids come before my court as an adult, who had never 
actually met anybody who did what they said. A parent would 
say, ``Don't do that again,'' but there were no consequences. A 
teacher would say, ``Don't do that again,'' but there were no 
consequences.
    So, I determined I would be compassionate, I would use 
probation liberally for those who had not had a chance. But 
once I gave someone a chance, I wanted them to meet someone who 
always did what he said.
    I do not know too many judges, if any, that always revoked. 
And I told everybody I put on probation, if you violate, you 
will meet somebody who does what they say. You will meet a 
judge who will send you to prison.
    And I have had people hate me for a while, and some parents 
come back and say, you turned--you saved my child. They finally 
met someone that did what they said.
    So, in all of this consideration of wanting to protect 
society on the one hand, but on the other to help these youth 
to reach their God-given abilities and talent, and not get 
sloughed off into some system, sometimes it takes hitting rock 
bottom with somebody who will be tough and love them in a tough 
way.
    And I do not want that perspective to be lost, as well. So, 
I had to submit it. I see my time is running out.
    Madam Chair, thank you for giving me that opportunity.
    Chairwoman McCarthy. Thank you.
    Mr. Yarmuth from Kentucky?
    Mr. Yarmuth. Thank you, Madam Chair, and thanks to all the 
witnesses.
    I have one question for Judge Lawrence. In Kentucky, 
despite JJDPA's prohibition against detaining status offenders 
in locked facilities, we have more than 1,300 non-criminal 
status offending youth in lockups, partly due to overuse of the 
valid court order.
    I was wondering what your recommendations might be on how 
we would strengthen the prohibitions and provide other 
resources to take care of these youth in need of protective 
custody.
    Mr. Lawrence. At the federal level, I guess my approach 
would be to try to put some incentives into the Juvenile 
Justice and Delinquency Prevention Act that either increased 
the amount you might get if you reduced the number that are 
locked-up status offenders.
    Right now there is a penalty, of course, that takes away 
money. But maybe reverse it and say you will get more if you 
reduce that particular practice. It is another way of 
inducement.
    On the state level, which you could certainly induce, 
perhaps induce a policy change, a statutory change, that 
basically takes locking up status offenders out of the 
selection of tools that a judge has, or a probation officer 
might be able to recommend.
    I mean, there is nothing that says that you have to lock 
those kids up.
    I understand the level of frustration, but taking status 
offenders, kids who will not go to school, and thinking you 
will get them to go to school by locking them up, there is not 
anything that supports that.
    So, those are two particular approaches that you might take 
in terms of federal initiative, and also recommending to the 
state that they take a look at their law, which, after all, is 
the actual law that is going to control the decision that the 
judge is making or the probation officer is recommending.
    Mr. Yarmuth. And then, I guess I would like to make a 
comment and throw it open to the panel.
    Last week during our recess, we in Louisville had a forum 
that I sponsored on homeless and runaway youth. And we had 
about 90 people, many from around the region, some national 
experts.
    And what was very clear in listening to all of these 
experts was that, in so many of these cases, there is a tipping 
point in a youth's life, sometimes not so much, but sometimes a 
very specific one, which determines whether they go in a 
positive direction or a bad direction.
    And when I look at the juvenile justice system, it seems 
like what we are looking at is a tipping point in the life of 
many people. The entry into the juvenile justice system itself 
is a tipping point.
    And I throw that open for comment, because we have heard a 
couple of times about the continuum of services needed. And I 
know that when we have dealt with issues such as what we were 
talking about, runaway homeless youth, it is the same type of 
message that we got.
    Yes, there are a lot of different services. Yes, there are 
a lot of individual points of contact that are helpful. But 
unless that continuum is there, and even though the tipping 
point might deflect one in the right direction, that that is a 
critical part of the entire process.
    Mr. Lawrence. Just a brief response.
    Sometimes, if you take the approach, which is that--my 
analogy is that, if you look at a railroad track and the child 
is moving down the track and they are going to spill over the 
rails, they are going to fall down in the bed, as long as they 
do not roll too far out into the field. But the entire time 
they are moving down the track, that is maturation.
    So, sometimes it is just dealing with a child over and over 
again, but they sort of mature out of that behavior. Sometimes 
they do reach the tipping point. Sometimes for community 
safety, you do need to take more restrictive action.
    But a lot of times, it is simply not placing a box around 
the child and a box around yourself, particularly as a judge, 
and then setting up expectations that you are going to respond 
in some harsh way and some punitive way to this child.
    So, the other thing I would comment on is that, it is 
always interesting to me to look at a child, and with people we 
grew up with, we could say, well, that person, when they got to 
be 25 or 30, was going to be very successful and the opposite 
of this person. But actually, it turned out the opposite way. 
The scholar in high school turned out to be the dropout. The 
person who broke the law repeatedly turned out to be the chief 
of police.
    So, it is really difficult to make a prediction at times 
about what is going to happen with someone who is a dropout, 
who has really nothing.
    But I think you keep working with them, and keeping in mind 
all the time community safety, which you have to do. But you 
have to allow that maturation process to continue and to keep 
them in as positive an environment as you can while that 
process is going on.
    Mr. Yarmuth. One quick question while I have a few seconds 
left.
    We have a program that deals with incarcerated veterans. 
There is a pilot program that is being conducted in several 
places in the country, which does provide this continuum of 
services, once they are released. It has reduced the recidivism 
rate, I know in the state program that we have, from like 67 
percent, the normal rate, to down under 10 percent.
    You may not have numbers, but is there any kind of 
quantification you can do of the improvement in recidivism 
rates with this type of approach in juvenile justice?
    Mr. Lawrence. I think there certainly is. I would refer, 
perhaps, Professor Shepherd might have some particular 
information on that. And also, we could provide you with some 
information. The Coalition for Juvenile Justice could provide 
you with that information, if that would be helpful.
    Mr. Shepherd. Certainly, the earlier comments about re-
entry, I think there is a renewed focus on re-entry in the 
juvenile justice system. And it is important, in my judgment--
and the research seems to support this--that when a juvenile is 
in the system, they need to be involved in re-entry, well prior 
to being released.
    If they go back into the same neighborhood, into the same 
family where they got in trouble before, without any monitoring 
or support, they are at high risk to re-offend.
    And I think it is important to make sure that kids get back 
into school, that they get mental health services in the 
community, if they have not been getting them previously.
    And yet, ironically, sometimes they get more mental health 
services in the juvenile justice system than they do in the 
broader community. And I think that re-entry does significantly 
reduce recidivism.
    Chairwoman McCarthy. Thank you.
    Ms. Clarke?
    Ms. Clarke. Thank you very much, Madam Chair.
    I want to thank you, Chairman Scott and Ranking Member 
Platts for this very instructive and important hearing here 
today.
    You know, I am a new member here, but I was a councilmember 
in the City of New York. I used to chair the Committee on Fire 
and Criminal Justice Services.
    And this has been an issue that we have been struggling to 
address aggressively in New York City, coming up with what we 
considered to be best practices and really addressing the 
concerns of our young people and, by extension, our community. 
We have so many young people in a densely populated area.
    I am glad to hear the discussion around re-entry.
    But what we found to be very helpful in New York City is 
actually discharge planning, which is before the young people 
actually leave the doors of a detention center, setting up a 
prescription, a plan that has been connected to community 
services, be it nonprofits, be it religious institutions, that 
could help those families and the community, by extension, in 
receiving those young people and making sure that their health 
care needs are attended to, that their--whatever concerns they 
may have, that they are addressed--and that the environment 
that they left, that may have put them into the pathway to 
criminal activity could be addressed, as well.
    So, I am so glad to hear that so many of you on the panel 
have looked into those issues. And I would like to suggest 
that, as a best practice, we look in that direction.
    I know, certainly, as a district attorney, you are looking 
to make those connections with partners in the community to be 
able to subvert young people from having to do hard time, as 
they call it--as I would call it, quite frankly, if I were a 
kid--to alternatives to detention.
    My question has to do with sexually deviant behavior. We 
had a big conversation in the City of New York with our public 
schools, quite frankly, about how we identify and deal with 
adolescents to address the issue of sexually deviant behavior, 
and perhaps the maturation of what we now see as a growing 
population of sexual predators that society just really does 
not know how to deal with.
    I think that your research--and you may have stated that, 
Dr. Jennifer, or perhaps it was Professor Shepherd--has shown 
that, because of the development of the brain, you are more 
likely to be able to change that behavior in an adolescent, in 
a youth, than you are once that person reaches adulthood.
    Could you speak to--or anyone on the panel--speak to any 
information that you have heard or seen that could help 
communities that are now dealing with large populations of ex-
offenders, be residing in their communities in adults, but 
perhaps doing the preventive end for young people and looking 
at how our school systems could help us facilitate that?
    Ms. Woolard. Well, I think that--I think that certainly 
there is, particularly, I think, on the clinical side of 
psychology, some research that could be informative that I 
would be happy to pass along to you and to the committee, that 
talks about this particularly difficult issue about sexual 
offending among adolescents.
    Because really, the challenge--as it is more broadly, when 
we think about juvenile offenders--is trying to figure out who 
are the ones that we need to be most worried about? And who are 
the ones that are going to age out, or are going to be able to 
be successful with the proper help and intervention?
    I am not sure that we can answer that question definitively 
yet, but there are certainly some studies that have examined 
the efficacy of treatment for adolescent sex offenders, some 
that have looked at the benefits of cost of things like placing 
adolescents on sex offender registries and things like that.
    So, I would be happy to get some of that information for 
you and for the committee to be able to look at that.
    Mr. Shepherd. I would add that I did address this some in 
my written testimony. And there are a couple of references 
attached to my written testimony, the Association for the 
Treatment of Sexual Abusers report from last year on children 
with sexual behavior problems.
    And what we do know is that intervention is much more 
successful with adolescents and children than it is with 
adults. And the irony is, we are putting a lot of these kids 
into adult court, and the adult correctional system, where they 
do not have the treatment that would have been available to 
them in a juvenile setting.
    We also know that kids who engage in sexual behavior, 
sometimes experimentation. They are going through puberty. They 
are not really molesters or pedophiles. And we need to deal 
with them in a different fashion than we do adults.
    But both federal and state law tend to now treat them under 
the same umbrella, and that makes little sense.
    Chairwoman McCarthy. Thank you.
    Mr. Sarbanes from Maryland?
    Mr. Sarbanes. Thank you, Madam Chair and Mr. Chair, for the 
joint hearing on this very important topic.
    I just had--wanted to get the panel's reaction. 
Representative Gohmert was talking about how these children 
often never encounter anyone who does what they say they are 
going to do.
    The examples he gave were where you said to someone they 
were going to have consequences, and then they did not get 
those consequences. I actually thought he was going in a 
different direction and was going to talk about all the 
instances in which services and support are promised to 
children and then nothing ever happens.
    And I invite any of you to speak to the system's ability to 
respond when the needs of children are identified. I mean, the 
discharge planning approach, obviously, is a critical one. But 
if, once these youth are back in the community, the service 
does not come through and the support is not there, then we 
fail them again and we have basically written a ticket to 
nowhere.
    So, if you could comment on that.
    And also then, if you could give me your perspective on 
whether we should be thinking of new delivery models for these 
services. I mean, it is not just a resource question, 
potentially. It may be that some of the old ways of doing 
things--and you think of services that are sort of Balkanized, 
as opposed to holistic--whether delivering service to a child 
really means delivering service to a family, for example.
    What are all the implications of that to make sure the 
service is delivered and it is delivered in a way that is going 
to have the best effect?
    Mr. Lawrence. Maybe I will take a stab, since I think the 
congressman's comments earlier were directed at me, and I will 
take a stab at it.
    From a judge's point of view, I think what you can do to 
make sure things are done is to have frequent reviews. It is a 
simple process. But if I do not think the agency is doing its 
job, I will have them in each week to make sure that the 
service that this child needs is being delivered.
    So, that is one simple thing. Yes, that means more on your 
docket. Yes, it means more time. And yes, it adds up a cost. 
But that cost may be less than not providing the services that 
you promised, which hopefully will result in the outcome that 
you want.
    So, that is one simple way of assuring that the agency is 
doing what it says it is going to do.
    Some states have a setup where once a judge determines the 
guilt or innocence of the child, the child is actually turned 
over to an agency to be dealt with. And sometimes they get lost 
in those bureaucracies and there is not the accountability.
    I tend to think, with a well-trained who he or she really 
knows what they are doing in terms of youth development, et 
cetera, if they can ride herd on that case and make sure that 
services that were ordered are delivered, and that if they are 
not working, new services are devised and a new plan is 
developed, you can have a much better outcome than a judge who 
is not overseeing cases and not following up.
    If I commit a kid for a serious crime to our youth 
development center, many judges just turn the case over. I do 
not.
    I review the case once a month, even though the child is in 
that development center, because I want to know what progress 
is being made. If it is not sufficient, maybe I will come up 
with another plan and take the kid out of there.
    And also, I know when their discharge date is and I begin 
planning for that discharge 2 or 3 months ahead of time.
    So, those are some techniques that could be used.
    Mr. Sarbanes. Anybody else?
    Mr. Johnson. Representative, one of the things that we 
found in Arizona was that, when you were talking about a system 
or how you holistically look at a child, we found out that 
there were barriers at the federal level and also at the state 
level, that did not let systems communicate.
    And as you had a child that moved through the system, what 
you would find is that the systems do not talk to each other, 
either through technology. There are a lot of things that 
prohibit those agencies from even identifying who those 
children are, such as HIPAA, depending on where those children 
are.
    What we did in Arizona, talking about the importance, I 
think, of a SAG, or state advisory groups, is it allowed us to 
bring about 250 people from across the state from all of our 
different counties. And what that led to was an agreement.
    And it is called the Interagency Coordination and 
Integration Initiative, which actually is a contract and a 
letter of agreement between state agencies to start looking at 
identifying youth and families at risk for multiple systems 
involvement earlier, provide more comprehensive and effective 
services and cultivate improved outcomes for children and youth 
who are at risk and who have experienced maltreatment.
    So, I think that is a holistic view that we are using with 
the state and at an agency level, that I think will not only 
fix some of these things, but help people communicate, because 
kids do get segregated and pushed off into different systems.
    Mr. Sarbanes. Thank you.
    Chairwoman McCarthy. Ms. Jackson Lee of Texas?
    Ms. Jackson Lee. Thank you very much, Madam Chairperson, 
and to the ranking member, to the chairperson of my 
subcommittee, the Subcommittee on Crime in Judiciary. Let me 
welcome all of you and thank you for providing such a breath of 
fresh air.
    I have served on the Judiciary Committee for a number of 
years. I have served in the majority for a few months.
    But I recall working with now-chairman, then ranking 
member, Mr. Scott and Mr. Conyers at the sort of the pinnacle 
of the crime reform of the mid-1990s, when the rage, judge, was 
lock them up and somewhat throw away the key.
    The tragedy was, of course, that it was trickling down--or 
trickling up--into the juvenile justice system. And the 
attitude was how hard can the hammer be.
    We took a traveling tour to a number of states. California 
was one of them. And it seems as if, that every law enforcement 
officer that we encountered--not police, but policymakers, 
attorney generals and others--were engaged in how hard we could 
hit in the juvenile system.
    I do not know whether we have benefited from that. And I 
think that if we have a legislative opportunity, it is to 
listen to the distinguished lady, doctor and the rest of you on 
how we can craft legislation or amendments going forward to 
allow thoughtful scholars and advocates such as yourselves to 
be able to move this agenda.
    And I am going to use provocative analogies and would like 
to hear your thoughts.
    I am looking at the organization chart, and I know that the 
juvenile justice and delinquency prevention area reports 
directly to the attorney general. And that, in and of itself, 
puts it as a sort of law-oriented scenario.
    I also notice that the state formula has some really good 
principles in it to get these state grants. And I mention 
juveniles are not to be detained or confined in any facility in 
which they would come into contact with adult offenders. 
Juveniles accused of non-status offenses can only be confined 
in adult jails or lockups for a short period of time.
    And these are criteria that would help you get monies in 
states who show they are attempting to reduce the 
disproportionate confinement of minorities.
    My quick question is, this factual situation. Judge, you 
have come before you an outstanding student on the way with 
scholarships, a person who is a leader or the king of the 
senior class, et cetera. And they had a prom night sexual 
encounter.
    And all of the indicia suggest an alternative. They are 
then incarcerated as an adult and there seems to be no remedy.
    How do you use your--no remedy in terms of the release--how 
do you use your thinking to address that question? It is a 
sexual incident. It was known at the beginning that it was 
consensual. And the person has their future before them, but, 
as I hear my colleague on the other side of the aisle about 
young people must know a beginning and an end, how to use your 
thoughtfulness on this.
    My question to Mr. Freed, very quickly. We talk about 
detaining of youngsters. What about a system that is broken. 
The detention center is filled with child predators. And so, 
the detained individual that you are sending them to a youth 
commission, for example, is being subjected to sexual abuse by 
those who are charged with their guardian or, if you will, 
protection?
    Judge?
    Mr. Lawrence. My comments would be that the judge really 
creates the culture, or the culture in the courtroom, maybe a 
culture in the community that they are in, a culture in the 
state, to the extent they have influence.
    And so, I think if people's understanding of what your 
expectations are, and if I let them know my expectations are, 
to take the example you gave me, that this young person should 
probably not be transferred, should probably not go to the 
adult system, then you take that off the table, and people 
begin to think in different ways.
    Okay, how can we address what happened here to make sure 
that community safety is considered, to make sure that the 
victim is appropriately considered, but to make sure that in 
the end, this sort of act does not repeat itself.
    And the research is there. But what you really have to let 
people know is that we are not going to take this case and 
simply certify and send the adult system, and if people know 
that to begin with.
    One of the key factors in the system working effectively is 
that people have some predictability about what the people who 
can make the decisions are going to do. And if you can 
establish that culture, it allows people then to begin to think 
simply in different ways about how we are going to address the 
issues that were created by this crime being committed.
    So, that is one approach from a judicial perspective.
    Ms. Jackson Lee. Is Mr. Freed allowed to answer?
    Is Mr. Freed allowed to answer the question? Thank you, 
Madam Chair.
    Mr. Freed. The key to the juvenile justice system, 
especially when a child is placed, is collaboration among all 
the parties. And I think that actually goes to what 
Representative Sarbanes was asking about also.
    We may disagree on who should be locked up and for what 
reason and for how long. However, when a child is detained, it 
is our responsibility to ensure the safety of that child.
    So, I know that in the Commonwealth of Pennsylvania, 
evaluations are done, and children who are placed are placed in 
very specific places that treat specific symptoms that those 
children show.
    So, it is incumbent on us to ensure the safety of kids, 
even if they are detained, and even if it is for a length of 
time.
    Ms. Jackson Lee. And come down hard on those who would 
violate them--adults who would violate them, who have been in 
their custody.
    Mr. Freed. Without a doubt.
    Ms. Jackson Lee. I thank you.
    Chairwoman McCarthy. Thank you.
    With that, Mr. Platts has to leave. He has another hearing 
starting at 4:00. So, he is going to say a few words, and then 
I would like unanimous consent so Patrick Kennedy can ask some 
questions.
    Hearing none----
    Mr. Platts. Thank you, Madam Chair.
    One, Patrick, I am sorry I will not hear your engagement. 
And as I referenced earlier, I really appreciate your 
leadership with Jim Ramstad on the mental health parity, which 
relates so much to this issue.
    I just want to again thank each of you. As I said to the 
chair, the six of you, your knowledge that you have brought 
with you today and shared with us has been tremendous, and is 
really going to benefit us as a committee and, ultimately, the 
Congress in total, as we move forward with reauthorization to 
take what has been certainly a very effective prevention act, 
as Mr. Johnson referenced it, and make it even better for the 
good of our youth and ultimately our nation.
    So, my sincere thanks. My apologies that I need--the 
National Security Subcommittee hearing I need to run off to 
next. But we appreciate all of you coming down.
    And Dave, we will look forward to seeing you back on the 
19th.
    So, thank you, Madam Chair.
    Chairwoman McCarthy. Thank you, Mr. Platts.
    With that, certainly, my colleague from Rhode Island----
    Mr. Kennedy. Thanks.
    Mr. Platts, let me thank you very much and say, I hope we 
get to do a hearing on the mental health component alone, with 
respect to juvenile justice, because I think it is such a--70 
percent of the juvenile justice--thank you; I know you have got 
to go to a hearing--70 percent of the juvenile justice 
population is identified with a mental illness.
    I mean, we have to have a hearing on its own about mental 
health, if we are going to address the juvenile justice 
problem. And I hope that working with the chairwoman, we will 
be able to put together a hearing on that.
    I would like to say one thing that I think has come through 
loud and clear from the testimony that I have heard so far. And 
that is, if you want to reduce recidivism, and you want to do 
what is effective and follow what the science has shown us so 
far, you cannot mix kids with adults.
    That has been the intent of the juvenile justice law, and 
we ought to make it clear in the reauthorization, once again, 
that irrespective of whether the states prosecute kids, as 
adults, or not, we are not going to house kids with adults.
    And, with respect to the status offenders, that the whole 
provision that has kind of run amok with respect to the valid 
court order exception with the runaway, has been, you know, 
where the kids keep running away.
    And it has allowed the judges to have to keep keeping those 
kids in prison as a result. That needs to be taken out, and 
those kids need to be put in alternative settings.
    You cannot keep kids in these prisons, if you have got 
someplace else to put them. We have got to find other places to 
put status offenders. You cannot keep them in jail. You are 
just--all the evidence shows, you are just setting them up for 
future problems.
    They are going to be in jail. They are going to be learning 
with more serious offenders how to commit worse crimes.
    I mean, hello? I mean, this is not rocket science. Let us 
invest, and with this reauthorization in alternative housing 
for status offenders, let us get rid of this valued court order 
exception, so there is no excuse for these judges to keep these 
status offenders in jail.
    Let us get rid of this notion that kids can be in jail with 
adults, no matter whether the states prosecute them as adults 
or not. And let us make that as part of federal law very clear, 
loud and clear.
    And I think Derrick Johnson made the point very clear. 
There has got to be a holistic view of this. And if you are not 
linking the kids with the schools, you are not going to get the 
prevention.
    So, but if schools are not talking about the delinquency, 
that the teacher knows that the kids got the problems with 
their academics, how are you going to start to do the 
prevention?
    We are going to have to in this reauthorization, put monies 
aside that allow that interagency coordination that you, 
Derrick, talked about doing already. We are going to have to 
formalize. You are going to have to give us what you have done 
already, and we are going to have to use that as a template and 
codify that in our reauthorization.
    Because it seems to me that that is what we are going to 
have to--would be a good model for us to embark upon, where we 
bring together all the players in the community and make sure 
everybody is talking to each other, because what seems to be 
happening in this field is that the kids are falling through 
the cracks between the mental health providers, the substance 
abuse providers, the court people and the educators, and the 
justice and the judge. And everybody is talking about the kids, 
and then the kids are falling through the cracks.
    So, getting that comprehensiveness seems to me the--I just 
want to say, as a member of the Appropriations Judiciary 
Subcommittee, I just came from that, and we added over $80 
million to Title V and $60 million to JBAG, so we are 
increasing over last year's budget, which is a hopeful sign 
that we are finally moving in the opposite direction, whereas 
the last 5 years we have eviscerated the Title V money by over 
$230 million.
    So, now we are back, moving in the right direction.
    But I thank the chair for giving me an opportunity to say a 
few words, and look forward to working with her.
    And just say, in terms of prevention, 3 percent of our 
foster care youth make up 40 percent of our juvenile justice 
youth. So, this is all in prevention, like the chair 
acknowledged at the outset. Three percent of our foster care 
make up 40 percent of our juvenile justice.
    It is all in the--and that is why we need to take the at-
risk parents. That is why we have got to look at SAMHSA. They 
have got starting early, starting smart. And they have got 
Parent Corps. Those are mentoring programs for at-risk 
parents--parents who have substance abuse problems that are the 
highest risk.
    If the parent has got the problem, you guarantee the kid is 
going to have a problem. The most important influence on a 
child's life is the parent. And that is why we have got a link.
    If we put money in this reauthorization to--or, you know, 
authorization to work with those other agencies, what we are 
going to do is set up those linkages that will allow us to 
coordinate better, to better make sure we have that holistic 
view that Mr. Johnson was speaking of.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you, Mr. Kennedy, and thank you 
for your input. I know that we are going to get mental parity 
this year. I mean, I just know we are.
    And thank you for the extra money right now. You could have 
pushed a little bit harder. We needed a little bit more. 
[Laughter.]
    Mr. Kennedy. We still have the floor to go.
    Chairwoman McCarthy. Correct.
    I do not know if anyone has--if anyone who needs to catch a 
plane, or if they are in a rush, because a number of members 
have asked if they could ask a second round of questions.
    We will probably have votes coming up in a half-hour or so. 
But it is going to be up to the panel, because we have kept you 
here for about 2 hours already.
    Terrific.
    I am going to ask the first question. I can do that. I am 
the chairwoman.
    I wanted to ask you, Judge Lawrence, when judges are 
working with juveniles, do they go through any courts or 
learning how to work with juveniles? Do they get the latest 
research on what is out there and what they could do to 
possibly help these juveniles as they go through and to help 
them make decisions?
    Mr. Lawrence. Some do and some do not.
    I think, if you took a look at the background of a lot of 
judges, you would find that they never took a course in 
juvenile delinquency, and never took a course in child 
development, abnormal psychology.
    They really often do not come with a base that you might 
like them to come with in terms of juvenile work, but some do. 
And obviously, there is significant training that you can avail 
yourself of.
    And I think the move to family courts is an important move, 
because one of the critical factors of a judge who is really 
interested in this work is that they want to do it. Often, 
judges get assigned to a family court docket, a juvenile docket 
and they are not terribly interested in it.
    If they are not terribly interested in it, it does not 
work, you are not going to highly value, and you are not going 
to highly value the people who are in front of you.
    So, I think the move towards family courts is important. 
But also, if you are going to appoint or elect--whatever the 
process is--a judge in particular to juvenile cases, you want 
to know about his or her background. And if they have the 
requisite early training and early interest, it will bode well 
for their work later on with juveniles.
    Chairwoman McCarthy. I do not even know if we can do that. 
Is there any way through your committee that we could recommend 
that those that are serving as judges towards--I have no idea 
what the laws are on that.
    I will let you think about it.
    Mr. Scott. Yes, we could probably propose to have funding 
for seminars and things like that. I am sure Professor Shepherd 
could make recommendations on that.
    But I think the availability of seminars and other 
professional development would clearly be possible.
    Mr. Shepherd. A good deal of the funding under the JJDP Act 
goes to the National Council of Juvenile and Family Court 
Judges for operating their college programs, primarily in Reno, 
Nevada.
    A lot of states, unfortunately, with budget cuts in the 
late 1990s and early 2000s, cut back on judicial training and 
education. And I know there are fewer judges in Virginia that 
are being sent by the state when they assume the bench to Reno 
to go through the college.
    And I think it is particularly critical with the juvenile 
and family court bench, because, as we have already discussed 
here, it is so interdisciplinary. The judges need to be able to 
understand what Dr. Woolard and her colleagues are saying and 
what people from the social work profession are saying. They 
need to know the brain research.
    And they need to know what due process means for kids, as 
opposed to adults, because they are different. They have 
different competencies. And I think that is very important.
    Some of it is money, but some of it I think can be embedded 
in the act and directing the office to support these programs, 
not only through the council, but through the states.
    Chairwoman McCarthy. Well, that is why I was wondering, 
because I know in New York State, the judges have to take so 
many hours of educational or some sort of upgrade. I guess it 
is every year. I am not sure. I have not followed them. I am 
definitely going to look into it now.
    But that is something that we can work with the governors 
then on trying to bring those kind of courses into--even if it 
is only a suggestion.
    Mr. Lawrence. I know that states would welcome the input 
from the committee and from the legislation, encouraging state 
legislators to beef up JJDP education budgets, because that is 
where the rubber meets the road.
    If there is no money in the state budget and there is sort 
of not the encouragement to put it there, the ability to 
educate judges on evolving topics such as adolescent brain 
science, unless they have a particular interest in the area, it 
is not going to happen.
    And I know in our state, until this year, we have had 
tremendous cutbacks in our judicial education branch budget, 
which has made it extremely difficult to get judges together to 
educate them.
    So, anything you can do in that direction would be helpful.
    Chairwoman McCarthy. Well, I don't know if you noticed 
lately; there has been a lot of bashing of judges.
    Mr. Scott?
    Mr. Scott. Thank you, Madam Chair.
    First I would like to ask unanimous consent to introduce in 
the record the New York Times editorial that I referenced 
earlier, today's editorial, which ends by saying, ``Trying 
children as adults, except in isolated cases involving extreme 
violence, is both inhumane and counterproductive.''
    And I would like to introduce this into the record.
    Chairwoman McCarthy. Without objection.
    [The editorial follows:]

          [From the New York Times, July 12, 2007, Editorial]

                            Juvenile Justice

    One of Congress's most crucial tasks will be to strengthen and 
update the Juvenile Justice and Delinquency Prevention Act. Passed in 
1974, the law required the states to move away from the practice of 
locking up truants and runaways--and to refrain from placing children 
in adult jails--in exchange for federal grant dollars.
    Congress's goal then was to move the states away from failed 
policies that often turned young delinquents into hardened criminals 
and toward a framework based more on mentoring and rehabilitation. But 
the states have increasingly classified ever larger numbers of young 
offenders as adults, trying them in adult courts and holding them in 
adult prisons.
    The damage wrought by these policies is vividly outlined in a 
federally backed study issued this spring. It reports that children 
handled in adult courts and confined in adult jails committed more 
violent crime than children processed through the traditional juvenile 
justice system. Other studies show that as many as half of the juvenile 
offenders sent to adult courts were not convicted there--or were sent 
back to the juvenile system, but often after spending time in adult 
lockups. Equally disturbing is the fact that youths of color are more 
likely to be sent to adult prisons than their white counterparts.
    Reauthorization hearings begin today and members need to listen 
closely to what the experts are saying. Trying children as adults--
except in isolated cases involving extreme violence--is both inhumane 
and counterproductive.
                                 ______
                                 
    Mr. Scott. It also says that studies show as many of half 
of juvenile offenders sent to adult courts were not convicted 
there. They are sent back to juvenile system, or not convicted, 
but often after spending time in adult lockup.
    Now, Professor Shepherd, insofar as status offenders do not 
count as prior criminal offenses in adult court, is it true 
that those--if you increase the number of juveniles tried as 
adults--you are talking about the marginal ones not tried now 
would be if you pass the new law--if you increase the number of 
juveniles tried as adults, is it true that they are likely to 
get less time in adult court than they would in juvenile court?
    Mr. Shepherd. I think studies show that to be true, 
Congressman Scott.
    Mr. Scott. So, after you crack down on crime and all the 
political theater that is involved, they are going to end up 
with less time in adult court than they would have had in 
juvenile court.
    Mr. Shepherd. That is very true.
    The experience in Virginia, when they widened the net for 
transfer to adult court in the 1990s, but at the same time they 
allowed the criminal court judges to give blended sentences, 
where the juvenile could serve part of the time in a juvenile 
facility, well, probably more than half of our kids that are 
transferred get blended sentences, which means that the 
criminal court judge knows the kids should not be there in the 
first place. They ought to be dealt with in the juvenile 
system.
    And we in Virginia and some other states have a dilemma 
under the act. And interpretation from OJJDP says we cannot put 
those juveniles in juvenile facilities beyond their 18th 
birthday plus 6 months.
    And in Virginia, our effort to keep adolescents, convicted 
as adults, in the juvenile system, segregated from adults, are 
really being thwarted by an interpretation of OJJDP that is not 
explicit in the act.
    Mr. Scott. Thank you.
    If we want to reduce crime--we have talked mostly about 
prevention. Are there any criminal laws that we should look at? 
I mean, do we need any new criminal laws to reduce juvenile 
crime?
    Okay. Moving right along. [Laughter.]
    Mr. Shepherd. If you could embody in the act a very simple 
statement. A dear friend who is now deceased, unfortunately, a 
great juvenile court judge from Texas, who was a president of 
the National Council of Juvenile and Family Court Judges, said 
we need to invest resources in the playpen, and we will not 
have to spend as much in the state pen.
    Mr. Scott. Thank you.
    Dr. Woolard, can you tell me the effect that death penalty 
or mandatory minimums have on juvenile behavior? Whether or not 
the existence of draconian and mandatory minimums or the death 
penalty are helpful in reducing juvenile crime?
    Ms. Woolard. Well, you are asking whether facing mandatory 
minimums have a salutary effect on juvenile crime?
    The meta-analyses that have examined more punitive and 
deterrent approaches to crime, as opposed to more 
rehabilitative approaches again find that they are at best 
ineffective and usually--at best do not have an effect, and 
usually actually have a negative effect. And so, they would be 
more likely to exacerbate recidivism than they would be to 
reduce it.
    Mr. Scott. Thank you.
    Thank you, Madam Chairman.
    Chairwoman McCarthy. Ms. Clarke?
    Ms. Clarke. Thank you very much, Madam Chair.
    I did want to thank and acknowledge Shannon Jones for being 
here today and for sharing with us his transition. I am very 
proud of you.
    One of the things that you mentioned about your transition 
through the CISP program was that, what helped you was being 
held accountable. And I wanted to find out from you what that 
meant, what being held accountable meant and what made that 
different from perhaps what being in CISP holding you 
accountable meant different from maybe the social set or 
environment that you were growing up in.
    Do you understand where I am coming from?
    Mr. Jones. Yes.
    Ms. Clarke. Thank you.
    Mr. Jones. Being held accountable I meant, when we mess up, 
we know that we are definitely going to have consequences.
    When I am in my social state, people think that they can 
get away with things. They do not really think of the 
consequences. They are thinking of right now.
    And so, when we start doing whatever we are doing, we are 
not thinking of the consequences. We are just thinking of what 
my friends, we are just going to do this or do that, and not 
thinking about the consequences that are going to happen, or 
that can happen.
    But in the CISP program, you know for sure there is going 
to be consequences. There is no way of getting around it.
    Ms. Clarke. And in the CISP program, what did those 
consequences consist of?
    Mr. Jones. Being sent to placements or being able--or 
having to stay later, or things like that. We get boot camp 
or----
    Ms. Clarke. Okay. I just wanted you to explain why that was 
a deterrent to you from doing the things that you used to do, 
perhaps, when you were not put in that kind of environment.
    Boot camp for some people is like fun, right? So, can you 
give a little bit more insight into--there was something that 
happened that said to you, you know, I am going to take the 
responsibility, notwithstanding what the crowd is doing or the 
folks in my neighborhood are doing. I have this chance now, and 
I am going to make a difference.
    And there were certain people in that environment that 
assisted you either through positive reinforcement or you know 
what the consequences are.
    I think it is important, if people have a clear sense of 
what that meant in terms of your transformation. I just wanted 
to try to get that on the record.
    Mr. Jones. Well, it was--we had victim awareness groups in 
the CISP program. And what it really does, it shows everything 
you do, you are not only hurting yourself, you are hurting 
everybody around you.
    And I have family. Back when I was locked up, before I was 
sent to the CISP program, I was missing out on a whole lot of 
things. A lot of things changed while I was there.
    And the CISP program lets me be home. Like with the ankle 
bracelet, I cannot leave the house, but I am still home. I get 
to see my niece and my brothers and cousins, whoever. I still 
get to see my family on a regular basis.
    And for me that is big. I do not know where I would be if I 
could not see my family every day.
    So that was a big consequence. I did not want to get sent 
to a place for something stupid.
    Ms. Clarke. I want to thank you again, and I want to 
encourage you to use the energy that you have developed through 
this process to be of assistance to other young people.
    Thank you very much, Madam Chair.
    Chairwoman McCarthy. Thank you.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Thank you very much, Madam Chair. And a 
double thank-you, because I did have additional questions, and 
I do appreciate it very much.
    I am going to do some rapid-fire questioning, because I 
want to get a sense of all of you. And again, I thank you, 
apologize many of us for missing portions of your testimony. We 
are scanning it, but we are in a number of places at once.
    Mr. Johnson, I just thank you. And you seem to be an 
expert. You see a lot of materials in your name in Arizona.
    But quickly, is there a positive impact with juveniles in 
leg irons and shackles and handcuffs?
    Mr. Johnson. I do not believe so. I believe that children, 
especially since all the brain development that has been talked 
about. It brings out the worst in them.
    Ms. Jackson Lee. You all are giving us bits and pieces and 
chunks of how we look to the reauthorization and the 
improvement of this, so do not think that we are shooting these 
brief questions, but we are trying to get sort of the overview 
of what we are trying to do.
    And I think Patrick Kennedy said it well, but I want to 
expand on it.
    Do not put children in settings, if they are detained and 
they are being guarded by those who are sexually abusing them. 
Do not put children in systems where there is no sentencing. It 
is called the juvenile detention centers.
    So that if they are intimidated by an adult, they speak 
back, they are there for 6 months. And their parents do not 
even know. And before you know it, they have got 10 months 
added on. And it goes on and on and on.
    So, I am going to raise questions going in that 
perspective.
    Mr. Jones, may I thank you, as well. And you indicated 
that, when you are out with your boys--and I might not have the 
right terminology--you are not thinking about mandatory 
sentencing or the death penalty. Is that correct?
    If you are out there doing something, is that a deterrent? 
Is somebody thinking that I am going to get the death penalty 
while they are out there?
    Mr. Jones. Yes, ma'am. Nobody thinks that.
    Ms. Jackson Lee. Are they thinking about it? I did not hear 
you.
    Mr. Jones. No, of course not.
    Ms. Jackson Lee. Okay. They just--they are rolling with the 
crowd.
    Mr. Jones. Yes, ma'am.
    Ms. Jackson Lee. This alternative that you have now--and 
let me congratulate you for being in it. And let me also 
congratulate you for indicating to us how important family is.
    I do not know why, when people are incarcerated, we all of 
a sudden think they do not have the human needs that all of us 
have.
    Can you tell me what is in your future? What do you want to 
do, Mr. Jones, in your future?
    Mr. Jones. Well, I have college in my future.
    Ms. Jackson Lee. And if you had stayed in a criminal 
justice system, incarcerated, would that have been your goal? 
Do you think you would have gotten to that point?
    Mr. Jones. No, I do not think so.
    Ms. Jackson Lee. Why don't you say it loudly?
    Mr. Jones. Because before I was into the CISP program, my 
grades were not good and college was definitely not a goal for 
me.
    Ms. Jackson Lee. So, you want to say it again. No, you 
would not be directed in that direction.
    Mr. Jones. No----
    Ms. Jackson Lee. But now you are.
    Mr. Jones. Yes, ma'am.
    Ms. Jackson Lee. Professor Shepherd, that is what I want to 
get to. You are the thinker on these questions, or the writer 
and the thinker.
    This whole question of detention and a loose system of 
sentencing--and I am talking about when a child is put in a 
juvenile system--and this whole system.
    And I cite a particular state that has suffered, Texas, 
with a whole litany of accusations on sexual abuse of the child 
by those who are responsible for guarding the child--and that 
is the wrong terminology--and the constant abuse of adding 
sentencing.
    What does that do? And what do we do in the reauthorization 
to even look at the so-called youth commission systems that say 
they have no alternatives but to put children in that kind of 
setting, with untrained persons supervising them?
    Mr. Shepherd. Congresswoman, that is----
    Ms. Jackson Lee. And Dr. Woolard, please feel free to jump 
in.
    Mr. Shepherd. That is where the evidence-based research 
comes in. We know that states that have developed programs in 
recent years, like Missouri, that have proven effective in 
reducing recidivism, have done away with the large, central, 
juvenile correctional facilities, the reformatories, and 
instead have gone to smaller, community-based programs.
    They have put their money into hiring well-educated, 
highly-trained staff. They are more staff intensive than they 
are architecturally intensive. And they have had much fewer 
problems than we have seen in Texas, in Maryland, in Louisiana, 
in some other states, where there have been abuses in the large 
institutions.
    And the programs that are most effective, like functional 
family therapy and multi-systemic therapy, are largely 
community-based and non-institutional. They are based on having 
highly-trained staff people who work with the kids in their 
family, in the community with their peers and in the schools. 
And that is where the kids are going to change their behaviors 
and be successful.
    Ms. Jackson Lee. Do you think that occurs--and Dr. Woolard, 
if you could quickly answer--do you think that occurs if a 
child has done something violent, as well?
    Ms. Woolard. It does. And actually, multi-systemic therapy, 
which Professor Shepherd talked about, actually takes into 
their program serious violent offenders that would have 
otherwise been incarcerated. So, it certainly does. It can.
    Ms. Jackson Lee. So, if we write legislation, we should 
write it in the context of really putting incentives--and I 
thank you, Madam Chair--to change the attitudes of these 
states.
    Ms. Woolard. Absolutely. But moving towards evidenced-based 
programs that are community based, I think would be positive.
    Ms. Jackson Lee. Thank you, Madam Chair.
    Chairwoman McCarthy. You are welcome.
    Mr. Sarbanes from Maryland?
    Mr. Sarbanes. Thank you.
    This is for Dr. Woolard.
    I am struck by how sort of the brain research part of this 
discussion is so reminiscent of the discussions we have been 
having with respect to early childhood education. In other 
words, where brain research is confirming all of the sort of 
right impulses that we had about what should happen at the 
early childhood stage, and beginning now to really drive best 
practices there in ways that were not happening before.
    How hopeful are you, and how quickly do you think it will 
happen, that this brain research will start to kick in in a way 
that will start to drive policy with respect to services, 
juvenile services, and so forth?
    And would you hazard a guess at what percentage of the 
current response to these issues is going to end up being 
aligned with what the brain research shows, or will show?
    Ms. Woolard. Although I teach probability and stats, I do 
not think I want to give you a number at this point about that.
    But I am optimistic and hopeful that the brain research, I 
think is an important component of the larger portfolio of 
research, as I was mentioning, on both brain and behavior, that 
is confirming, I think, what the impulses were for the 
formation of the juvenile court and what got lost in some of 
the debate as we have seen some of the more draconian reforms.
    Which is that children and adolescents are different. They 
are still growing. As my grandmother would say, they are done 
cooking yet. And so, we have got to, I think, respect that 
developmental process.
    The pictures from the brain imaging research I think are 
compelling powerful for a lot of people in combination with the 
behavioral research, to say that we do have the opportunity for 
continued growth. It is not finished. And that the focus on 
intervention and rehabilitation is an appropriate way to go.
    Mr. Sarbanes. Great. I cannot wait to tell my 13-year-old 
son tonight that he is not done cooking yet. [Laughter.]
    Thank you.
    Chairwoman McCarthy. Thank you, Mr. Sarbanes.
    I want to thank Mr. Scott and Mr. Forbes from the Judiciary 
Subcommittee on Crime, Terrorism and Homeland Security for 
joining us today, as the Subcommittee on Healthy Families and 
Communities begins its reauthorization process on the Juvenile 
Justice and Delinquency Prevention Act.
    I want to thank each and every one of you. I think that you 
can tell from the members that were asking you questions, we 
really want to do what we can. We know that--you know, 
obviously, we want to work with our young people. We want to 
make sure that they have the best opportunities to have a good 
life, to be productive in this society.
    For too many years we know that we have been spending more 
money on prisons than we have on schools. I would like to see 
that reversed.
    I think that if we get our children young, we are not going 
to see them in prison. We can have certainly equality for all 
children. And I think that is the theme that our speaker, Nancy 
Pelosi, wants us to see this year.
    With the information, we have increased the money, as far 
as the appropriations this year. I think that is a good start.
    So, with that, I would like to say thank you again for 
indulging us and staying here a little bit longer.
    I want to say that, as previously stated, members will have 
14 days to submit additional materials for the hearing record. 
Any member who wishes to submit follow-up questions in writing 
for the witnesses should coordinate with the majority staff 
within the requested time.
    Without objection, this hearing is adjourned. Thank you.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you Madam Chair for holding this important hearing on the 
Juvenile Justice and Delinquency Prevention Act.
    The Juvenile Justice and Delinquency Prevention Act was passed in 
1974. Since then it has been reauthorized several times, most recently 
in 2002. The original focus of the Juvenile Justice and Delinquency 
Prevention Act was almost exclusively on prevention and rehabilitation, 
however, subsequent reauthorizations of the law have put an additional 
emphasis on more punitive measures.
    As the Education and Labor Committee prepares to reauthorize this 
legislation, it is important that we examine its entire history in 
order to determine which programs and policies have had the greatest 
impact on preventing juvenile delinquency and keeping communities safe. 
I look forward to working with all of my colleagues on this committee 
to make the Juvenile Justice and Prevention Act as effective as 
possible.
    Thank you again, Madam Chair, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [Questions for the record sent to Mr. Johnson follow:]

                                      [VIA ELECTRONIC MAIL]
                                                     July 13, 2007,
Mr. Derrick K. Johnson, Vice-Chair,
Arizona Juvenile Justice Commission, State Advisory Group, Mesa, AZ.
    Dear Mr. Johnson: Thank you for testifying at the July 12th, 2007 
joint hearing of the Subcommittee on Healthy Families and Communities 
and the Subcommittee on Crime, Terrorism, and Homeland Security.
    Representative Raul Grijalva (D-AZ), a member of the Healthy 
Families Subcommittee, has asked that you respond in writing to the 
following question:
    Could you talk more about the specific steps that Arizona has taken 
under the DMC mandate? Are there additional ways that the JJDPA could 
strengthen the DMC mandate?
    Please send an electronic version of your written response to the 
question by COB Monday, July 23, 2007--the date on which the hearing 
record will close. If you have any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [Response from Mr. Johnson follows:]
                                                     July 23, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman Miller: Thank you for the opportunity to testify 
before the Committee on Education and Labor at the Subcommittee on 
Healthy Families and Communities hearing entitled ``Juvenile Justice 
and Delinquency Prevention Act: Overview and Perspectives,'' held on 
July 12, 2007.
    In response to the request for additional information by 
Representative Raul Grijalva (D-AZ), a member of the Healthy Families 
Subcommittee, I respectfully submit in the following information about 
the steps Arizona has taken under the Juvenile Justice and Delinquency 
Prevention (JJDP) Act of 2002 to address the Disproportionate Minority 
Contact (DMC) mandate. Reauthorization of the JJDP Act would continue 
to support States' efforts to address the disproportionality of 
minority youth who are served by the juvenile justice system. 
Furthermore, and equally important to the JJDP Act's reauthorization is 
the appropriation of prevention funding for programs authorized by the 
JJDP Act.
    Thank you for the opportunity to provide both written and verbal 
testimony to the importance of the JJDP Act and to provide further 
information in response to Representative Grijalva's request.
            Respectfully,
                                           Derrick Johnson,
                   Vice Chair, Arizona Juvenile Justice Commission.

        ARIZONA'S DISPROPORTIONATE MINORITY CONTACT INITIATIVES

    Arizona's State Advisory Group, the Arizona Juvenile Justice 
Commission, in partnership with the Governor's Division for Children 
has implemented the following activities and programs in response to 
the mandate of the Juvenile Justice and Delinquency Prevention Act of 
2002 to address the Disproportionate Minority Contact (DMC) within 
Arizona. These activities include the following:
    <bullet> Development of an annually updated Arizona State DMC Plan 
inclusive of DMC Data for state level and three jurisdictions and plans 
for state and local DMC reduction efforts;
    <bullet> Establishment of a Statewide DMC Committee; and
    <bullet> Funding to support state and local DMC reduction 
activities
Arizona's State Disproportionate Minority Contact (DMC) Plan
    Each year, as part of its mandate to address DMC in Arizona, the 
Arizona State Advisory Group, the Arizona Juvenile Justice Commission, 
in partnership with the Governor's Division for Children develops a 
State DMC Plan that outlines Arizona's activities to address DMC. This 
plan incorporates data for state level DMC measures and DMC measure for 
three jurisdictions (three counties identified for implementing DMC 
reduction efforts). The Plan also provides an overview of the Statewide 
DMC Committee and its activities, goals, objectives and anticipated 
outcomes and accomplishments. Arizona's DMC plan also includes a 
summary of the previous year's activities for state level activities 
and the activities of the three jurisdictions as well as planned 
activities for the coming year.
    As part of the state's DMC plan, each jurisdiction implementing 
targeted DMC-reduction activities is complying with the OJJDP 
implementation guidelines to include Assessment, Interventions, 
Evaluation/Performance Measures, and Monitoring. In utilizing these 
guidelines, Arizona has established a system in which Relative Rate 
Index Data (the Relative Rate Index (RRI) is a nationally recognized 
and adopted measure for measuring potential areas of 
disproportionality). RRI data is updated and reviewed at minimum every 
three years to monitor and track changes in DMC trends. Additionally, 
the state is committed to monitoring and tracking the interventions 
that work to reduce DMC. The state captures and evaluates interventions 
against current DMC data to ensure that goals, objectives, activities 
are targeting prevention and improvements to the system where DMC 
occurs.
    Arizona remains in full support of the Juvenile Justice and 
Delinquency Prevention Act and will continue to work towards the 
solutions that will address the disparate number of minorities in the 
juvenile justice system. Through efforts at the State level, including 
the commitment of the Arizona Juvenile Justice Commission, Arizona will 
continue to utilize the relative rate index calculations to conduct 
further analysis and help guide the State's plan for reducing DMC.
    In November 2006, the Arizona Juvenile Justice Commission held its 
annual Strategic Planning Session and reviewed its current efforts to 
focus on reducing DMC in Arizona and renewed its strategic initiatives 
that work to address DMC. As dictated by the core protections of the 
Juvenile Justice and Delinquency Prevention Act, the Commission is 
committed to developing effective strategies and programs to address 
minority youth that come in contact with the juvenile justice system. 
Essential to this effort is the establishment of an integrated and 
comprehensive approach to identifying opportunities for community-level 
change with respect to policing, developing culturally competent 
assessments and services, and identifying existing model programs and 
available resources to impact the issue.
State Level Efforts--State DMC Committee
    The Commission's Statewide DMC Committee, made up of 
representatives from all points of contact within the juvenile justice 
system and other key juvenile justice stakeholders, has been charged 
with developing a response to the Commission's strategic initiatives 
around this area. Memberships includes representatives from the 
community, police department, Maricopa County Juvenile Court and 
Juvenile Probation, Pima County Juvenile Court and Juvenile Probation, 
the Arizona Department of Juvenile Corrections, researchers from the 
Arizona State University, the Arizona Criminal Justice Commission, and 
the Arizona Supreme Court, members of the Arizona Juvenile Justice 
Commission and staff from the Governor's Division for Children.
    Identified as its primarily initiative, the DMC committee is 
working to utilize the data that is gathered on a statewide basis for 
DMC. Utilizing statewide data collected through Arizona Administrative 
Office of the Court's (AOC) Juvenile On-Line Tracking System (JOLTS) 
and the AOC's Building Block initiative, the DMC committee hopes to 
target specific causes or contributing factors to increase contact and/
or commitment of minority youth with prevention strategies that are 
applicable and address specific county or community factors.
    In its role as a standing committee of the Arizona Juvenile Justice 
Commission, the Disproportionate Minority Contact (DMC) Committee is 
committed to the fair and equitable treatment of minority youth in the 
Arizona juvenile justice system. The DMC Committee continues to 
collaborate with the Administrative Office of the Courts, the Arizona 
Department of Juvenile Corrections, and other juvenile justice 
stakeholders in addressing DMC. To that end, the DMC Committee 
developed a series of strategic objectives in an effort to identify and 
address issues that contribute to disproportionate minority contact and 
minority overrepresentation in the Arizona juvenile justice system.
    Strategies for 2006-2008 of the Arizona Juvenile Justice 
Commission's DMC Committee:
    Strategy One:
    Continue to identify and address issues of DMC
    Strategy Two:
    Support, promote and replicate existing model programs that are 
being used in Arizona and nationally
    Strategy Three:
    Collaborate with granting body of AJJC to increase coordination 
among funding sources to fully address gaps
    Strategy Four:
    Collaborate with other entities to establish statewide benchmarks 
for data collection and analysis
    Strategy Five:
    Support Arizona's Building Blocks Initiative and Maricopa County 
and Pima County's DMC-reduction activities
Funding to support state and local DMC Reduction Activities
    The Arizona Juvenile Justice Commission (AJJC), through the 
Planning and Grants Committee, has made it a priority to continue to 
fund prevention and intervention programs that work with minority youth 
and families as an overall effort to address DMC.
    As local prevention efforts continue to do their part in addressing 
DMC, the Arizona Juvenile Justice Commission will continue to support 
systemic efforts to address the overrepresentation of minorities in the 
juvenile justice system. As noted in the list of State's Priority 
Juvenile Justice Needs/Problem Statements, there is an increased need 
for delinquency prevention programs and alternatives to detention that 
are culturally appropriate to address the unique needs of at-risk 
minority youth.
    This will be accomplishment by the following implementation steps.
    1. Make funding available to communities for programs that serve as 
alternatives to detention (deinstitutionalization of status offenders, 
jail removal, alternatives to detention and diversion programs that are 
gender responsive and culturally appropriate).
    2. Make funding available for diversion programs that will divert 
youth from the formal juvenile court process.
    3. Train and educate law enforcement, probation personnel, judges 
and other juvenile justice professionals on the DMC core requirement 
parameters.
    4. Provide community-level reports regarding the facilities that 
effect compliance and the community's current compliance status.
    5. Provide funding that will improve the juvenile justice system 
including the appropriate use of research-based programs.
    6. Work with the Building Blocks Initiative that analyzes data in 
Arizona to accurately identify decision points within the system that 
are of greatest concern with regard to disproportionate minority 
contact.
    7. Work with the Pima County Community Advisory Board as they 
continue to address Disproportionate Minority Contact in Pima County.
    8. Work with the Pima County Juvenile Court Center and the JDAI/DMC 
Executive Committee to implement the Annie E Casey Foundation grant for 
Juvenile Detention Alternative Initiative (JDAI) and Disproportionate 
Minority Contact.
    9. Fund community programs, training and educational forums to 
reduce the incidence of disproportionate minority representation in the 
juvenile justice system.
    10. Promote collaboration around DMC efforts among the state 
agencies and organizations directly involved with the juvenile justice 
system, including the Arizona Department of Juvenile Corrections, 
Administrative Office of the Courts and the Arizona Juvenile Justice 
Commission.
    During FY2007 and FY2008, the DMC Committee of the AJJC will 
continue in its efforts to identify model program and best practice 
strategies that could be used in Arizona to reduce DMC. A key strategy 
in this effort has been to include representatives of key community and 
juvenile justice stakeholders on the DMC Committee. DMC Committee 
representation includes representative members from Maricopa County, 
the Arizona Building Blocks Initiative, the PCJCC JDAI/DMC Executive 
Committee, as well as from the Department of Juvenile Corrections. With 
representation from the PCJCC JDAI Executive Committee, the DMC 
Committee can support as well as learn from the strategies and 
implementation.
Local Jurisdiction Efforts
    Jurisdictions conducting targeted DMC reduction activities include 
Maricopa County and Pima County and Yuma County; however, the majority 
of activities have taken place in Maricopa County and Pima County. Yuma 
County was selected as a third jurisdiction for data analysis for its 
increasing minority population; however, currently has fewer programs 
targeting the areas found with evidence of DMC as compared to the other 
identified jurisdictions. It is important to note that the number of 
juveniles who came in contact with the system in Maricopa County and 
Pima County represent 70% of the total youth who were referred in 
FY2006. Yuma County continued to report the third highest youth 
referred count in FY2006.
Maricopa County
    Utilizing the ``Building Blocks'' model of the Youth Law Center, 
the Arizona Supreme Court, with support by the Arizona Juvenile Justice 
Commission, undertook a multi-year project that attempts to reduce 
minority over-representation in the justice system and to promote 
rational and effective justice policies.
    This project began as a response to the rapidly increasing over-
representation of young people of color in the justice system. The 
project proactively addresses the concerns of disproportionate minority 
representation in an integrated multiple-strategy campaign that 
includes (1) research, (2) analysis of decision making in the field, 
(3) direct advocacy for minority youth in the justice system, (4) 
building a constituency for change at the local, state, and national 
level, and (5) development of communications, media, and public 
education strategies.
    Included in Arizona's Building Blocks Initiative is a focus on 
Maricopa County, one of the two jurisdictions with significant targeted 
DMC-reduction activities. The Building Blocks Initiative aims to reduce 
the over representation of minority youth in the justice system through 
a coordinated effort among state and local stakeholders.
    The initial findings of the System Analysis for Maricopa County 
found that over representation was present in three areas of analysis--
Arrest, Probation, and within Juvenile Corrections. Within the area of 
arrest, data suggests that over representation occurs for Part One and 
Part Two crimes for minorities. Further analysis is being conducted to 
explore data on police attempts to contact parents, the impact of 
special units targeting specific youth, and explore the feasibility of 
differentiating youth questioned but not arrested compared with those 
arrested.
    In the area of probation, data suggests that over representation of 
minority youth occurred for youth violating terms of probation as found 
within the decision to request a petition for such violations. This 
finding occurred for minority youth on standard as well as intensive 
probation. Further analysis will be conducted to assess prior offenses 
and dispositions and impact on movement through system as well as the 
ethnicity of the officer filing the probation violation petition.
    The system analysis and community assessment of Maricopa County 
also identified an area of Maricopa County as having a high 
concentration of minority youth as well as a high number of youth 
referred to the juvenile court.
    In an effort to reduce the number of youth detained, coupled with 
data gathered from the Maricopa County Juvenile Probation Department 
that identifies truancy as a leading cause of youth referrals to court, 
targeted intervention programs have been implemented to reduce DMC in 
Maricopa County. Specifically, Maricopa County's Gateway Project, the 
City of Phoenix PASS initiative, the City of Tempe's Strategies for 
Success program, and the Cultural Pride Linking Communities of Chicanos 
Por La Causa, were identified with a component that targets minority 
youth within its delinquency prevention efforts to reduce potential 
contact with the juvenile justice system.
    Two additional activities were either continued or implemented in 
FY06 with support from the findings of the community assessment; these 
include the Education Success Program (ESP) truancy prevention program 
and an Alternative to Suspension program.
    Maricopa County Juvenile Probation Department is implementing the 
Maricopa County Gateway Project. This is a collaboration project funded 
with Title V prevention funding that coincides with the ESP program and 
the Alternative to Suspension program, targeting the Cartwright School 
District and adjacent areas. One strategy of the Gateway project is to 
redirect and refocus already existent resources and programs in the 
community, crate a new collaborative intervention strategy, and target 
at risk and first truancy referrals and their families for intensive 
intervention services. Truancy has been seen as a ``gateway'' behavior 
that places youth at risk for future negative activity. Youth from the 
high-risk areas identified as well as first time truancy referrals and 
their families will enter one of two blue print programs selected as 
part of the Gateway Project--Functional Family Therapy (FFT) and 
Multisystemic Therapy (MST).
    The goal and outcome objectives of the Gateway project are to 
reduce truancy through community collaborations, promote the 
development and expansion of family centered services, expand 
communication and cooperation among all youth involved, augment efforts 
to prevent re-offending and support individual progress, and provide 
rapid response delivery of services. Data from Maricopa County Juvenile 
Court revealed that a disproportionate number of status offense 
referrals and additional data reveal a high number of truancy referrals 
from the Maryvale area. This program is targeting the Maryvale area, 
specifically three zip codes identified as high risk.
    The Maricopa County Juvenile Probation Department and community 
providers, Touchstone and Tumbleweed, have partnered with Safe School 
sites in target zip codes to provide evidenced based programs to 
families. This intervention has demonstrated effectiveness in assisting 
families with skills necessary to engage, motivate, and change 
behavior.
    These services work not only with the at risk youth, but with the 
entire family to address the family as a system. These services are 
available, as needed, with bi-lingual counselors. The approach of FFT 
(Functional Family Therapy) and MST (Multisystemic Therapy) empower 
parents with skills and resources to independently address the issues 
that arise when raising teenagers, and provide ways to cope with 
family, peer, school and neighborhood problems.
    Recruitment occurs by enlisting current programs and initiatives 
within the target area. School personnel and Safe School Officers, 
School Resource Officers, and Probation Officers are among those who 
identify youth in the target areas as most at risk of truant behavior 
and assess the case for referral into the Gateway project. Programming 
is also targeted to youth that have already been referred to Court on a 
truancy referral.
    Additional efforts from Maricopa County Juvenile Probation include 
its collaborative project with the City of Phoenix (located within 
Maricopa County) that coordinates the activities of its C.U.T.S (Court 
Unified truancy Suppression) program with the City of Phoenix's at-risk 
prevention programs. Both programs are targeting high rates of minority 
youth referrals for truancy.
    The truancy prevention program is a collaboration of 
representatives committed to reducing the number of youth, primarily 
minority youth, which are referred to court. This collaboration 
involves school principals and administrators, Maricopa County Juvenile 
Probation, the City of Phoenix's Operation AIM (Attendance is 
Mandatory), City of Phoenix Police Department, and City of Phoenix At-
Risk Youth Division. The Education Success Program (ESP) program was 
implemented in two 6th Grade Centers (schools only serving 6th grade 
students) that opened in the 2004-2005 school year. Elementary schools 
within the Cartwright School District within Maricopa County fed into 
the two 6th Grade Centers.
    Maricopa County's Education Success Program (ESP) program is 
focused on providing prevention and early intervention strategies for 
at risk youth in the target area, which includes a high population of 
minority youth and families. The ESP program placed a full time Family 
Resource Officer within the Cartwright School District to provide 
intervention efforts for at-risk youth and their families. Referrals 
were directed to the Family Resource Officer to avoid formal court 
involvement and youth and families were directed toward appropriate 
services.
    During FY06, funding was used to support an Alternative to 
Suspension program in Maricopa County. This program was implemented in 
the Atkinson Middle School District within the Maryvale/Cartwright 
School District. This school is made up of a population of 
approximately 1,000 students with a demographic breakdown of 80% 
Hispanic, 8% African-American, 10% white and 2% Native American. This 
school district was identified as having an increasing rate of 
referrals to juvenile court along with an increased number of student 
suspensions. This school was also reporting an increasing number of 
student suspensions, estimated at 75-100 per year, placing a high 
number of youth at-risk of delinquency, being detained, or not 
continuing on to high school. The goal is this program is to provide an 
alternative school suspension program to allow for continued 
educational services, coupled with behavioral health and human service 
components also being provided in the students case planning.
    In 2007, Maricopa County Superior Court implemented its Community 
Services Unit. This program will bring together the Juvenile Court, 
Juvenile Probation, the Arizona Department of Economic Security's CPS 
unit, and the local Regional Behavioral Health Provider to provide wrap 
around services to youth and families who come in to contact with the 
court. The CSU will assess and triage referred families as well as 
those who walk in needing service. The goal of the CSU is to divert 
child and families away from formal court or detention involvement by 
bridging the gap between needed services and the court involvement 
often times needed to access such services. Hispanic youth and families 
are the second highest ethnic group who are referred to Maricopa County 
Juvenile Court.
    Free Arts of Arizona, a non-profit within Maricopa County, was 
funded to implement a delinquency prevention program targeting minority 
youth. Free Arts of Arizona will provide a range of activities to youth 
in shelters, residential, and group homes throughout Maricopa County. 
The current population served by this program is youth ages 14-18 with 
ethnic make up of 42% white, 34% Hispanic, 15% African American, 5% 
Native American, and 4% other. This program was selected for its target 
population of youth of color in the child welfare system as a 
prevention to further system penetration and more importantly, to 
prevent the flow of youth from the dependency system into the juvenile 
justice system.
    Two alternative to detention programs were awarded formula grant 
funding to begin programs in 2007. Tumbleweed Center for Youth 
Development will provide space for at-risk, runaway and homeless youth 
ages 11-18. Tumbleweed utilizes various outreach efforts to work with 
local police and detention center intake personnel to promote awareness 
to and provide an alternative to secure holding and placement within 
detention. In addition to providing an alternative to detention, human 
services, case management, Family Functional Therapy and other 
counseling and family support are available. This program primarily 
serves Hispanic and African American youth.
    The Valley of the Sun YMCA was selected to provide an alternative 
to detention in Maricopa County. In partnership with the Maricopa 
County Juvenile Probation Department, the Valley of the Sun YMCA will 
service youth who live primarily in three zip codes considered to be 
the highest risk for arrest and detention (primary zip codes for 
referral to juvenile court). The program is designed to serve as an 
alternative to detention by helping divert youth who would otherwise be 
detained due to limited alternatives in the community. Using a 
community based, multifaceted approach, the YMCA will implement an 
Evening Reporting Center to increase availability of pre-sentencing 
alternatives and reduce already overcrowding of detention. The target 
population is primarily Hispanic.
    The City of Phoenix continues to operate its prevention program, 
Personal and Student Success (PASS). This intervention program targets 
a population of at-risk youth with a high percentage of minority youth. 
The City of Phoenix Human Services Department completed a need 
assessment of the schools and surrounding communities that are part of 
the PASS Initiative. The schools partnering in the PASS Initiative are 
Camelback High School, Cesar Chavez High School, and South Mountain 
High School. Staff identified Risk Factors and Protective Factors based 
upon the assessment of factors associated with school drop out.
    The strategies and approaches utilized in the PASS Initiative are 
consistent with and build upon state and local efforts. The activities 
are based on a strong foundation of research to ensure quality, 
effective programming. The activities were selected to guarantee 
cultural and gender sensitivity and age appropriateness, as much of the 
target population is minority youth. The City markets community and 
City resources that are effective in drop out prevention and recovery, 
develop a system of service coordination, and expand City and community 
resources to assist schools. One of the most effective programs 
identified by the Graduate Phoenix Task Force was the City of Phoenix 
Human Services Department's longitudinal school based program. The PASS 
Initiative is an enhancement and expansion of that highly successful 
program.
    The PASS Initiative works with 9th grade students to assist with 
the transition from middle school to high school. The PASS Initiative 
caseworker provides long-term, intensive services to a small target 
group of at risk students. The complement of services is based on an 
individualized assessment for each student. In addition, the Initiative 
caseworker provides short-term services to the remaining 9th graders. 
The services include classroom presentations, conflict mediation, 
assessment and referrals, and crisis intervention.
    The goals of the PASS Initiative are to demonstrate increased 
service coordination by providing a continuum of comprehensive services 
to at-risk students, and for students among at the three target schools 
to demonstrate increased academic success and increased social skills 
and healthy beliefs. Services are being provided to the target students 
that include support groups, skill-building groups, individual 
supportive counseling, conflict resolution, and assessments and 
referrals. The baseline data for the students has been established and 
the final outcomes will be measured at the end of the school year.
    In addition to the program activities mentioned above, the Arizona 
Juvenile Justice Commission awarded seven new programs in early 2007 
that will target DMC reduction activities. Four of these programs will 
implement delinquency prevention efforts primarily serving minority 
youth. These programs provide community based services that work to 
eliminate contact with various points of the system. Three of the 
programs were funded to provide an alterative to detention. These 
programs specifically target minority youth and zip code and/or 
community areas identified as high arrest and referral areas. Programs 
activities for FY2007 are outlined below.
    Two additional programs were awarded funding to provide services 
within the City of Phoenix. The City of Phoenix was awarded funding for 
its Getting Results through Encouraging Attendance and Transition 
(GREAT) Program. This program will complement and expand the City's 
First Offender Program that provides services to youth, 6 to 17, who 
have committed their first status offense or misdemeanor offense, 
primarily referrals for truancy. The goal of this program is to work 
with youth who have been identified as being chronically truant, 
approaching a formal petition to court for having the maximum allowable 
truancies. Services will include individual assessments, case 
management, conflict resolution workshops, and individual and family 
counseling. The target population is primarily Hispanic youth.
    Greater Phoenix Youth at Risk, a non-profit program located in 
Maricopa County, will begin its New Pathways Mentoring Program in 2007. 
This program will target at-risk youth ages 14-17; current program 
population is 66% Hispanic youth. The program targets primarily truant, 
suspended or expelled youth or youth that would other otherwise not be 
in school. While the behavior of these youth would typically label them 
as being delinquent, the majority of youth served by this program have 
yet to be formally charged.
    The City of Tempe's Strategies for Success program, also within 
Maricopa County, continued in FY2006. The program was implemented in 
the fall FY2004 and identified among its target populations at-risk 
youth to include a high percentage of minority youth. The Strategies 
for Success is a collaborative effort between the City of Tempe, 
Community Services Department, Tempe Elementary School District, Scales 
Professional Development Elementary School and Gililland Middle School, 
and the East Valley Boys and Girls Club.
    As a part of its needs assessment, data from the City of Tempe 
showed that a significant portion of referrals to juvenile court came 
from Gilliland Middle School students in the Tempe Elementary School 
District and that Gilliland Middle School student test scores are the 
among the lowest in the district. Primary goals and objectives of the 
Strategies for Success program include a reduction of Gililland 
students' involvement in delinquent and other risky behaviors as 
measured by a decrease Gililland students referrals to juvenile court 
by 10% after two years and to have youth participation in one or more 
of the proposed programs as measured by increase in knowledge of 
personal and social competency skills by at least 10% at the end of the 
program cycle.
    Identified needs include bilingual counseling services for students 
and their families and structured after-school activities and tutoring 
services for Gililland Middle students. Through 2006, bilingual 
counseling services were provided to 91 participants, primarily between 
the ages of 5 and 11; 63 of the 91 participants were Hispanic or 
Latino. Intervention programs targeting minority youth in 2006 served 
195 high school aged youth; 57% of participants were Hispanic or 
Latino; 15% of participants were Black or African American.
    Another agency targeting delinquency prevention and alternatives to 
detention for youth in the City of Tempe, Tempe School District is 
Chicanos Por La Causa. Funding to support this agency began with the 
2004 funding cycle to implement its Cultural Pride Linking Communities 
program in two middle schools within the Tempe Elementary School 
District. The specific high-risk neighborhoods associated with these 
two sites are the El Rio and La Victoria neighborhoods in Tempe. The 
Cultural Pride Linking Communities program is a comprehensive and 
holistic approach that includes participation of youth and their 
families in the program. The program participants are Chicano or other 
ethnic and economically disadvantaged students and their families. 
Parent and siblings of participant youth were also served.
Pima County
    Pima County Juvenile Court Center (PCJCC) has long been focused on 
efforts that work to address youth of color being over-represented in 
the juvenile justice system. In 1997, an Intercultural Relations 
position was created. In 2002, the National Center for Juvenile Justice 
conducted a technical assistance project to guide PCJCC in implementing 
interventions to reduce Disproportionate Minority Contact (DMC). The 
presiding judge also reconvened the Community Advisory Board, which 
took on the task of assisting PCJCC in addressing DMC, and created the 
Minority Overrepresentation Work Group. In 2003, the Pima County 
Juvenile Court Director crafted a PCJCC DMC Action Plan, and in 2004, 
PCJCC appointed the court's first DMC coordinator.
    In 2004, the Pima County Juvenile Court Center spearheaded the Pima 
County DMC Initiative with a community event. The Pima County Juvenile 
Court Community Advisory Board, in partnership with the Pima County 
Juvenile Court and the Minority Over-representation Committee, held a 
symposium regarding Disproportionate Minority Contact (DMC) in the Pima 
County juvenile justice system. There were 60 participants in 
attendance at the six-hour symposium, representing a cross section of 
the community and the juvenile justice system. This event brought 
together key stakeholders that included community policy-decision 
makers, local elected official, judges, community service providers, 
law enforcement, faith-base leaders, juvenile court officials, and 
youth advocates to discuss and set a course of action to address the 
issue of disproportionate minority contact within the juvenile justice 
continuum in Pima County.
    A goal of the Pima County Symposium was to create an organization 
or governing body to organize the data collection, system analysis, and 
activities and information sharing regarding the Pima County DMC 
Initiative. Following the DMC symposium, a DMC Executive Committee was 
established. This executive board is made up of key stakeholders that 
will be tasked with reviewing the system analysis data as well as 
conducting a comprehensive review of the detention risk assessment 
form.
    In October 2004, Pima County was selected as an Annie E. Casey 
Foundation replication site for the Juvenile Detention Alternative 
Initiative (JDAI). The Pima County Juvenile Court Center (PCJCC) has 
also partnered with the W. Haywood Burns Institute to address the issue 
of DMC. PCJCC is the first JDAI site in the nation to implement the 
Juvenile Detention Alternative Initiative with the work of the W. 
Haywood Burns Institute at the inception of the initiative.
    The objectives of the JDAI are to safely eliminate inappropriate or 
unnecessary use of secure detention, minimize failures to appear in 
court and incidence of delinquent behavior, and well as to improve 
conditions in secure detention facilities. The JDAI and DMC 
collaboration that has been established involves key community and 
juvenile justice stakeholders. The PCJCC JDAI/DMC Executive Committee 
includes: the Tucson Police Department, Chicanos Por La Causa, the 
Tucson Indian Center, the School Districts of Tucson Unified and 
Sunnyside, the Offices of the Pima County Attorney and Public Defender, 
the Regional Behavioral Health Authority, the Department of Economic 
Security Child Protective Services, and the Pima Count Juvenile Court. 
The focus of the three-year grant is to create safe alternatives to 
confinement for children accused of committing crimes.
    With the announcement of the AECF grant, the Pima County DMC 
Executive Board became the JDAI/DMC Executive Committee and serves as 
the oversight body for the JDAI project and plan implementation. 
Additionally, the Chief of Police in Pima County has endorsed the DMC 
reduction plan and integrated the plan into the strategic plan of the 
Pima County Police Department.
    The JDAI/DMC Executive Committee is currently focusing on two 
strategies. One focus includes the JDAI project and associated 
activities. A second focus of the Executive Committee is a review of 
Pima County's risk assessment and detention screening tool. An 
additional strategy involves training of judicial staff using the Casey 
Family Programs of Arizona curriculum, ``Undoing Racism.'' This 
training is used to discuss racism among judges and other staff and 
community members involved with youth.
    During 2006, Pima County continued its community assessment and 
data collection activities. The System Analysis for Pima County is 
currently being implemented and involves a review of data covering a 
ten-year period and assesses numerous points of contact with youth. 
These points include paper referral detainment of youth, detention, 
disposition to probation and juvenile corrections, and violations of 
probation. Variables in the system analysis for Pima County include but 
are not limited to ethnicity, race, gender, socioeconomic status, and 
severity of offense.
    During FY2006, PCJCC staff completed a comprehensive profile of 
children in detention. Factors considered include age, race/ethnicity, 
gender, nature of offense or referral, day/time of arrest, and length 
of stay in detention. PCJCC Information Technology staff created geo-
maps identifying the residence of detained minors. Additional 
geographic-related data was compiled from law enforcement, behavioral 
health, and other sources. This data is being used to identify specific 
strategies to reduce the inappropriate use of detention and 
disproportionate contact.
    Successes noted in 2006 include:
    <bullet> Average daily population in detention (ADP) reduced from 
173 in 2004 to 135 in 2005 and continued to decrease into 2006
    <bullet> Average daily population of African American juveniles 
reduced from 20 in Q1 of 2005 to 13 in Q1 of 2006
    <bullet> Average daily population of Native American juveniles 
reduced from 18 in Q1 of 2005 to 11 in Q1 of 2006
    <bullet> Average length of stay (ALOS) in detention reduced from 
16.83 days in 2004 to 14.11 days in 2005
    <bullet> Average length of stay for African American juveniles 
reduced from 22 days in Q1 of 2005 to 12 days in Q1 of 2006
    <bullet> Average length of stay for Hispanic juveniles reduced from 
16 days in Q1 of 2005 to 14 in Q1 of 2006
    <bullet> Average length of stay for Native American juveniles 
reduced from 24 days in Q1 of 2005 to 19 in Q1 of 2006
    Source: Pima County Juvenile Court Center

    Additional accomplishments in FY06 were completed around specific 
problems areas. These include:
    Risk Assessment Instrument: With technical assistance from the 
Annie E. Casey Foundation, this group has reviewed and revised the 
screening tool used to determine whether a minor will be detained, by 
removing subjective factors and other criteria that may result in 
inappropriate detention, specifically of minority youth. Data revealed 
a significant amount of detention intake overrides (70%) were falling 
into two categories: Family dysfunction/Domestic Violence and Substance 
Abuse.
    Provisional Warrants: This group has developed a modified warrant 
and related procedures to be used in cases where a minor fails to 
appear for a court hearing but does not appear to be a threat to the 
community. Probation officers will have the discretion not to arrest 
minors subject to such warrants where it appears that the parents will 
assure the minor's attendance at the next hearing.
    Ad Hoc Target Site: Two areas were identified in the community from 
which a high percentage of minority youth are referred to the detention 
center. The Executive Committee and the DMC Coordinator is beginning to 
implement a strategy to work in partnership with these local 
communities to identify ways in which arrests can be avoided or minors 
released from detention with appropriate services and supervision in 
place.
    Probation Violators: A large percentage of the detention 
populations are minors on probation who commit ``technical'' violations 
of the conditions of probation (e.g., curfew violations, failure to 
attend school, etc.) This group will develop a profile of this 
population and develop strategies to avoid inappropriate use or overuse 
of detention as a sanction.
    Decision to Detain: A period of time in detention is often sought 
by prosecutors and probation officers as a consequence when a juvenile 
repeatedly violates the conditions of probation. The use of a graduated 
response system is also a key principle of the National Council of 
Juvenile and Family Court Judges Juvenile Delinquency Guidelines, which 
PCJCC is implementing as part of their Model Delinquency Court project. 
An internal court committee is reviewing the probation conditions and 
developing a graduated response system to ensure the use of consistent 
and appropriate criteria in making the decision to request detention as 
a consequence.
    Length of Stay: In 2006, the PCJCC Detention Division has fully 
implemented the ``Step Up'' program for all detained juveniles. This 
behavioral education program pairs detained youth with detention staff 
mentors, improves their decision-making skills, and prepares them to 
return to the community without re-offending. Initial surveys show that 
youth completing the program believe that it has helped them make 
positive changes and better decisions, has taught them to be 
accountable for their actions, and has prepared them to return to 
school or employment. Collaborating with Davis Monthan Air Force Base, 
Detention has also begun a community mentor program, pairing over 100 
service personnel with detained juveniles to provide a positive and 
supportive relationship both in detention and back in the community.
    Alternatives to Detention: Juvenile probation is currently 
maximizing the use of electronic monitors as an alternative to 
detention. The court is also in discussion with a community provider to 
expand it current services to support a day/evening reporting center. 
Juveniles needing increased structure and supervision can be released 
on condition that they attend this center after school, where they can 
receive additional services such as tutoring, substance abuse 
counseling, and behavior education. The court has also committed to 
developing a pre-adjudication community supervision program.
    Analysis of the RAI data has revealed two specific areas needing 
alternatives: juveniles charged with domestic violence and chronic 
substance abusers. Juveniles charged with domestic violence are 
arrested and usually cannot safely be returned to their homes 
immediately. With a grant in 2005 from the United States Bureau of 
Justice Administration, the court has hired a domestic violence 
coordinator who will work with probation and community stakeholders to 
develop alternatives to arrest as well as to detention.
    Neighborhood Pilots: The Executive Committee reviewed comprehensive 
demographic and referral data to identify two neighborhoods with strong 
leadership, significant Hispanic and African American populations, and 
high numbers of referrals to the Juvenile Court. PCJCC is partnering 
with the `A' Mountain and Sunnyside/Elvira neighborhoods with a goal of 
developing community-based alternatives to detention that will have the 
most beneficial impact, particularly on youth of color. The first step 
in that process has been the completion of a community profile for each 
neighborhood. Working with over 150 community leaders, parents, court-
involved juveniles and other youth, a subcommittee has completed 
neighborhood mapping, developed a community matrix of services, and 
conducted focus groups to complete the profiles. When the profile 
reports are complete, the Executive Committee will work with the 
neighborhoods to identify and develop neighborhood-based strategies and 
alternatives to detention.
    Because native youth are not concentrated in any specific 
geographic area, a different strategy was needed to address issues 
facing this population. Pima County Juvenile Court reached out to both 
the Tohono O'odham Nation and the Pasqua Yaqui Tribe, and begun to meet 
on a regular basis to establish an ongoing dialogue on native youth. 
The Court has invited tribal spiritual leaders to meet with native 
youth in detention and provide spiritual services to them. Detention 
staff is also working with tribal service providers to increase 
communication and enhance continuity of services once a youth is 
released to the community.
    Education Subcommittee: substantial numbers of youth involved in 
the juvenile justice system are failing to receive the education they 
need to succeed in life. Many are either not enrolled in school, or 
have been suspended or expelled as a result of the behavior that 
brought them into detention. Many have unmet needs for special 
education. And, the more their education is interrupted by periods of 
detention, the farther behind they fall.
    Although not expressly made a part of the original strategic plan, 
a subcommittee including the leadership of two of the largest school 
districts in Pima County are examining issues arising from the juncture 
between schools and the Juvenile Court. The first task is to collate 
and compare data from the two systems to identify and create a profile 
of the youth. This data will be used to examine school discipline, 
arrest and charging policies and practices, to determine the extent to 
which they contribute to inappropriate juvenile detention.
    This subcommittee will also consider the creation of school-based 
councils in the two pilot neighborhoods ('A' Mountain and Sunnyside/
Elvira) to develop ways to reduce referrals to the juvenile justice 
system and improve educational outcomes for court-involved youth.
    Pima County Juvenile Court Center also utilizes funding to support 
the Pima County Northwest Community Justice Center in operating a 
community assessment center and alternative to detention with intensive 
intervention programming. The program offers a continuum of services 
and programs for juveniles and their families, including mentoring, 
drug screening, cognitive skills building, and family counseling.
    In 2007, Pima County Juvenile Court Center will continue to develop 
interventions that support service delivery in non-detention settings, 
redistribute court resources to implement necessary interventions, 
evaluate interventions in relation to intended outcomes, and develop 
and maintain best practices for those youth who do require detention.
    The Pima County Juvenile Court Center, as part of its JDAI/DMC 
Initiative, has identified the following three priorities for 2006/
2007:
    <bullet> Stakeholders ensure that key decisions are not adversely 
affected by cultural or language factors;
    <bullet> Develop and implement a system of graduated responses for 
delinquent behavior and violations of probation, both pre-and post-
dispositions, including both sanctions and therapeutic/remedial 
interventions;
    <bullet> Ensure the availability of appropriate services and 
placements to facilitate and support the safe release of medium-risk 
minors.
    Planned Activities for Pima County Juvenile Court Center in FY2007, 
as part of its overall DMC reduction efforts, include a focus of the 
following areas:
    <bullet> Establish communication strategies: to orient PCJCC staff, 
stakeholders and the general community as to the developed DMC/JDAI 
values, vision and goals; to provide timely up-dates regarding the 
various systems changes being implemented; to develop a DMC/JDAI cadre 
of trainers within PCJCC that will work with staff and newly hired 
staff; and to devise the mechanisms to continually obtain input and 
feedback from staff, stakeholders, parents and youth.
    <bullet> Conduct Community Asset Mapping: in early 2007, PCJCC 
completed the first phase of its Community Profile. The Community 
Profile includes a Service Matrix of all program services for youth in 
the designated target site area. The next phase is to conduct a 
physical mapping of the target site area and compile information into a 
synthesized report of community strengths, challenges, and needs. This 
information will be used to identify approach alternatives that meet 
the needs and caps of these communities.
    <bullet> Develop specific community-based alternatives: to provide 
alternatives to detention in the local communities where youth live for 
the low and medium risk youth who would otherwise be detained and/or 
have no services.
    <bullet> Implement evaluation: continue to conduct and review 
periodic evaluations of the DMC/JDAI work plans to determine the 
outcomes, revise work plan if necessary, compare data results with 
calendar year 2003 baseline date.
    <bullet> Establish a Single DMC/JDAI Master Action Plan: to 
incorporate the Juvenile Detention Alternatives Initiatives (JDAI) and 
the Haywood Burns Institute strategies into the PCJCC DMC original 
action plan and to monitor and track progress.
    <bullet> Implement Focus groups: to obtain information from youth 
and parents about what works, and what could be improved about the 
Juvenile Justice System and other community services, and evaluate the 
allocation of resources to consider other appropriate alternatives.
    <bullet> Broaden base of DMC champions: Identify, recruit and 
orient new target community stakeholders to join in the reduction of 
DMC.
    <bullet> Detention Self-Inspection: PCJCC has completed its 
Detention Self Inspection that includes a review of 175 points.
Pima County Alternative to Detention Programs
    In early 2007, Pima County Juvenile Court was awarded funding to 
implement an additional detention alternative program. The need for 
this program was identified as part of the system analysis, community 
assessment, and various data collection and review efforts conducted as 
part of Pima County's JDAI/DMC Initiative. As stated previously, an 
analysis of the Risk Assessment Instrument data revealed two specific 
areas needing alternatives: juveniles charged with domestic violence 
and chronic substance abusing youth. A further review of data revealed 
that juvenile domestic violence poses a serious and complex issue. Pima 
County Juvenile Court Center annually receives approximately 1,500 
youth referrals for domestic violence offenses. Due to law enforcement 
guidelines, half of the youth arrested for these charges are brought to 
the detention center.
    Pima County Juvenile Court recognized that many of these youth were 
detained primarily because an appropriate alternative did not exist. 
Using formula grant funding, PCJCC will establish a Domestic Violence 
Reception Center to provide a community-based, non-secure facility to 
serve as an alternative to detention as well as an alternative to 
arrest. This Center will utilize existing support services within the 
county to provide a range of services such as short-term respite, 
placement for youth requiring longer stays, crisis intervention 
services, and assessments for referrals to local behavioral health 
service providers.
Yuma County
    As noted earlier, Yuma County was selected as the third 
jurisdiction as this county has a significant minority youth 
population. The Yuma County Juvenile Justice Center began a court 
improvement project in early 2004 that consists of implementing 
recommendations made under a technical assistance project by OJJDP that 
include establishing a DMC committee, contracting for youth and family 
services for delinquency prevention and intervention efforts targeting 
Hispanic youth, increasing capacity and use of alternatives to 
detention to reduce secure detention of youth offenders and youth who 
violate conditions of probation.
    Yuma County Juvenile Justice Center is currently utilizing funding 
to support diversion and alternative to detention services for youth. 
The program serves both probationers and non-probationers who are 
detained at the Yuma County Juvenile Detention facility. Ages served 
ranges from 12 to 17 years of age and include both male and female 
detainees. The goal of the program is to deter and minimize recidivism 
rate of juveniles returning to the Yuma County Detention Center by 
providing pro-active skills necessary to prevent future delinquent 
behavior and substance abuse.
    Yuma County is currently consulting with both Maricopa County and 
Pima County to review each jurisdiction's DMC reduction efforts, 
strategies, challenges and successes. It is anticipated that Yuma 
County may establish a group to begin implementing targeted reduction 
activities in 2007.
    Arizona remains in full support of the Juvenile Justice and 
Delinquency Prevention Act and will continue to work towards the 
solutions that will address the disparate number of minorities in the 
juvenile justice system. Through efforts at the State level, including 
the commitment of the Arizona Juvenile Justice Commission, Arizona will 
continue to utilize the relative rate index calculations to conduct 
further analysis and help guide the State's plan for reducing DMC.
    As dictated by the core protections of the Juvenile Justice and 
Delinquency Prevention Act, the Arizona Juvenile Justice Commission is 
committed to developing effective strategies and programs to address 
minority youth that come in contact with the juvenile justice system. 
Essential to this effort is the establishment of a continued, 
integrated and comprehensive approach to identifying opportunities for 
community-level change with respect to policing, developing culturally 
competent assessments and services, and identifying existing model 
programs and available resources to impact the issue.
                                 ______
                                 
    [Additional submission by Mr. Johnson follows:]

 A CAMPAIGN OF THE JUVENILE JUSTICE & DELINQUENCY PREVENTION COALITION

     the collective voice of more than 150 organizations nationwide

JJDPA Statement of Principles
    We, the undersigned, urge the Congress to adhere to the following 
four principles in approaching the Reauthorization of the Juvenile 
Justice and Delinquency Prevention Act (JJDPA). These principles are 
grounded in research and their efficacy underscored by the fact that 
the JJDPA has for more than 30 years provided direction and support for 
juvenile justice system improvement and, thereby, significantly 
contributed to the diminution of juvenile crime and delinquency.
    I. Keep children and youth out of the justice system: Whenever 
possible, keep children and youth out of the juvenile and criminal 
justice systems by addressing their needs and those of their families 
early and effectively.
    II. Ensure equity and competence: Do everything possible to ensure 
equity and competence with regard to race, ethnicity, culture, 
language, gender and sexual orientation, in legal representation before 
the courts and throughout all system practices and policies.
    III. Ensure responses appropriate to a young person's age and stage 
of development: Do everything possible to ensure that children and 
youth in the justice system are treated in an ageappropriate manner and 
provided with developmentally appropriate, evidence-based services and 
supports. Ensure, when needed, that sanctions are appropriate to a 
youth's age and offense.
    IV. Strengthen the federal partnership with state and local 
governments: Strengthen the federal role in supporting state and local 
needs by providing sufficient resources and appropriations for 
jurisdictions to effectively implement the JJDPA, to fully comply with 
its core requirements/protections and to ensure state and local 
adherence to high standards of performance.
    What is the JJDPA?
    Why care?
    Each year, juvenile courts handle an estimated 1.6 million 
delinquency cases and adjudicate youth delinquent in nearly 7 of every 
10 petitioned cases. The daily census of youth under age 18 who are 
incarcerated is 97,000--yet, it is estimated that 25 percent of them 
are detained while awaiting placement or court proceedings. Many youth 
who are confined are nonviolent and highly amenable to the benefits of 
rehabilitative services and supports provided in non-institutional home 
and community based settings. Juveniles in the courts have been shown 
to suffer from higher than average incidence of mental/behavioral 
health problems, learning disabilities and school failure, as well as 
under-addressed family intervention and support needs. Moreover, for 
more than two decades, state-level data have shown that youth of color 
have been overrepresented at every stage of the juvenile justice 
system.
    Additionally, some researchers estimate as many as 200,000 youth 
have their cases processed in adult criminal court each year as a 
result of prosecutorial or judicial waiver, statutory exclusion for 
certain offense categories, or because they reside in states with a 
lower age of criminal jurisdiction (age 16 or 17). On any given day, an 
estimated 7,000 youth under the age of 18 are inmates in adult jails, 
of these 90% are being held ``as adults.'' Youth who are not under the 
jurisdiction of the juvenile court are not covered by the JJDPA's core 
requirements/protections.
    Right now, juvenile arrest rates are at historically low rates--
lower than any levels recorded since the 1980s. Nationwide, law 
enforcement agencies arrest approximately 2.2 million persons under the 
age of 18 each year, yet in nearly half of all cases the most serious 
charges are larcenytheft, simple assault, a drug abuse/liquor law 
violation or disorderly conduct. Furthermore, research indicates that 
youth of color are detained more often and for longer periods of time 
than their white counterparts for the same low level offenses.
    The continuing success of effective juvenile crime prevention and 
deterrence depends on Congress strengthening both the provisions of the 
JJDPA, as well as the funding resources needed to fulfill such 
provisions to the greatest possible extent.
    Data sources: Snyder, Howard N. and Sickmund, Melissa. 2006. 
Juvenile Offenders and Victims: 2006 National Report. Washington, DC: 
U.S. Department of Justice, Office of Justice Programs, Office of 
Juvenile Justice and Delinquency Prevention. www.ncjj.org; Coalition 
for Juvenile Justice, 2005. Childhood on Trial: The Failure of Trying 
and Sentencing Youth in Adult Criminal Court, Washington, DC. 
www.juvjustice.org
    How could adherence to these principles guide JJDPA 
reauthorization?
    I. Keep children and youth out of the justice system: Whenever 
possible, keep children and youth out of the juvenile and criminal 
justice systems by addressing their needs and those of their families 
early and effectively.
    <bullet> Continuum of Care: Support an array of prevention and 
intervention strategies for children and families in collaboration with 
providers of educational, medical, mental/behavioral health, after 
school, workforce development services, and others, utilizing theory- 
and evidence-based practices.
    <bullet> Detention Alternatives: Develop and sustain community- and 
family-based alternatives to locked detention, both pre- and post-
adjudication.
    <bullet> Effective Reentry and Reconnection: Help young people 
leave the system, return home and stay home. Provide for effective 
reconnection to schools, families, community-based family support and/
or counseling, jobs, and housing, upon release from confinement.
    II. Ensure equity and competence: Do everything possible to ensure 
equity and competence with regard to race, ethnicity, culture, 
language, gender and sexual orientation, in legal representation before 
the courts and throughout all system practices and policies.
    <bullet> Reduce Racial and Ethnic Disparities: Given 
disproportionately high representation of youth of color in the justice 
system, it is imperative to direct major federal resources to states/
localities to implement system-change strategies designed to reduce 
racial and ethnic disparities. In turn, states/localities should report 
their progress in reducing racial/ethnic disparities, as well any forms 
of differential treatment of youth of color as compared with their 
white counterparts, at all stages from surveillance/arrest to reentry.
    <bullet> Cultural and Linguistic Competence: At all system contact 
points, services and supports given to children, youth and families, as 
well as institutional conditions, must be linguistically and culturally 
competent.
    <bullet> Due Process Rights: The promise of due process rights for 
juveniles remains largely unfulfilled. Jurisdictions should ensure that 
youth have timely access to competent and qualified defense counsel and 
are required to consult with counsel prior to waiving their 
constitutional right to such counsel.
    <bullet> Ensure Safety: All populations of youth, especially those 
who have proven susceptible to harm such as girls, lesbian, gay, 
bisexual and transgender youth, and children with serious mental/
behavioral health concerns, must be safe when in the care or custody of 
the justice system.
    III. Ensure responses appropriate to a young person's age and stage 
of development: Do everything possible to ensure that children and 
youth in the justice system are treated in an ageappropriate manner and 
provided with developmentally appropriate, evidencedbased services and 
supports. Ensure, when needed, that sanctions are appropriate to a 
youth's age and offense.
    <bullet> Incentives: Provide incentives to state and local 
jurisdictions to develop and implement developmentally appropriate 
services and supports for children and families that emphasize limited 
system contact and research-driven approaches to youth development.
    <bullet> Normal Adolescent Behavior vs. Delinquency: Guard against 
juvenile and criminal justice system responses that are unduly 
punitive, criminalize normal adolescent behavior or assume that youth 
competence and culpability equals that of adults.
    <bullet> Restorative Justice: In response to offending, implement 
policies, programs and practices that seek to restore the victim and 
the community and hold the youth offender accountable.
    <bullet> Take Steps to Extend Federal Protections to All Youth 
Until Age 18 or Older: Provide incentives for states to take necessary 
steps to ensure that the four JJDPA Core Requirements/Protections are 
applied as faithfully as possible to all youth until the age of 18, or 
to youth older than age 18 who are under extended juvenile 
jurisdiction, whether they have been tried in the juvenile or criminal 
court.
    IV. Strengthen the federal partnership with state and local 
governments: Strengthen the federal role in supporting state and local 
needs by providing sufficient resources and appropriations for 
jurisdictions to effectively implement the JJDPA, to fully comply with 
its core requirements/protections and to ensure state and local 
adherence to high standards of performance.
    <bullet> Optimal Funding: Ensure that funding authorizations in the 
JJDPA are provided at optimally effective levels to fulfill the all of 
the mandates of the JJDPA, as well as those contained in related 
juvenile justice programs, such as the Juvenile Accountability Block 
Grant (JABG) program.
    <bullet> Grants for State/Local Needs: Ensure that the federal role 
under the JJDPA is responsive to state-identified/locally-identified 
needs and the State Plan process, including field-based and field-
strengthening research and evaluation to refine and expand the array of 
best and evidence-based practices.
    <bullet> Performance Measures: Establish and support states and 
localities to set, implement and monitor performance measures for 
achieving the highest possible standards for safe, effective and 
competence-building systems, programs, policies and practices. Provide 
resources to support training, technical assistance and information 
dissemination in line with state needs.
    We, the undersigned organizations and leaders, seek the support of 
Congress to see the aforementioned principles are assured in the 
Reauthorization of the federal Juvenile Justice and Delinquency 
Prevention Act (JJDPA):
                         national organizations
Academy of Criminal Justice Sciences, Policy Section
American Correctional Association
American Probation and Parole Association
American Psychiatric Association
Asian Law Caucus
Asian Pacific American Legal Center (APALC)
ATTIC Correctional Services
Bazelon Center for Mental Health Law
Camp Fire USA
Campaign for Youth Justice
Center for Children's Law and Policy
Center for Juvenile Justice Reform and Systems Integration, Georgetown 
        University
Child Welfare League of America
Children's Defense Fund
Coalition for Juvenile Justice
Correctional Education Association
Council of Juvenile Correctional Administrators
Covenant House
Federation of Families for Children's Mental Health
International CURE Generations
United Girls Inc.
Justice Policy Institute
Juvenile Law Center
Legal Action Center
Mental Health America
Muslim Public Affairs Council
National Alliance for Faith and Justice
National Alliance to End Homelessness
National Association for Children of Alcoholics
National Association of Counties
National Association of Criminal Defense Lawyers
National Association of Home Builders
National Center for Youth Law
National Collaboration for Youth
National Community Education Association
National Council of La Raza
National Disability Rights Network
National H.I.R.E. Network
National Human Services Assembly
National Juvenile Defender Center
National Juvenile Justice Network
National Network for Youth
National Parent Teacher Association
National Partnership for Juvenile Services
National Recreation and Park Association
National Urban League Policy Institute
National Youth Advocate Program
Penal Reform International
Physicians for Human Rights
Residential Care Consortium
Southern Poverty Law Center
The National Center for Lesbian Rights
The Sentencing Project
Unitarian Universalist Association of Congregations
United Church of Christ, Justice and Policy Ministries
United Methodist Church, General Board of Church and Society Voices for 
        America's Children
W. Haywood Burns Institute
YMCA of the USA
Youth Law Center
                     state and local organizations
Alabama:
Alabama Disabilities Advocacy Program Alabama Youth Justice Coalition 
        Children First Foundation Legal Aid Society of Birmingham 
        Prodigal Child Project Southern Juvenile Defender Center The 
        Ordinary People Society
Alaska:
Gastineau Human Services Corporation
Arizona:
Arizona Juvenile Justice Commission--The Arizona State Advisory Group 
        Children's Action Alliance Friendly House
California:
Asian and Pacific Islander Youth Advocacy Network (AYAN) California 
        State Juvenile Officers' Association Center for Juvenile Law 
        and Policy, Loyola Law School Los Angeles Leadership Academy 
        Mothers for Peace Pacific Juvenile Defender Center Para Los 
        Ninos Watts/Century Latino Organization Youth Justice 
        Coalition/Free L.A.
Colorado:
Pendulum Foundation
Connecticut:
Center for Children's Advocacy, University of Connecticut School of Law 
        Connecticut Juvenile Justice Alliance Office of the Child 
        Advocate, State of Connecticut
Delaware:
Delaware Center for Justice Delaware Collaboration for Youth
District of Columbia:
Justice 4 DC Youth! Coalition Latin American Youth Center
Florida:
Children's Campaign, Inc. Florida Keys Children's Shelter, Inc. Latino 
        Leadership Inc. Law Offices of Public Defender Bennett H. 
        Brummer, 11th Judicial Circuit
Redlands Christian Migrant Association
Illinois:
Child Care Association of Illinois Illinois Collaboration on Youth 
        Illinois Parent Teacher Association John Howard Association of 
        Illinois Juvenile Justice Initiative Law Office of the Cook 
        County Public Defender Youth Network Council
Indiana:
Indiana Juvenile Justice Task Force, Inc. Leadership & Renewal 
        Outfitters
Kansas:
Kansas Advisory Group on Juvenile Justice and Delinquency Prevention--
        The Kansas State Advisory Group
Louisiana:
Families and Friends of Louisiana's Incarcerated Children (FFLIC) 
        Juvenile Justice Project of Louisiana
Maryland:
Maryland Juvenile Justice Coalition
Massachusetts:
Citizens for Juvenile Justice Criminal Justice Institute, Harvard Law 
        School
Michigan:
Michigan Council on Crime and Delinquency
Mississippi:
Mississippi Youth Justice Project
Missouri:
Missouri Juvenile Justice Association Youth In Need
Nebraska:
Voices for Children in Nebraska
Nevada:
East Las Vegas Community Development Corporation
New Hampshire:
Child and Family Services of New Hampshire
New Jersey:
Northeast Juvenile Defender Center
New Mexico:
Hands Across Cultures New Mexico Children, Youth and Families 
        Department--The New Mexico State Advisory Group New Mexico 
        Council on Crime and Delinquency
New York:
New York Juvenile Justice Coalition Goodhope Youth Home, Inc. Center 
        for Community Alternatives Youth Represent
North Carolina:
Action for Children North Carolina
North Dakota:
Lutheran Social Services of North Dakota
Ohio:
Alliance of Child Caring Service Providers Children's Defense Fund of 
        Ohio Juvenile Justice Coalition (Ohio) Law Office of the 
        Montgomery County, Ohio Public Defender North East Ohio Health 
        Services Voices for Ohio's Children Juvenile Justice Initiative
Oregon:
Partnership for Safety and Justice Salem/Keizer Coalition for Equality
Pennsylvania:
Community Commitment Inc. Congreso de Latinos Unidos Juvenile Detention 
        Centers' Association of PA
South Dakota:
Parents Who Care Coalition
Tennessee:
Latino Memphis, Inc. Tennessee Commission on Children and Youth 
        (TCCY)--The Tennessee State Advisory Group
Texas:
Southwest Key Program Tejano Center for Community Concerns Texas 
        Coalition Advocating Justice for Juveniles
Utah:
Utah Commission on Criminal Justice and Juvenile Justice--The Utah 
        State Advisory Group
Vermont:
South Royalton Legal Clinic at Vermont Law School Children and Family 
        Council for Prevention Programs--The Vermont State Advisory 
        Group
Virginia:
Citizens United for Rehabilitation of ErrantsVirginia, Inc. 
        JustChildren Program of the Legal Aid Justice Center 
        MidAtlantic Juvenile Defender Center, University of Richmond 
        Law School Virginia Coalition for Juvenile Justice
Washington:
TeamChild Washington Defender Association
Wisconsin:
Counseling Center of Milwaukee, Inc. La Casa de Esperanza, Inc. La 
        Causa Wisconsin Council on Children and Families
                                 ______
                                 
    [Internet link to the Coalition for Juvenile Justice 
report, ``Childhood on Trial: The Failure of Trying & 
Sentencing Youth in Adult Criminal Court,'' dated 2005, 
submitted by Mr. Johnson, follows:]

       http://www.appa-net.org/resources/pubs/docs/CJJ-Report.pdf

                                 ______
                                 
    [Additional materials submitted by Mr. Jones follow:]

          A Boy's Life: Former Drug Seller Tries to Start Over

         By Steve Mellon, Post-Gazette; Saturday, June 02, 2007

    Rashon lives with his grandmother as he deals with the legal 
consequences of having marijuana in his school locker.
    He sits in a former laundry in Garfield in an oversize chair 
wearing an oversize white T-shirt and tennis shoes laced with 
alternating red and white strings.
    His hair, cut close around a cherubic face, is perfectly groomed 
with those little breaks of waves the guys like to wear. He talks of 
his days using and dealing marijuana. He's 13.
    Rashon's mother had five boys, but the siblings have never lived 
together. His mother has been a drug abuser for all his 13 years.
    ``I smoked [marijuana] outside. I smoked inside. I smoked walking 
around in public, just smoking,'' he says as he clutches his hands to 
his knees. ``I thought I was bored if I was not high. I had money, 
jewelry. I had `rep,' ``--he was someone others could count on to sell 
them the weed they needed to get high.
    ``It made me feel noticed.''
    An eighth-grader who likes rap music, basketball and math class, 
Rashon is one piece of a fraying social tapestry that includes up to 3 
million other inner-city young black men across the nation. The common 
threads in their lives include fatherlessness, alienation from formal 
education, forays into criminal activity and a diminishing hope about 
their future--predictors that studies show push them into lives on the 
margins of society.
    Rashon is now in the Community Intensive Supervision Program, or 
CISP, an Allegheny County house arrest program that aims to keep kids 
like him in school, in their communities and out of trouble. CISP made 
Rashon available to the Post-Gazette on the condition his last name not 
be used.
    Rashon has a large family.
    His mother had five boys, the oldest is 24. Rashon is the third 
child.
    The boys never have lived together. Some of his siblings are 
scattered into foster homes. For all of his life, his mom has been a 
drug abuser. Because of her addiction, he never has lived with her. 
From the time he was six months old, he lived in a Hill District 
housing project with a great aunt. She fed him and clothed him and let 
Rashon sleep on a couch in the living room.
    When he lived with his great aunt, Rashon smoked weed. He walked 
the streets at all hours. Bored with school, he seldom went to class.
    He now lives in East Liberty in a tidy two-story home with his 
maternal grandmother. She calls the stocky young man with a dark-brown 
complexion Shon, and he's lived with her for about nine months, since 
shortly after he was busted at 12 for having a marijuana blunt in his 
middle school locker.
    At 67, Grandma Carleen has raised four boys and two girls. She has 
11 grandchildren and one great-grandchild.
    She has raised Shon's younger brother, Ron, since birth. She leads 
a visitor into her sunny little living room with the big sliding doors. 
Here all the furniture is snugly fitted in plastic. On a nearby shelf 
are family photographs. There are several of the younger brother and 
scores of his academic awards.
    There are no photos of Shon.
    Grandma Carleen, a widow, has worked hard to make a comfortable 
life. Her modest dwelling is on a quiet street, and she has sisters 
living in houses on both sides of her home.
    She is making the most of her life: She doesn't mind getting up 
with the dawn, as she's often out the door early to water aerobics, 
line dancing or exercising.
    ``These are supposed to be my years,'' she says, reflecting on the 
sacrifice of having to now raise Shon, too.
    Shon, she says, ``didn't get the right start. I took him in because 
he had nowhere else to go.''
    Rashon's mother infrequently comes around. He sees her, he might 
get a hug, but she remains a mystery to him.
    How old is she?
    Like many teens, Rashon likes rap music, basketball and math class.
    ``I don't even know. Ain't that crazy?'' he asks, shaking his head. 
``I don't know how old my mom is.''
    He's working to let it go, but it's tough.
    ``Sometimes I wake up in the morning and think of my mom and be mad 
and go to school. The first thing someone says to me, I just snap.''
    It makes him angry not having her there on holidays. Not having her 
there to talk about his math grade. Not having her there to help him 
avoid the same drug-abusing path she walked on. But he downplays it.
    ``Hopefully, she's doing good. I don't get my hopes up. I got my 
own life to worry about, not hers.''
    In 13 years, Rashon has seen his father twice. As he recalled, with 
each visit there was acknowledgement, but no affection. No hug. No 
handshake. No nothing.
    Once, there was a phone call. Rashon thought it was a wrong number.
    ``I can't even remember if he called me son or Rashon. He said 
`Wussup with you? How you been doing lately?' ''
    His dad, back in jail since last August, has a long list of 
burglary charges that stretch back to before Rashon was born.
    ``To tell you the truth, I really don't care if I saw him or not. 
For some reason, I really don't care,'' says Rashon.
    ``I can't even say if I love him or not.''
    This is not always the world that Rashon imagines.
    When he daydreams, he sees a world with his father.
    ``Things would be different if he was around. If he was here, we'd 
play basketball together or something. Watch a movie or something. Ya 
know, a father and son thing.''
    In his dreams, it's always a happy place. Then reality crashes into 
it.
    ``I really don't know if I love him. I don't know him. I love my 
mom, though,'' he says plainly, matter-of-factly. ``I don't know why, 
she'd ain't never been here for me, either.
    ``But for my dad, I can't find a place for him in my heart.''
    Rashon was 12 when he first began smoking marijuana. He was on the 
street, hanging out with Black Hawk, Dom, Hard Tizzy and 'nem.
    He was always the youngest, and he wanted to be like the older 
guys. They were 16, 17, 18. They called Rashon by the nickname Young 
Shig.
    Young Shig sold marijuana.
    Young Shig got high almost every day.
    Young Shig sometimes made $375 a week selling drugs. Add that up, 
and Young Shig would have cleared $19,500 in a year. Tax free.
    Most of which he spent buying more marijuana for himself or 
gambling it away.
    In fact, Young Shig called life on the street a blast.
    This is despite the fact that three of his friends have been shot 
or killed because of gang-related drugs and violence.
    Young Shig may have been having a blast, but Rashon wasn't.
    ``I noticed my grades started dropping. I started missing school 
and everything. My whole life felt like it was going down the drain. I 
mean, to miss 45 days from school in one semester, that's terrible. 
Now, I go to school every day.''
    While a student at Milliones Middle School in the Hill District, 
Rashon left the house about 7 every morning. He met with his friends 
and smoked a couple of blunts before going to class. They smoked on the 
city steps or near the shadowy, empty spaces outside of his great-
aunt's apartment.
    One day, he stuffed a half-smoked blunt into the corner pocket of 
his bubble jacket. The strong odor permeated the locker and after the 
vice principal confronted him, he confessed that it was his.
    He was charged with intent to distribute and sent to juvenile 
court.
    The judge saw his record of school absences and sent him to the 
Community Intensive Supervision Program.
    Looking to give him structure on a personal level, as well, the 
court suggested he move in with his grandmother.
    It is a beautiful Easter.
    Rashon is with family. He is standing and grinning at himself in 
the mirror. It is his first time in a new suit.
    ``I feel different. Handsome,'' he says, purring over his faux 
snakeskin dress shoes.
    Before leaving for morning service, his younger brother ties 
Rashon's tie. It's a skill Rashon has never learned.
    Grandma is a retired operating room technician who sometimes worked 
two jobs to support her family.
    She is a petite, church-going woman, and she is strict. When Shon 
came in, the rules came out. For a young man not used to many 
restrictions, he now had a long list: clean your room, get your pants 
off your butt, wash the dishes, turn the music down.
    In her house, her call for order and obedience upsets him and he 
believes she thinks of him as ``the devil.''
    ``No, I don't think he is the devil,'' said his grandmother. ``But 
he puzzles me. I say, `What is wrong with this boy?' ''
    After his day is over at Sunnyside school, a van picks up Rashon 
and delivers him to CISP. There he is among a thicket of young men who 
have all been pricked by trouble at school, petty crime or drug abuse.
    CISP is a chance for the counselors to stuff some accountability 
into their souls before they are let go.
    Young men--ages 10 to 18--who come into the program get monitors on 
their ankles and are electronically tethered to their homes, work 
places or school. The program is run by the Allegheny County Court of 
Common Pleas, and youth come every day. Here they do homework, chores 
and have meals. They must account for their time in community service, 
their grades, and talk about restitution for their crimes.
    Rashon is one of the youngest in the group.
    Before he came here, he had missed an entire semester at school. 
His grades were in the dump.
    ``When I first came in with Rashon, I saw a very needy, high energy 
child,'' says Barry Canada, 52, a family counselor the young men call 
Uncle B.
    ``Every day with him was a new adventure. I would tell my wife, 
this kid is killing me. I wanted to put him on the next boat [and send 
him] into the woods.''
    Uncle B now has wrapped his steady arms around Rashon. He takes him 
to lift weights, helps with family counseling sessions and visits 
Rashon's school.
    CISP has a structure and consequences.
    The goal, says Uncle B, is to take the street out of Rashon.
    The presence of Uncle B and other ``old heads''--role models--
living and articulating a different value system has helped keep Rashon 
more steady and focused.
    ``I've always been respectful,'' he says, ``but I'm just a better 
young man now--in a lot of different categories.''
    Part of his optimism has come from realizing that he can live away 
from the corners.
    ``I never knew I was this smart,'' says Rashon, reflecting on the 
change of perspective the program has given him.
    ``Beneath the rough stuff, this kid is intelligent,'' says Uncle B. 
``I think he's starting to see what we wanted to produce in him.''
    When he leaves CISP, the program will help him enroll in tutoring, 
a basketball league and other aftercare.
    ``He has a future. A real bright future,'' says Uncle B. ``He's 
ready for the next step, but he's got to have the discipline.''
    The transition from the streets has not been without its bumps.
    Weeks of good behavior are sometimes followed by bouts of what 
Rashon calls ``I don't-care-attitude'' days.
    His monitoring ankle bracelet, removed a few weeks ago, was back on 
after he was inexplicably late for school and talking out of order 
during an accountability session at CISP.
    Rashon has lost old friends, and he's been forced to examine some 
harsh realities about his family life.
    But in recent weeks, he has impressed counselors, his therapist and 
teachers.
    Here's what Rashon has to say:
    ``I will never sell drugs another day in my life. I will never 
smoke another chemical. I can say that with a straight face. I know 
what it done to my parents. I see that selling drugs is hurting 
someone's family.''
    And, just as easily as he opens it, he shuts the door on being an 
adult.
    He flashes his boyish smile and bounces off to play ping-pong with 
a CISP counselor.
                                epilogue
    Rashon is free now. He ``graduated'' from CISP May 24. Uncle B cut 
the electronic monitor from his ankle, and his CISP family gave him a 
round of applause.
    Because of some early behavioral problems, it took him 10 months to 
finish the six-month program. But he's finished.
    In a few days, he'll graduate from eighth grade. His neighborhood 
high school is Peabody, but, in the fall, he wants to attend Schenley.
    In a few days, he'll begin a summer job with Urban Youth Action.
    He has no idea what it is he'll be doing.
    ``I really don't care,'' he smiles. ``It means I can get my own 
account, make my own money, and I don't have to hustle no more.''
    The Post-Gazette will continue to follow Rashon, and at the end of 
the series provide an update on where he is and how he's doing.
                                 ______
                                 

                        2006 CISP Annual Report

         James Rieland, Director of Allegheny County Probation;
                    Kimberly Booth, Director of CISP

                              introduction
    The legal entity that governs the Community Intensive Supervision 
Program is the Court of Common Pleas, Family Division--Juvenile 
Section. The Administrative Judge is the Honorable Kim Berkeley Clark, 
and the Director of Juvenile Court Services is James Rieland. The CISP 
Program Manager is Kimberly Booth. The CISP Program Coordinators are 
George Kinder and James Tucker, who both report directly to the CISP 
Program Manager.
                         purpose and objectives
    The purpose of the Community Intensive Supervision Program is to 
provide an alternative to institutionalization for youth under Court 
supervision who continue to commit delinquent acts.
    CISP Goals and Objectives are as follows:
    1) To provide drug and alcohol education, intervention and 
treatment to youth and their families.
    2) To operate an intensive supervision program for repeat offenders 
in the community with balanced attention to the offender, community and 
the victim.
    3) To minimize/prevent recidivism on the part of youth in CISP and 
thereby reduce the number of court supervised youth who require 
institutionalization.
    4) To provide a real world learning experience in the community 
rather than an artificial or sterile environment of an institution.
    5) To maintain failure to adjust discharges from CISP at no more 
than five percent (5%).
                                 ______
                                 

                            PROGRAM PURPOSE

    The Community Intensive Supervision Program (CISP) is operated by 
the Court of Common Pleas of Allegheny County, Family Division--
Juvenile Section and has been in operation since June 1990. CISP 
functions as an alternative to institutionalization for repeat juvenile 
offenders, and starting in January 1997, CISP has functioned as an 
aftercare program for youth released from institutional placements. 
These offenders have continued to challenge the resources, both human 
and financial, of the Court. The Court continues to experience an 
increase in total referrals and an increase in the severity of 
offenses. Institutional beds are filled to capacity across the state. 
Institutions (both public and private) have created waiting lists for 
counties wishing to commit youth to residential programs. In an effort 
to address these problems, the Court has developed the Community 
Intensive Supervision Program. Also, it is a statistically proven fact 
that youth exiting institutional placements have a tendency to 
recidivate at a high rate within the first six months after release. 
Therefore, it made sense that CISP would expand the use of the CISP 
Program for aftercare services.
    The CISP Program provides the Court with a community-based 
alternative to residential care for selected, chronic juvenile 
offenders, and also serves as an aftercare program for youth released 
from institutions. A full range of programming, including drug 
screening, is offered in five (5) specially designed neighborhood 
centers during afternoon and evening hours, seven (7) days per week. 
Supervision of youth continues throughout the night by use of an active 
electronic monitoring system. In addition to traditional probation 
department personnel, the program is staffed by paraprofessional 
``Community Monitors,'' who are adult residents of the same 
neighborhoods in which the youth reside.

                           TARGET POPULATION

    Youth from three geographic regions of the City of Pittsburgh, one 
in Wilkinsburg and one in McKeesport have been chosen to participate in 
CISP. The three specific city regions are Garfield, Hill District and 
Homewood. The areas selected for the project have traditionally 
experienced a high rate of institutional placement. The CISP Program is 
designed for male juvenile offenders (ages 10-18) from the targeted 
neighborhoods who were on probation, continued to recidivate and would 
be institutionalized but for the existence of this alternative.
    Property offenders make up for the majority of youth placed into 
the CISP Program. The Court continues to experience an influx of crack 
related cases; therefore, youth with crack related offenses are 
eligible for CISP. Sex offenders are not eligible for the CISP Program.
    Since the CISP Program is neighborhood based, a youth must live in 
one of the designated neighborhoods to be placed in CISP. Youth remain 
in their own communities and are introduced to positive community 
resources. Placement into the CISP Program must be court ordered by the 
Judge.
    Each of the CISP centers will have very distinct referral 
boundaries. In order for a child to be committed to the CISP Program, 
he must live in one of the identified neighborhoods. The geographic 
boundaries for each of the centers will be identified by census tract.
    The GARFIELD Center will include the following census tracts, 
neighborhoods and zip codes:


------------------------------------------------------------------------
           Census Tract                Neighborhood          Zip Code
------------------------------------------------------------------------
30802, 30804, 30806, 30809, 30903  Bloomfield                     15224
30810.98.........................  Bloomfield                     15224
30601, 30603, 30604..............  Lower Lawrenceville            15201
30901, 30902.....................  Central                        15201
                                    Lawrenceville
31011............................  Upper Lawrenceville            15201
31018, 31005.....................  Stanton Heights                15201
30807............................  Friendship               15206/15232
31014.97; 31014.98...............  Morningside                    15206
31016, 3l017.....................  Garfield                       15224
31114............................  Garfield                       15206
31113, 31115, 30818..............  East Liberty                   15206
31102, 31106, 31111..............  Highland Park                  15206
31204, 31208.....................  Larimer                        15206
------------------------------------------------------------------------

    The HILL DISTRICT Center will include the following census tracts, 
neighborhoods and zip codes:


------------------------------------------------------------------------
           Census Tract                Neighborhood          Zip Code
------------------------------------------------------------------------
30101............................  Uptown                         15219
30103............................  Bluff                          15219
30201, 30203, 30302..............  Central Business               15219
                                    District
30305, 30314.....................  Crawford-Roberts               15219
30407, 30409.....................  South Oakland                  15213
30406, 30405, 30402, 30411.......  Central Oakland                15213
30404, 30403, 30507, 30810.97....  North Oakland                  15213
30501, 30511.....................  Upper Hill                     15219
30502............................  Middle Hill                    15219
30509............................  Bedford Dwellings              15219
30510............................  Terrace Village          15219/15213
30506, 30605.....................  Polish Hill (S. of       15219/15213
                                    Bigelow Blvd.)
------------------------------------------------------------------------

    The HOMEWOOD Center will include the following census tracts, 
neighborhoods and zip codes:


------------------------------------------------------------------------
           Census Tract                Neighborhood          Zip Code
------------------------------------------------------------------------
31201, 31202, 31203..............  Lincoln-Lemington-             15206
                                    Belmar
31207............................  Homewood West                  15208
31301, 31302, 31305..............  Homewood North                 15208
31303, 31304.....................  Homewood South           15208/15221
31405............................  Point Breeze South             15208
55650, 55651.....................  Penn Hills                     15235
55238, 55650.....................  Verona                         15147
------------------------------------------------------------------------

    The WILKINSBURG center will include the following census tracts, 
neighborhoods and zip codes:


------------------------------------------------------------------------
           Census Tract                Neighborhood          Zip Code
------------------------------------------------------------------------
31306............................  East Hills                     15221
55604, 55605.....................  Wilkinsburg South              15221
55611, 55612.....................  Wilkinsburg North              15221
55606, 55610.....................  Central Wilkinsburg            15221
55614, 55615.....................  East Wilkinsburg               15221
55151, 55152, 55153, 55154, 55155  Swissvale                      15218
55161, 55162.....................  Edgewood                       15218
55120, 55128, 55129..............  Braddock                       15104
55140............................  N. Braddock; Rankin            15104
------------------------------------------------------------------------

    The MCKEESPORT center will include the following census tracts, 
neighborhoods and zip codes:


------------------------------------------------------------------------
           Census Tract                Neighborhood          Zip Code
------------------------------------------------------------------------
55509, 55512, 55513 & 55519-55524  McKeesport                     15132
55031, 55032.....................  White Oak                      15131
54870............................  Dravosburg                     15034
55010............................  Versailles                     15132
54980............................  Liberty                        15133
55003............................  Port Vue                       15133
54993, 54994.....................  Glassport                      15045
------------------------------------------------------------------------

                        PURPOSES AND OBJECTIVES

    The purpose of the Community Intensive Supervision Program is to 
provide an alternative to institutionalization for youth under Court 
supervision who continue to commit delinquent acts and also serves as 
an aftercare facility for youth who have been successfully released 
from institutional placements. CISP objectives are as follows:
    1) To operate an intensive supervision program for repeat offenders 
in the community, which provides balanced attention between offender, 
community and victim.
    2) To successfully impact the recidivism of youth in CISP, thereby 
impacting the number of youth requiring institutionalization.
    3) To provide a real world learning experience in the community, 
rather than an artificial or sterile environment of an institution.
    4) To maintain Failure to Adjust discharges from CISP at no more 
than 2%.
    5) To make CISP effective enough to significantly impact the 
Court's overall institutional budget.

                          PROGRAM DESCRIPTION

    CISP operates in five community centers: Garfield, Hill District, 
Homewood-Brushton, Wilkinsburg and McKeesport. Each center has the 
capacity to program 30-35 youth for a total of 150-175 youth system-
wide. The centers are open seven days a week from 2:00 p.m. to 12:00 
a.m. Youth are normally in the center or participating in required 
activities from 4:00 p.m. to 10:00 p.m. All youth are supervised, 
monitored and held accountable twenty-four (24) hours a day.

                            PARENTAL SUPPORT

    All youth in the CISP Program live at home with their parent(s) or 
guardian.
    Parental involvement is vital to the overall success of a youth in 
the CISP Program.
    Parents are invited to be involved in all aspects of their child's 
participation in CISP.
    Youth are held accountable for their behavior and conduct while in 
their home under their parents' supervision. Parents are a vital link 
between the home, school and CISP.

                              SUPERVISION

    Upon admission to the CISP Program, all youth are confined to their 
house on house arrest under the direct supervision of their parents. 
Youth are permitted to attend school/work and CISP activities. Youth 
are given a predetermined amount of travel time to and from approved 
destinations. Parental involvement and support are of paramount 
importance to youth successfully completing program requirements. CISP 
staff work closely with parents regarding supervision issues.

                         ELECTRONIC MONITORING

    All youth placed in CISP are monitored by the BI-Home Escort series 
electronic monitoring system developed by BI Inc. based in Boulder, 
Colorado. This system has the ability to record all entries and exits 
from the youth's house by the youth. Each youth is assigned a 
transmitter, which is worn on the lower calf/ankle area. Each youth is 
assigned a monitoring device that communicates with the Command Center 
located at our Eastern District Probation Office through a standard 
phone line.
    The BI9010 transmitter incorporates state-of-the-art electronic 
technology. The transmitter is the size of a common business card and 
weighs only 3.8 ounces. It is waterproof and tamperproof. Included in 
this series of equipment is the BI9000 drive-by unit, which is a hand-
held monitor. It permits the electronic monitoring of clients by just 
driving by their home, school, place of employment, or in the 
community.
    The in-home monitoring system provides continuous, 24-hour a day 
coverage of youth in CISP. At any time, day or night, it can be 
determined if a youth is in his home. The only exception to this is 
youth committed to CISP for aftercare from institutional placements. 
These youth will not be monitored by the EMS system but are required to 
attend program every day at least the first thirty (30) days of their 
placement and receive curfew calls in the evening from the community 
monitors to ensure their accountability.
    The police have photographs of the youth on electronic monitoring. 
The police are provided with a court-authorized warrant to apprehend 
any CISP client that violates his house arrest. This violation can 
occur either by the client leaving their house during the hours of 
10:00 p.m. to 7:00 a.m. or if they tamper with their transmitter. One 
staff member, as well as one alternate from each CISP center, functions 
as an electronic monitoring system (EMS) specialist. Their duties and 
responsibilities include coordinating, activating and reporting on the 
electronic monitoring system for each center.

                           TREATMENT PROGRAM

    The major treatment issue in CISP is drug and alcohol education, 
assessment and treatment. All youth are involved in some aspect of 
Drug/Alcohol Programming.
    Youth are involved in individual counseling, group counseling, peer 
counseling and family intervention, CISP staff operate out of a Reality 
Therapy approach; however, the program is flexible enough to meet 
individual youth and family needs. Family support of CISP is vital; 
therefore, the youth's family is invited to participate in all CISP 
activities and programs. Daily contact is maintained with the youth's 
family to insure that the youth is complying with parental 
requirements.
    The primary treatment objective for each youth in CISP is to 
develop pro-social norms and behaviors. This is achieved through 
exposing the youth to numerous topical seminars and educational 
programs. CISP staff facilitates these programs; however, outside 
speakers and experts are utilized when needed.
    Every aspect of the CISP Program is designed to change negative 
behaviors through education and through positive role models.

                             DRUGS/ALCOHOL

    Substance use, abuse and dependency continue to have a devastating 
impact on inner-city communities. Crime, unemployment, family 
dysfunction, and other mental health issues are all exacerbated by the 
use of alcohol, tobacco, and other drugs. The youth in these areas 
often suffer the most. The majority of CISP clients have been adversely 
influenced by the drug culture. Whether they were enticed into drug 
sales, drug usage, live with addicted parents, or all of the above, 
they have been victimized as a result of the influx of drugs (legal or 
not) into their neighborhoods.
    The CISP Substance Unit is aware of these issues and addresses them 
via a continuum of care. The unit operates a prevention program in each 
area it serves offering information and support to local schools and 
community groups. Secondly, the unit conducts a series of educational 
groups with CISP clients on drug use, and evaluates each youth's 
involvement with drugs. A key tool in the assessment of all clients is 
the Roche On-Trak urinalysis, which is randomly administered. Upon 
completion of the assessment, a referral is made to the appropriate 
level of care; prevention and outpatient treatment are given by CISP 
Substance Abuse Counselors; inpatient treatment or residential care if 
done by other providers who are partners with the program. Lastly, the 
CISP Substance Abuse Unit is able to provide aftercare services to 
youth as they return from various treatment facilities.

                              SCHOOL/WORK

    Youth placed in the CISP Program are permitted to continue 
attending school and are also permitted to work. All youth in this 
phase of the program are held accountable for daily attendance and 
performance. Youth attending school are required to have their teacher 
sign the youth's daily attendance log. CISP staff also maintains close 
contact with school attendance officials. Additionally, CISP staff work 
closely with school officials on performance and discipline issues. For 
the most part, youth remain in the same school they are attending prior 
to placement in CISP. This allows for continuity for the youth and 
school officials. CISP youth have the same educational opportunities 
that all other Pittsburgh School District youth enjoy.
    Specialized educational programs (Options Center, Allegheny 
Intermediate Unit) are utilized when and where appropriate. These 
services are utilized for school suspensions, tutoring, evaluation, and 
youth advocacy.
    Part of each day in the CISP Program is dedicated to learning, 
homework or other educational activities. Through the efforts of the 
Allegheny Intermediate Unit a tutor is providing educational services 
in each CISP Center on a daily basis. Where possible, outside resources 
are used; however, CISP staff is directly involved in educational 
activities.
    As mentioned, youth are permitted to work while in the CISP 
Program. When a youth has a job, his hours and travel requirements are 
verified prior to working. If a youth owes restitution, he is required 
to make regular payments through the Juvenile Court Restitution 
Department.

                               RECREATION

    Recreation is a very important component the CISP Program. This 
area helps youth to have the opportunity to develop and promote 
structured recreational activities, physical education activities and 
cultural activities. These goals are met by teaching these youth 
appropriate recreational skills, sportsmanship, and socially acceptable 
behavior in the community.
    The CISP Program schedules a series of recreational, physical, 
educational and cultural activities several days a week in each center. 
The length of the activity depends on the other scheduled activities in 
each Center each day. Every child in the CISP Program participates in 
these activities depending upon their individual situation. 
Recreational activities include, but are not limited to, memberships in 
the Boys Club, YMCA, and the use of City and/or County parks 
recreational facilities, ball fields and swimming pools. The Centers 
also make arrangements with local movie cinemas, museums, libraries, 
sporting events, and various recreational and cultural activities and 
events throughout the City of Pittsburgh.

                           COMMUNITY SERVICE

    Community service is an integral component of the CISP Program. All 
youth participating in CISP are required to perform community service.
    The primary purpose of community service is to hold offenders 
accountable for their actions by requiring them to perform community 
service as a way of symbolically ``paying back'' the community for the 
wrong they have done. Community service projects most often occur in 
the youth's neighborhood. However, occasionally youth are involved in 
major City of Pittsburgh events, such as the Great Race. The youth can 
also be involved with nonprofit organizations like hospitals, but most 
often, they are working on community activities. Community 
organizations and Pittsburgh Clean City Committee, Inc. are utilized to 
identify community projects.
    The CISP Program, through its community service effort, can help 
preserve and maintain the local environment and give needed assistance 
to those public, private, nonprofit and community-based agencies that 
depend on volunteer help. Offenders gain positive work experience and 
by ``volunteering'' they gain some inner satisfaction from knowing 
their work is appreciated by the community.

                            SMOKING/TOBACCO

    For many years now, the Surgeon General's Office and other health 
organizations have clearly spelled out the major hazards of smoking and 
using tobacco products. The addiction of smoking is a major concern of 
the CISP Program. The Community Intensive Supervision Program will not 
permit youth to use any tobacco products while under direct 
supervision.
    As positive role models to youth, CISP staff are not permitted to 
smoke or use any tobacco products while on duty.

                           SANCTIONING SYSTEM

    Youth who are noncompliant with CISP program rules and expectations 
are sanctioned by short-term placement in a ``backup'' unit or by going 
to Shuman Detention Center. The ability to remove a youth temporarily 
from his home due to program violations is absolutely vital for a 
successful program. Youth and families must understand that 
participation in CISP is an alternative to long-term placement in a 
residential program; therefore, negative behavior results in serious 
consequences for the youth and swift and firm action from CISP staff.

                                 STAFF

    Each center has a staff of fourteen (14). By job title they are as 
follows: Center Supervisor; Assistant Supervisor/Casework Manager; 
Secretary; Substance Abuse Counselor; nine (9) Community Monitors; and 
one (1) part-time Community Monitor. This staffing pattern is necessary 
in order to provide seven-day coverage. When possible, staff members 
were selected from the communities where they will work. This was done 
in order to provide youth with positive adult role models from their 
own communities. Most staff in the program work an eight-hour shift 
from 3:30 p.m. to 11:30 p.m.
    The supervisors and assistant supervisors have a minimum of a 
Bachelor's Degree, and the community monitors have a minimum of a high 
school diploma; however, most of the monitors who were hired have some 
post-secondary education; several have a Bachelor's Degree.
    There are two program coordinators and a program manager to handle 
all the administrative duties of the program. These positions require a 
minimum of a Master's Degree.

                                RESEARCH

    The CISP Program was evaluated by the National Center for Juvenile 
Justice, which is located in Pittsburgh, from 1990-1992. The National 
Center is the Research Division of the National Council of Juvenile and 
Family Court Judges, which is located in Reno, Nevada.
    The Program was evaluated on three levels:
    (1) Qualitative/Formative;
    (2) Quantitative/Descriptive; and
    (3) Community Reaction.
Qualitative/Formative
    This portion of the evaluation was largely descriptive and designed 
to chronicle the start-up and operation of the program.
Quantitative/Descriptive
    This section of the evaluation systematically gather information 
which was coded and analyzed to produce a picture of the client 
population, the results of the classification and selection process, 
the amount and type of program intervention, instances of violations, 
client outcome and costs.
Community Reaction
    This portion of the evaluation examined how well CISP has been 
integrated into the various communities. The employment of indigenous 
community workers, locating centers in neighborhoods, conducting 
community service projects, and involving local services are all 
designed to actively involve the community in participating in and 
accepting the program.
    The CISP Program has also been evaluated by Duquesne University 
Graduate Center for Public Policy. This research involves a follow-up 
evaluation of youth from CISP who successfully completed CISP from 1990 
to the present. This research has been conducted by Norma Feinberg, 
Ph.D., Gail Stevens, Ph.D., and Charles Hanna, Ph.D. from Duquesne 
University. A summary of the data revealed that 55% of the successful 
program participants did not recidivate (arrest) in either the juvenile 
or adult systems.
    The CISP Program is also participating in research being conducted 
by the National Center for Juvenile Justice as Allegheny County 
Juvenile Court was one of four jurisdictions selected from applicants 
across the United States to participate in the Accountability Based 
Community Intervention (ABC) Program. The program purpose is to develop 
a system-wide strategy of intervention, treatment and rehabilitation 
for juvenile offenders in Allegheny County. The project includes a 
systematic review of Allegheny County Juvenile Court's service needs to 
identify gaps or areas that need increased attention and to create a 
plan for developing and implementing these services (Strategic Plan 
1996-1999).

                         PROGRAM OPERATION COST

    The CISP Program is jointly funded through grants and county 
dollars. If the CISP Program is operating at full capacity, the per 
diem is $64.00. Comparison of this per diem with the cost of 
institutionalization, which averages approx. $265 a day depending upon 
where the youth would be placed, obviously results in a significant 
cost savings.
                                 ______
                                 

                        CISP 2006 Annual Report

    The CISP Program continued to grow and develop in 2006 in terms of 
the number of youth served and the continuation of an aftercare 
component for youth being released from institutional placements. CISP 
continued to strive to fully implement the Balanced and Restorative 
Justice Philosophy by giving balanced attention to the offender, 
community and the victim.
    The CISP Program continues to operate from five neighborhood center 
locations. The three original community locations in Garfield, Hill 
District and Homewood have been open since the start of the program in 
1990. The fourth location in Wilkinsburg opened in April 1994, and the 
fifth location in McKeesport opened in July 2001.
Staffing
    The CISP staff experienced relatively minor turnover in 2006. There 
were several promotions, new hires, resignations and transfers to other 
departments in Juvenile Court in 2006.
Staff training
    Training during 2006 consisted of several training sessions for the 
entire CISP staff as well as individual training sessions for various 
staff members. In 2006 various CISP staff and supervisors attended the 
following training and staff development sessions:
    CISP Annual Workshop--Working with Families; Probation Officer 
Workshop focusing on Cultural Diversity; Restorative Community Justice 
Forum, Basic Principles of Restorative Justice; Self-Defense; Senior 
Monitor Role and Responsibilities; Safety Awareness; Handcuff 
Recertification; CPR and First Aid; Youth & Law Enforcement Forum; PA 
Conference on Juvenile Justice; Single Parents; Youth and the Internet; 
Summit on Racism; and several computer trainings in word, excel, 
outlook and power point. AIDS/HIV, Victim Sensitivity--A Body in 
Motion; Support Staff retreat, Working with African Males from High-
Risk Environments; Group Counseling; Examining Urban Subculture & 
Delinquent Youth and Motivational Interviewing.
    Training continues to be viewed as an important function for the 
continued success of the CISP Program. Training was facilitated through 
our training supervisor, Ron Seyko, and the CISP Supervisors and 
Program Coordinators. Each CISP employee is required to attend at least 
(20) hours of training. The Supervisors, Probation Officers and Drug 
and Alcohol Counselors are required to obtain (40) training hours.
BARJ involvement
    In 2006, CISP continued to serve as one of the three model 
demonstration sites in the U.S. to participate in the Balanced and 
Restorative Justice Project (BARJ). The BARJ model provides an 
effective framework for developing responsive juvenile justice system. 
Restorative justice, as a guiding philosophical paradigm, promotes 
maximum involvement of the victim, offender and the community in the 
justice process. Victim panels, which were started in 2004 and 
sponsored by the Victim's Center, were continued in 2006. CISP and 
Victim's Center held three victim panels in 2006 in Wilkinsburg, 
McKeesport and the Hill involving all five CISP centers. George Kinder, 
CISP program Coordinator continued as a member of the Community 
Education Initiative Committee for Allegheny County Juvenile Court, 
which met monthly in 2006. This committee plans and coordinates BARJ 
community activities and events throughout the year for Allegheny 
County Juvenile Court. The main objective of the committee in 2006 is 
the planning and coordination of activities during Juvenile Justice 
Week. This committee sponsored several activities and events during 
Juvenile Justice Week including the Juvenile Court Open House, BARJ 
Forum, BARJ essay and poster contest and a recreational activity with 
delinquent youth. This committee also sponsored a play called ``Body in 
Motion'' in May 2006 depicting the impact of crime on victims in a 
theatrical setting. Over 500 juvenile justice professionals, juvenile 
offenders, victims and community members attended this event.
    CISP was mentioned in a Pgh. Post Gazette article dated 12.4.06 
regarding juvenile justice. It stated, ``Allegheny Co. also uses the 
CISP program, an after-school and weekend program, that enables teens 
to complete community service work ordered by judges.
    In June 2006, Kim Booth and George Kinder help organize and 
facilitate BARJ training in Westmoreland County on Community 
Restorative Justice for ten counties in Western Pennsylvania.
Restitution
    Restitution is a process whereby a juvenile offender makes either 
monetary payment to the victim, provides service to the victim, or 
engages in community service work. Restitution provides the court with 
a dispositional alternative for juvenile offenders that are both 
constructive and appropriate for the offense. The types of restitution 
services are:
    Monetary Restitution--financial payment directly to victim.
    Community Service--symbolically paying back the victim thru service 
to community.
    The anticipated result of restitution is to bring about an 
increased sense of responsibility to juvenile offenders for their 
delinquent acts and to restore the victim or community through 
financial repayment or service in the community.
Financial Restitution Collected in 2006
    In 2006, the CISP program continued to make a good effort to 
document and collect financial restitution in each of the five CISP 
centers. The following is the total amount paid by youth committed to 
their respective CISP center:
Homewood................................................       $5,397.42
Wilkinsburg.............................................       $3,314.38
McKeesport..............................................       $2,724.00
Garfield................................................       $1,317.50
Hill....................................................       $1,314.50
Total restitution.......................................      $14,067.80
                              restitution
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Community service in 2006
    Community service continues to be an excellent learning experience 
for CISP, and community members continue to express very positive 
comments regarding these types of community projects performed by CISP 
youth. Several community service projects in all five CISP centers are 
now counted on as a regular service to these communities. CISP 
continues to participate in yearly community service projects. Each 
youth in the CISP program is required to complete 100 hours of 
community service for regular program and 50 hours for aftercare before 
he is positively discharged from the program. In 2006, youth in all 
five CISP centers completed approximately 17, 200 hours of community 
service.
    This involved such projects as cleaning lots, painting houses, 
cleaning streets, distributing community newspapers, shoveling snow, 
cutting grass, moving furniture and set up and clean up at community 
festivals. Here's a highlight of some of the major community service 
projects in each of the five community centers in 2006.
                       garfield community service
    Jan &-Feb.--painted Women's Shelter on the North Side.
    May 20--passed out over 500 computers at Langley High School.
    August 18--set up and cleaned up for the CYF Annual Picnic at 
Schenley Park.
    Nov. 7--Roll to the Polls--transported eighteen (18) senior 
citizens to vote.
    Dec. 14--Toys for Tots--passed out toys to needy children in the 
East Liberty community.
                    hill district community service
    Throughout the year--Parental Stress Center-completed such projects 
as painting, cleaning floors and carpets, moving furniture, set-up the 
library, set-up for Easter celebration; wrapping gifts for Christmas; 
and set up and tearing down tables and booths.
    Aug.12&13--NAACP--set up for community festival that lasted for the 
weekend at Mellon Park. Clients painted children's faces and played 
games with them; cleaned up the park after the event.
    November--B-PEP--clients passed out flyers and stuffed envelopes.
    Every Tuesday--Beulah Baptist Church Food Bank--clients unloaded 
trucks and helped with organizing the packages.
                       homewood community service
    Jan.-Dec--Mt. Ararat Baptist Church Meal Ministry--prepared and 
distributed meals to senior citizens in the community.
    Jan.-Dec.--Boys & Girls Club serving as youth counselors.
    Jan.-Oct.--Community clean-up within the Homewood area.
    December--Kwanzaa Celebration--youth facilitated a community-wide 
Kwanzaa celebration for the public.
                      mckeesport community service
    Every Tuesday & Thursday--Glenshire Woods Nursing Home--clients go 
there to interact with the elderly residents. McKeesport CISP also has 
clients who work there because of the relationship between the program 
and the weekly visits to the home.
    Every Saturday--Angora Gardens--clients work off required community 
service hours while working to keep the Angora Gardens looking nice.
    Jan thru April--helped paint women's shelter on the North Side.
    Summer 2006 (every Tuesday)--Motor Dome Speedway--clients cut grass 
and painted grandstand at the race course
    Oct. 7--AIDS Walk--City of McKeesport--client participated in this 
annual event to get information on AIDS awareness; all five CISP 
centers participate.
                     wilkinsburg community service
    Jan.-March--painting project at Women's Shelter on the North Side.
    May-Nov.--Turner Football Field--regular clean-up and maintenance.
    June&Aug.--painted and cleaned up at Lincoln Community Center in 
Penn Hills.
    Nov. 7--Roll to the Polls--took elderly people to the polls to 
vote.
    Every weekend clean and sweep PAT Bus way.
    Dec.--Toys for Tots--passed out toys to needy children.
Victim awareness group progress
    Victim Awareness Groups were started in the CISP Program in each 
center in June 1996. A new curriculum was implemented by all four CISP 
Centers in February 1999 and implemented at the fifth CISP Center in 
McKeesport in 2001. This curriculum was designed by William E. Sarbo 
and Valerie R. Bender for the Center for Victims of Violent Crime under 
a grant from the Pennsylvania Commission on Crime and Delinquency. The 
CISP staff received updated training on this curriculum in 2004. Each 
CISP center holds separate meetings, which are facilitated by a victim 
awareness specialist from each center. These meetings involve a total 
of 15 hours. This curriculum teaches the impact of victimizing others.
    In 2006, these victim awareness groups continued to be facilitated 
in each of the CISP centers on an ongoing basis. The CISP will continue 
to fully implement the goals of the Balanced and Restorative Justice 
within the program and strive to improve their services with the 
victim, community and the offender.
    In 2006, CISP continued the practice of conducting exit interviews 
for youth who successfully completed the program. During the exit 
interviews the youth answer questions concerning BARJ principles and 
victims' issues. The victim's center and CISP staff continue to 
facilitate these exit interviews assisted by community representatives.
    Also in 2006, CISP continued to refer certain cases to Pittsburgh 
Mediation Center for face-to-face meetings between the offender and 
victim in selected cases.
Awards and celebrations
    In July 2006, CISP held a 16-year anniversary picnic at North Park. 
All CISP center staff, court staff, youth and their family members 
attended. Activities included a full picnic style meal, softball games, 
and relay races, swimming at North Park Pool and interaction and fun 
all day.
    In October 2006, the CISP presented a cash donation in the amount 
of $510 to the Center for Victims of Violence and Crime, Executive 
Director, Stephanie Walsh, at a presentation during Juvenile Court 
Week. CISP participants from all five centers conducted a carwash and 
donated the proceeds to the Center as part of a restorative justice 
project. This was the 7th year for this event and CISP has risen over 
$7500 since that time. Also, several CISP youth won awards during 
Juvenile Court Week for their BARJ related posters and essays.
    In August 2006 during the Annual CISP Training Workshop held at 
Hosanna House Re-Treat Center; staff with 15, 10 and 5 years of service 
were featured and recognized.
Drug and alcohol component of CISP
    The CISP Program recognizes the prevalence of drug and alcohol 
abuse in its target communities as well as the severity of the 
consequences of substance abuse for CISP clients. As a result, the 
program continues to address these issues on two levels:
    1) Prevention/Education
    2) Outpatient Intervention
Substance abuse prevention
    The objective of the CISP D&A prevention program is to provide D&A 
education to youth within an educational setting or community center. 
CISP collaborates with local school or community center officials in 
targeting at-risk youth. The CISP's intention is to implement 
curriculum that will educate youth about the potential consequences of 
drug and/or alcohol use. CISP encourages elementary and middle school-
aged youth to make positive choices that will be a deterrent for drug 
and/or alcohol usage.
    The CISP Drug & Alcohol Unit provides prevention service in the 
catchments areas within the five neighborhoods where the centers are 
located. The prevention targeted population is youth between the ages 
of 6-13. The community schools that are serviced by CISP are Turner 
Elementary (Wilkinsburg), Arsenal Middle School (Garfield) and Miller 
Elementary (Hill District).
    CISP prevention curricula focus primarily on drug and alcohol 
education and social skill development. Drug and alcohol education will 
include: pharmacology, mental, social, emotional and legal 
consequences. Social skill development will include: self-awareness/
acceptance, values clarification, sharing/inclusion, anger management, 
conflict resolution and decision-making.
Substance abuse intervention
    The Substance Abuse component of the CISP Program is based on two 
premises. The first premise is that there is a very high correlation 
between delinquent behavior and substance abuse among adolescents. The 
second premise is that traditional treatment has been largely 
ineffective for delinquent and minority children. Therefore, the 
substance abuse staff provides intervention that addresses the unique 
concerns of our clients from a culturally specific framework.
    The CISP Substance Abuse staff provides youth with the opportunity 
to make better, more informed choices about drug and alcohol use 
through improved problem solving and refusal skills, as well as 
alternatives to drug dealing. Additionally, CISP holds clients 
accountable and personally responsible for their behavior through 
natural consequences, including referrals to long-term placements or 
more restrictive treatment environments when necessary as well as 
sanctions.
    CISP Substance Abuse Intervention provides two levels of services. 
They are Education/Assessment and Outpatient Intervention for those 
CISP clients who exhibit issues related to substance abuse.
    Assessment:
    Consists of the evaluation of all new clients including a 
psychosocial history of the adolescent and his family, diagnostic 
interviews, and the completion of the assessment package.
    Intervention:
    Involves assigning clients to the most appropriate tract, no 
intensive or intensive drug and alcohol outpatient, or in extreme 
cases, referral to an inpatient facility. Placement in this phase is 
based on drug and alcohol history, family history, and the client's 
ability to maintain abstinence while in the CISP program. Outside 
referrals are made by D&A counselors in conjunction with the CISP 
treatment team for those clients who exhibit a higher level of drug and 
alcohol care.
    During this period, group norms and expectations are established 
that allow the group to become a therapeutic community. At this stage, 
all clients have individualized treatment plans and participate in a 
16-week drug and alcohol educational group curriculum. Intervention 
includes individual counseling, principles of group psychotherapy, 
behavior modification and reality therapy.
    CISP is in its eighth year of working in collaboration with of 
Narcotics Anonymous (NA) and the Hill House Association. All clients in 
the outpatient intervention tract attend weekly NA meetings. 
Additionally, many clients who have addicted parents are identified and 
taken to Children of Alcoholics (COA) support groups. The CISP 
Substance Abuse Unit continued to sponsor weekly NA (Narcotics 
Anonymous) meetings in 2006 through the efforts of Patricia Rogers, D&A 
Unit Supervisor, with the assistance of NA. These NA meetings were 
specifically established for clients of the CISP program that have 
substance abuse issues, and these meetings are recognized by NA as part 
of its international fellowship.
    Aftercare:
    Upon completion of the intensive phase, an aftercare plan is 
devised to assist clients with their transition back into the 
community. Aftercare consists of establishing a positive support 
network to reinforce sobriety, developing a relapse prevention plan, 
and to aid the client in their recovery efforts. It also includes 
follow-up contacts on a bimonthly basis to determine each client's 
adherence to the recommended aftercare plans.
    The D&A unit began performing mental health screens by tracking 
mental health clients entering the CISP program. The tracking involves 
identifying the client, the mental health diagnosis, the treatment 
provider, medication and current MH status. CISP tracked a total of 
ninety (90) mental health cases in 2006.
D&A assessments
    The total number of drug and alcohol assessments for 2006 were 174. 
There were a total of 194 commitments in CISP in 2006. Therefore, 
assessments were completed in 174 of the 194 commitments in 2006, which 
is 90%.
                          2006 d&a assessments
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    2006 D& A Assessments: The CISP D&A Unit completed a total of 212 
Educational Groups in 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Community involvement
    The CISP Program continues to receive visits from various Juvenile 
Court professionals from all over the country who wanted to obtain more 
information and visit the program in person. The CISP program received 
several visitors in 2006 from different agencies and courts throughout 
the country; there were also on-site visits from numerous new probation 
officers from Juvenile Court, new community monitors and student 
interns. They received an intensive eight-hour orientation and training 
about CISP and restorative justice.
    CISP supervisors, the program coordinators, the program director 
and other CISP staff continued to be involved with various community 
organizations and continued to be active participants in community task 
forces and meetings in 2006.
CISP program coordinators and CISP manager
    In 2006, George Kinder and James Tucker, CISP Program Coordinators, 
and Kim Booth, CISP Manager, were actively involved in several 
community meetings and committees.
            Court and Community Collaborative Committee
    George Kinder and Kim Booth continued to serve on this committee in 
2006. There were several meetings in 2006 throughout the state in 
Monroeville and New Stanton, Pa. The members of this committee are 
juvenile justice professionals, mental health professionals, community 
leaders, and faith-based leader's organizations. In 2006, this 
committee planned and sponsored the second community justice forums 
held in Westmoreland County in June of 2006. This purpose of these 
community justice forums is to provide technical assistance and 
practical applications to juvenile justice professionals throughout the 
state a working model to engage and include the community in the 
juvenile justice system.
            Computerized Forms Committee
    Kim Booth served on this committee in 2006. The purpose of this 
committee is to rewrite forms for the computer for standardized use by 
all Juvenile Court employees.
            Disproportionate Minority Contact Committee
    In October 2003, Kimberly Booth was selected to serve as member of 
the Disproportionate Minority Contact (DMC) Subcommittee of the 
Pennsylvania Commission on Crime and Delinquency's (PCCD) Juvenile 
Justice and Delinquency Prevention Committee (JJDPC). The committee was 
established to assess and address the over-representation of minority 
juveniles in Pennsylvania's juvenile justice system, especially secure 
juvenile facilities.
    This committee completed a very successful training workshop on 
police community relations in October 2006. In 2006, this committee 
continued to meet regularly to plan additional strategies and training 
workshops with the focus on police work with minority youth.
            BARJ Community Education Initiative Committee
    In 2006, George Kinder continued to participate on the BARJ 
Community Education Initiative committee chaired by Connie Przybyla. 
This committee started in 2003 and has met monthly since that time. The 
purpose of this committee is to create community awareness and provide 
educational activities regarding restorative justice in the community. 
In 2006, this committee sponsored several activities during Juvenile 
Justice Week in October 2006 including a BARJ Forum, Open House, BARJ 
poster and essay contest, and several recreational activities for 
youth. The BARJ forum was facilitated by court director Jim Rieland and 
involved a presentation by police officer and school official on 
Internet crime.
            B-Pep (The Black Political Empowerment Project)
    James Tucker, CISP Program Coordinator, continued to serve as an 
advisory board member with B-Pep to help coordinate the registration 
and transporting of elderly, minority and disadvantaged citizens to 
vote.
            Hill District Community Collaboration Committees
    James Tucker was an advisory board member for Male Coalition, 
Cultural Policy Council, and Anger Management services for Center for 
Family Excellence. He also was an advisory board member for the Hill 
District Community Consensus Group, Hill District Community 
Collaborative Corporation, and the Store Front Initiative.
Garfield CISP
    Garfield CISP continues to be actively involved with numerous 
community organizations; however, the Bloomfield-Garfield Corp (BGC) 
continues to be their main community focus, and after 17 years, this 
relationship is still flourishing. This past summer the youth 
participated in a summer youth employment program sponsored by the BGC. 
These youth were provided with a paid work experience for doing various 
physical and human services work in and around the Garfield community. 
PO Monique Powell recently resigned her position as an active BGC board 
member after serving for eight years. PO Jan Adams will replace her in 
2007. In addition to working for Garfield CISP, Jan is also a community 
resident. The following is a list of other community contacts and 
activities made by members of Garfield CISP:
    Apangea Program--10 youth participate in this computer program 
which is an on-line after school tutorial program in math.
    Tree of Hope--a grass roots victims program with an emphasis on 
helping the children of murder victims. In Sept 2006, escorted two 
vanloads of children and their parents to K-Mart to shop for school 
clothing.
    Opening of new gym in the East Liberty community--community member 
Ed Ackrie with the assistance of Garfield CISP were very active in 
helping to set up this gym. It is now open to the community with free 
weights, a boxing ring, and other exercise equipment.
Hill district CISP
    In the Hill District staff continued its membership with the Hill 
District Community Collaborative Corp; Center for Family Excellence 
Cultural Policy Council; Zone 2 Public Safety Meetings; Hill House 
Assoc. Consensus Group Meetings re: recreation, beautification and 
safety issues; and numerous other community organizations. The 
following is a list of community activities and contacts made by 
members of the Hill District CISP:
Abraxas Workbridge--employment initiative program
Boys and Girls Club--employment--Great Start Program.
Beulah Baptist Church--community service food bank.
Carnegie Library Hill Dist. Branch--friends of the library.
Center for Family Excellence--member of male coalition, cultural policy 
        council and anger management services.
Center for Youth & Families--community service, activities, festivals, 
        advisory board member.
Center for Victims of Violent Crime--youth support and community 
        service.
Head Start Program--distributed flyers for head start sign-ups.
Hill Dist. Community Consensus--advisory board member, storefront 
        project.
Hill Dist. Community Development--distribution of newsletter, info 
        mailings
Hill House Assoc.--Young Fathers Program, community meetings.
House of David--youth development programs.
INCS Holistic Educational Rehab Center--community service.
Life Works--initial assessment and evaluation of clients' mental health 
        services.
Maleness to Manhood--youth programs, computer training, community 
        service.
Mercy Behavioral Health--mental health services.
Northwestern Human Services--mental health services.
Parental Stress Center--young male programs/community service.
Penn State Cooperation Extension--nutrition classes.
Spectrum Family Network--family services.
Uptown Community Alliance--participated in community clean-ups & 
        membership.
WPIC--assessment & evaluation of clients; mental health services and 
        counseling; staff training; community service.
Zone 2 Safety Council--community safety and monitoring and membership.
Homewood CISP
    Barry McCrary and his staff were very active in community meetings 
and programs including the Homewood YMCA (Attending various meetings 
regarding community issues and employment), Westinghouse High School 
(making various presentations to students), and attending and 
participating in other community council forums. The following is a 
list of community contacts and meetings Homewood CISP staff made during 
the year:
Boys and Girls Club--provided job opportunities for youth.
Ethnan Temple Seventh Day Adventist Church--collaborated and provided 
        space to hold the Maleness to Manhood meetings open to the 
        public.
Hosanna House--utilized services provided by the Fatherhood Initiative 
        Program.
Mt. Ararat Baptist Church--community service by working in the meal 
        ministry and delivering food to senior citizens.
Wilkinsburg Community Ministry--picked up used furniture for less 
        fortunate members of the community.
McKeespost CISP
    The center supervisor, John Fiscante, has maintained an active 
working relationship with the City of McKeesport and the McKeesport 
Collaborative. The following is a list of community activities and 
contacts made by members of the McKeesport CISP center:
Abraxas WorkBridge--provided community service, employment and 
        educational opportunities.
Auberle Home--teen parenting counseling.
Center for Victims of Violent Crime--administered tests to clients upon 
        release from program.
City of McKeesport/McKeesport Task Force/Neighborhood Initiative--
        contacts in the community for lawn care and snow removal for 
        the elderly; involved us in city-wide projects, such as 
        Environmental Day.
Community Accountability Panel--attended panel hearings.
Creative Ministries/Triumphant Prayer Ministries--provided community 
        service, spiritual and mentoring services.
Boys & Girls Club/Salvation Army--provided mentoring, employment 
        opportunities and mentoring services.
McKeesport Collaborative--provided community service, mentoring and 
        educational services.
Glenshire Woods Nursing Home--provided employment opportunities and 
        community service.
McKeesport Collaborative--did community service and attended AIDS walk.
McKeesport Housing Authority--use of Crawford Rec Center for gym during 
        CISP basketball league.
McKeesport Weed & Seed/NAACP--provided community service opportunities.
Mon Yough--provided community service projects at Angora Gardens.
Wilkinsburg CISP
    The following is a list of community activities and contacts made 
by members of the Wilkinsburg CISP center staff and their supervisor, 
Ginger Kinsel:
Spectrum Family Network--provided clients and parents with anger 
        management counseling and other issues.
Boys & Girls Club--provided clients with employment opportunities.
Allegheny Intermediate Unit--provided alternative education to 
        students.
Community Connections for Families--works with mental health clients in 
        the Wilkinsburg School District.
WorkBridge--provided clients with a work experience in order to pay 
        their restitution.
Project Life--provided counseling services to clients.
Drug and alcohol unit
    Patricia Rogers, D&A Supervisor, and her staff Earnest Frazier 
(Hill), Jennifer Thompson (McKeesport), Taryn Simko (Wilkinsburg) and 
Marvin Randall (Garfield) were actively involved in the following 
community activities and initiatives:
Juvenile Justice Week--held information tables, which provided drug and 
        alcohol education and program overview at the open house during 
        Juvenile Court Week.
(CLEAR) Coalition of Leadership, Education and Advocacy for Recovery--
        Patricia Rogers met with other members of CLEAR to develop 
        strategies to enhance community awareness of the extent of 
        alcohol, tobacco and other drug use and its consequences.
Take Your Daughter to Work Day--the CISP D&A Unit volunteered and 
        distributed D/A information during this event.
Housing Authority Clean Slate--this community collaborative focused on 
        drug-free communities in Allegheny County.
Allegheny County Air Show--CISP staff took the youth on a field trip to 
        the Air Force Air show.
Boys Scouts of America--participated in this year's summer outreach 
        camp and educated youth on drug & alcohol prevention / 
        awareness.
Sandcastle Water Park--CISP program enjoyed a day of summer fun.
Summer Curriculum--the CISP Drug & Alcohol Unit since 2001 started 
        collaboration with Allegheny County Jail, Allegheny County 
        Coroner's Office and the Adult Drug Court for a series called 
        ``Jail, Institutions and Death.'' This six-week summer 
        curriculum was designed to expose the CISP clients to the real 
        life and times of chemical dependency and the harmful 
        consequences.
National Adoption Day--Supervisor Patricia Rogers volunteered and 
        participated in this special event.
Mt. Ararat Baptist Church--presentation at the Hill CISP by Rev. 
        Benjamin Calvart on Strengthen and Healing Communities.
Recreation and cultural activities
    Recreation and cultural activities continue to be an important 
component of the CISP Program. These activities allow youth to have the 
opportunity to develop and promote structured recreational, physical, 
educational, and cultural activities. These goals are met by teaching 
youth appropriate recreational skills, quality of sportsmanship, 
exposure to cultural events, and socially acceptable behavior within 
the community.
    The CISP Program continues to schedule a series of recreational, 
physical, educational and cultural activities several days a week at 
each center. Recreational activities within the community in 2006 
included, but were not limited to: Pitt football and basketball games; 
Pirate baseball; 2006 MLB All-star Baseball Game; Penguins hockey; 
Cleveland Cavaliers; Steelers Football; Showcase Cinemas; Idlewild 
Park; Harmarville Hoops; Sandcastle; Kennywood Park; Fright Fest 
Station Square; Hartwood Acres Festival of Lights; and use of city 
public schools' recreational facilities and county ball fields. Also, 
several prison tours were conducted.
    In 2006, CISP continued to utilize Tickets for Kids for ticket 
donations to various recreational and cultural activities. This been a 
major source of funding for recreational activities for the CISP 
program.
    In February 2006, George Kinder, Program Coordinator, started and 
organized an intramural basketball league for CISP, along with two 
other community teams including East Presb Church and The House a team 
from Homewood at the Crawford Village gym in McKeesport. The season 
consists of eight weeks of regular intramural basketball games from 
Feb. until April 2005, which concluded with playoffs. East Pres Church 
from East Liberty finished in first place and the CISP All-star team 
finished in second place. An awards ceremony and pizza party was held 
at the gym after the finals. Trophies were given to 1st and 2nd place 
team. CISP started and organized an all-star team from the CISP Centers 
and played several games against the two other community teams.
    In May 2006, George Kinder, Program Coordinator, Larissa Mackey 
from Homewood and Lee Smith from Wilkinsburg CISP organized and 
facilitated the CISP intramural softball league. This involved all five 
CISP centers. The season consists of six weeks of regular intramural 
softball games from May until June 2006, which concluded with playoffs. 
The Wilkinsburg CISP center finished in first place and Hill CISP 
finished in second place. An awards ceremony and pizza party was held 
at North Park after the finals in June 2006. Trophies were distributed 
to the 1st and 2nd place teams and medals to all the teams who 
participated.
    Two new recreational activities were continued in 2006--a 
weightlifting contest held at Homewood CISP in Oct. 2006 and a ping-
pong tournament held at Homewood CISP in December 2006.
    Cultural activities continue to be a very important aspect of the 
CISP Program as it exposes the youth to various art, theatre and 
educational experiences in the community. These activities help shape 
positive social and moral values and foster a sense of community pride. 
Some of these activities were as follows: Great Blacks in Wax Museum; 
several plays at local theaters and churches; and all five CISP centers 
attended and participated in Black History Month activities in several 
schools and community centers throughout the five neighborhoods.
School involvement
    CISP staff continues to have a good relationship with all of the 
schools attended by CISP youth. These schools are visited daily by the 
school/aftercare community monitor specialists for data regarding 
attendance, behavior and academic performance by CISP youth. The staff 
also attends numerous conferences with parents and school personnel 
throughout the school year. CISP continues to place a high priority on 
the client's educational performance.
    The Allegheny Intermediate Unit (AIU) has been providing 
educational services to CISP youth since CISP began. The services 
include testing, interim school placements, GED tutoring, and classes 
for youth who are suspended. AIU continues to provide a tutor at each 
CISP center for approx. an hour and a half Monday thru Thursday. These 
tutors help youth with homework and often assign additional work to 
strengthen any weak areas. Tutoring services in the CISP centers are 
now being paid through the CISP operational budget.
    The School/Aftercare Community Monitor continues to be responsible 
for monitoring the school attendance/performance of the CISP students. 
These staff also have the additional responsibility of providing 
aftercare services to youth who have been committed to CISP after their 
release from an institution.
    The School/Aftercare Community Monitor Specialist in each CISP 
center monitors the daily attendance, obtains grades, behavioral 
reports, and attends and participates in school conferences with school 
counselors, vice principals and principals. Each school specialist 
covers a geographic area that encompasses several schools in their 
neighborhood CISP center. During the summer months, the School/
Aftercare Community Monitor Specialist monitors and facilitates clients 
who obtain summer employment and helps to monitor the community service 
projects in their center. Their duties also include supervision of the 
aftercare clients in each of their respective centers.
Electronic monitoring
    One staff member, as well as one alternate, from each CISP center 
continues to function as an Electronic Home Monitoring (EHM) 
Specialist. Their duties and responsibilities continue to include 
coordinating, activating, and reporting on the electronic monitoring 
system for each center.
    In 1998 CISP was able to obtain the ability to install the EHM 
system in clients' homes that previously did not have a telephone. This 
procedure involves the CISP program installing a telephone line and 
phone in these homes that enables the EHM system to function.
    Each CISP center continues to have the ability through the use of 
remote work stations to review their specific clients electronic 
``leaves and enters,'' as well as the client's overall compliance with 
their out-of-the-home approved schedules. These remote work stations 
are programmed through the electronic monitor's main computer hub 
located in the Eastern District Office. The main benefit of having the 
remote work stations is that it enables each CISP center to respond 
more efficiently and quicker by looking up their own client's 
movements, determine if the client violated or abided to their 
schedule, and have the ability to respond with real time consequences 
if a violation occurred.
Sanctioning
    In 2006, youth continued to be sanctioned in-house, at Shuman 
Detention Center, Allegheny Academy sanction unit, and Vision Quest 
Boot Camp. In-house sanctions included staying late in program or doing 
additional community service. Youth in CISP are sanctioned for 
violating program rules and regulations such as not attending school/
school suspensions, missing program at CISP, electronic monitoring 
violation, major behavior problems in center, positive drug/alcohol 
tests, etc.
                          2006 Sanction Stat's
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The positive rate for all tests is only 4.7%. This is a low rate 
given the fact 18% of the youth committed to CISP in 2006 were 
committed for a drug related offense.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

2006 Aftercare commitments
    During 2006, the CISP Program received (54) aftercare commitments. 
This represents 28% of all the 2006 commitments to CISP. The number of 
aftercare commitments by CISP center is as follows:
    In 2006 the 54 aftercare commitments to CISP were received from the 
following institutions:
    George Jr. Republic--17
    Abraxas--5
    Summit Academy--8
    Harborcreek--2
    Pressley Ridge--7
    VisionQuest--1
    YDC-New Castle--6
    YFC #3--1
    Adelphoi--6
    Bradley Center--1
2006 CISP Discharges
    In 2006, the CISP Program had 205 youth who were discharged.
    Positive Discharges: 144 youth or 70%
    Negative Discharges: 61 youth or 30%
            205 youth or 100%
    Discharge Percentages: Positive Discharges--70%; Negative 
Discharges--30%
    1) New Offense--5%
    2) Failure to Adjust--14%
    Of the total 322 youth served during 2006 only 15 (5%) committed 
new criminal acts while in the CISP Program.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

Second Chance: House-Arrest Program for Juveniles Finds That Community 
                  Service Helps Rehabilitate Offenders

        By Lillian Thomas, Post-Gazette; Sunday, August 07, 2007

    A few months ago, James Eversole was in a stolen car being chased 
by police. The friend who was driving wrecked it, and Eversole, 17, 
ended up before a judge. Eversole learned about his new life on house 
arrest with an anklet and a crew of adults breathing down his neck.
    One of the few places he was allowed to go was a McKeesport 
personal care home, where he was to put in community service hours.
    Now Eversole is an employee of Glenshire Woods Personal Care Home, 
serving coffee and setting tables for the senior citizens he's been 
playing cards with on Tuesday and Thursday evenings for the past 
several months.
    Eversole and three others hired by the home are in the Community 
Intensive Supervision Project, a house-arrest program started in 1990 
by the Allegheny County juvenile court system.
    An integral part of CISP is community service, said Jim Rieland, 
director of juvenile court services in Allegheny County. The program 
aims to make children who have broken the law understand the effects of 
their actions and to build up connections between them and others in 
their communities.
    Youth at all five CISP centers do 100 hours or more of community 
service, such as picking up litter or cutting grass, during their six 
to eight months in the program. The McKeesport center, started in 2001, 
has been strong in making community links, Rieland said.
    ``We require community service as a way for our clients to give 
back to the community they victimized,'' said John Fiscante, supervisor 
of the McKeesport center. He was interested in finding a way to create 
one-on-one relationships with residents.
    ``We tried to go around the community and find a place. At first we 
were unsuccessful,'' he said. But last year, he talked with the 
administrators of Glenshire Woods, who agreed to try evening visits 
from four or five of the center's youth each week.
    It was a bit awkward at first, but once the cards and checkers were 
broken out, the conversation started flowing, said David Herchelroath, 
probation counselor at the CISP center. The kids initially had to be 
badgered into going to Glenshire, he said, but now they all want to go. 
The Glenshire residents, who hadn't done much card playing before, now 
have the tables set up and are ready to start games of Tonk, 500 and 
Uno as soon as the boys walk in the door.
    ``Miss Mary, Miss Viola, Miss Karen, they are waiting for us when 
we come,'' said Derrick Stanford, 16, who was arrested on charges of 
using and selling drugs.
    Officials from both CISP and Glenshire were happy with the 
results--livelier seniors, kids forming bonds with older people in 
their community.
    A month or so ago, Fiscante and the center's administration began 
to discuss the possibility of hiring some of the boys to work there. 
Two--Eversole, 17, and Claude Sims, 16--are working there now as 
nutrition aides. They set and clear tables, serve beverages and help 
residents at mealtimes.
    Stanford and Tim Chavis, 16, will begin work shortly. All four are 
nearly done with the CISP program.
    Everyone involved is taking a risk. The personal care home, the 
court system, the supervisors of the CISP center and the boys all stand 
to lose if they blow it.
    A spokeswoman for the corporation that owns Glenshire said it was 
the first arrangement of this kind she'd ever heard of.
    ``We do work with other community organizations, like job corps, 
but this is the first one of this kind I'm aware of,'' said Holly 
Gould, director of communications for Glenshire Woods' owner, 
Milwaukee-based Extendicare Health Services Inc., which runs 440 
nursing homes, assisted living centers, rehabilitation clinics and 
retirement communities in the United States and Canada.
    Fiscante knows he's out on a limb. But the CISP philosophy is based 
on the idea that juvenile offenders are most likely to change their 
behavior permanently by being at home, closely supervised, rather than 
in a juvenile facility.
    Most ordered into the program are property offenders, Rieland 
said--``burglary, auto theft, misdemeanor retail theft, charges related 
to drugs, drug use and sales.'' Judges do not send those who have 
committed violent crimes or who are repeat offenders to the program.
    They are supervised 24 hours a day. They are permitted to be at 
home, at the CISP center, at school and at work if they have a job. At 
the McKeesport center, a staff of 14 supervises a group which ranges 
from 15 to 22 juveniles who live in the McKeesport Area School 
District.
    The boys report to the center every afternoon and are dropped off 
at home around 9 p.m. After that, center staff members make phone 
checks and home visits. The electronic monitoring devices the juveniles 
wear on their ankles let CISP staff know if they are anywhere they 
aren't supposed to be; violations show up on a computerized system that 
is monitored day and night.
    Police have photos of all the CISP youth in case they disappear. If 
they are in violation, they are taken to Shuman Juvenile Detention 
Center.
    Probation officers are involved in the program, which includes 
frequent group meetings to discuss problems or successes. There is a 
drug and alcohol counselor on staff, and the juveniles are regularly 
drug tested. They also pay restitution, where required, and write 
letters of apology to victims, where appropriate.
    ``We're trying to change everything,'' Fiscante said. Boys must 
respond with ``yes, sirs'' and ``ma'ams'' to all adults.
    During a card game last week, resident Viola Vano dealt and the 
game clicked along with the efficient ease of familiar routine. The 
boys talked to their older companions, leaning over to discuss the 
hands and play. They were routinely and consistently polite, minding 
their ``yes, ma'ams.''
    Gould, the spokeswoman for Extendicare, said that, because CISP 
itself is so unusual, she didn't expect to get more requests of this 
sort from other facilities.
    ``I think it's fairly unique. We will evaluate the success after a 
period of time. We are always looking for ways to bring people into the 
long-term care industry, and volunteering, to see if they are 
interested in the work, is a good way to do that.''
                                 ______
                                 

  Young Men in Trouble Reflect on Their Lives: Garfield Program Helps 
     Youths Deal With Their Crimes, Street Life and Absent Fathers

          By Ervin Dyer, Post-Gazette; Saturday, June 02, 2007

    Listen as young men in the CISP program discuss the absence of 
fathers in their lives.
    In a dimly lighted room in Garfield, there is a circle of 14 young 
men.
    Their voices are deepening, and the fuzz of new moustaches shades 
their upper lips. They are 13 to 18 years old, and each has an 
electronic monitoring device on his ankle. One by one, they stand to 
recount the positives or negatives of their week.
    In the circle, they stand before men like Rick Cokley, a broad-
chested overseer. He is both cheerleader and bullwhip.
    There is much that must be accounted for in the circle--school 
performance, community service, drug use. Mr. Cokley celebrates their 
good behavior and chastens them when they miss the mark.
    Linking behavior and consequence is a core part of the Community 
Intensive Supervision Program as it aims to keep youth offenders out of 
jail and to get them to take responsibility for their actions.
    CISP is run by the Allegheny County Court of Common Pleas. Its 
philosophy is that young offenders are most likely to change by being 
at home, closely supervised and mentored, rather than in a juvenile 
facility.
    Most are ordered into the circle because they are property 
offenders, charged with burglary, auto theft, misdemeanor retail theft, 
or have charges related to drugs.
    The electronic monitoring devices let CISP staff know if the 
juveniles are anywhere they aren't supposed to be; violations show up 
on a computerized system. If they are in violation, youth are taken to 
Shuman Juvenile Detention Center.
    Probation officers are involved in the program, which includes 
frequent group meetings to discuss problems or successes. There is a 
drug and alcohol counselor on staff, and the juveniles are regularly 
drug tested. They also pay restitution, where required, and write 
letters of apology to victims, where appropriate.
    Youth at all five centers do 100 hours or more of community 
service, such as picking up litter or cutting grass, during their six 
to eight months in CISP.
    The program served 322 youth last year: two-thirds of them were 
positive discharges, meaning they were placed on probation or released 
from CISP and their case was closed. The others came back into the 
system for committing new offenses or failing the program.
    In one corner of the Garfield center where the young men sit, there 
are vials of urine, waiting to be tested for drugs. In another, there 
is a ping-pong table and weight-lifting machines. Of the 14 young men 
in the circle, 13 are black. Ten of them have no relationship or very 
limited involvement with their fathers; 10 of the 14 say they know 
someone who's been shot; nine say they know someone who's been killed. 
Almost all raise their hand to acknowledge that they have struggled in 
school.
    The circle doesn't tell the story of every young black male in 
society, but its members reflect the circumstances of the 3 million 
inner-city black males who scholars say seem to be especially affected 
by poverty, street life and social alienation.
    And in Pittsburgh, a city with double-digit rates of unemployment 
for black males, a small black middle class that is strained to push 
for policy changes to address the issues, the situation is severe. 
Nearly 70 percent of black families in Pittsburgh do not have fathers 
in the homes, according to studies done by the University of Pittsburgh 
Center on Race and Social Problems.
    Bundles of bottled-up angst and misspent emotion, the boys in the 
circle are ready to tell their stories. Because of confidentiality, the 
Post-Gazette is not fully identifying the young men, but they come from 
all over Pittsburgh and spoke about fatherlessness, their experiences 
with violence and their hopes.
    ``The stereotype is that we were raised in a negative society, so 
we show negative action by being negative people, like stealing cars, 
selling drugs and stuff like that,'' says Shannon, 17, of East Liberty. 
He was arrested a few months ago for conspiracy to commit armed 
robbery. He now lives with his father and is watched by two older 
brothers, both college graduates.
    Many of the young men admitted their choices have drawn them close 
to living the stereotype. They say they have made mistakes, but want to 
be looked at as individuals.
    ``People see us, and they don't want to be bothered,'' says 
Shannon. ``We feel like all people are judging us'' and because of how 
they dress, the choice of music and the way they talk, ``everybody sees 
us as young black people and a bad race.''
    But they are far from immune to the pressures.
    The negativity ``comes from like the person in the neighborhood who 
got everything. Like respect and everything,'' said Shannon, who plans 
to enroll in Community College of Allegheny County after he finishes 
the program. ``You want to follow in his footsteps and have all that 
money and girls and jewelry and all that. You want to strive and do 
whatever it is to be that person.
    ``It's pretty hard to really open your eyes [and see something 
different] when everybody is trying to live up to that image. You kinda 
want to try to fit, so you go down the wrong path. You try to take the 
fast way out because it just seems easier.''
    A short time in their presence and the personalities creep forth: 
in the circle, some rest with their chins on their hands, silent; 
others chat away, eager to express themselves.
    At one point, they argue the merits of self-determination and its 
impact on getting an education.
    ``If you don't do well in school, that's yo fault,'' says Mike, 17, 
of Highland Park. ``I ain't go blame it on the teachers. You pay 
attention, you go [learn] something. If they talked about some girls or 
some money, everybody would soak that up.''
    Mike is at CISP for violating his probation for aggravated assault. 
He lives with his mom and five siblings and dreams of earning a 
business degree from Robert Morris University and ``owning something.''
    He's expecting his first child this fall.
    The young men have heard the studies and watched the news reports 
that warn they are an endangered species.
    They run through the same list of negative influences in their 
lives as the ones the experts cite. They talk about living without 
fathers.
    Carl, 16, of Larimer is the oldest of eight children: four on his 
mom's side and four on his father's side.
    His father left the family when he was 2. He wants his father to be 
a father. ``Yo' mom can't raise you,'' he said.
    Most of what Carl shares with his dad are telephone conversations 
from Houston. His father, he said, speaks too often about drinking and 
the men he's punching out in the bars. Too little does he ask about his 
son's life or know what to encourage or congratulate him on. ``My dad 
talks like he's my best friend. He's still making the same mistakes I 
am,'' said Carl, who writes his own rap music and works the cash 
register in his mom's store in Lawrenceville.
    ``We don't know right from wrong. No fathers to teach us. If my dad 
was there, half the stuff I did, I probably never would have done.''
    Most said that they believed CISP was making a positive difference 
in their lives.
    ``This is a big turnaround for everybody,'' said Shannon. ``I think 
if their eyes wasn't open before, it's open now because we got positive 
role models now, and you have no choice but to do what's right.''
    ``People should care about us,'' said Shannon, ``because we're not 
a lost cause. We're just people who made a mistake. But we're not going 
to continue to mess up. Everybody wants to do something with their 
life.''
                                 ______
                                 

Youth Service Hours Pay Off: Teens Serve Their Community as They Serve 
                               Their Time

     By Barbara White Stack, Post-Gazette; Monday, October 04, 2004

    At first, it was forced labor done under court order--delinquents 
washing and painting, buffing and staining in a sweltering McKeesport 
church last summer.
    Later, it became a labor of pride by teens who stopped counting the 
hours worked toward completion of their community service sentences and 
began looking forward to the tiny congregation's first service in its 
refinished sanctuary.
    ``They chose to show us the best side of themselves,'' said 
Virginia Burda. She and her husband, Tom Burda, serve as pastors for 
the New Jerusalem Holiness Church in McKeesport.
    For two months last summer, three to eight teens sentenced to the 
McKeesport Community Intensive Supervision Project--called CISP--
arrived at the church every day to help the Burdas renovate the 
ramshackle place of worship.
    They learned new skills. They built an enduring relationship with 
the Burdas. And beyond changing the church's appearance, they changed 
themselves.
    This project and others sponsored by the Allegheny County juvenile 
probation department demonstrate why the county increased both the 
number of community hours worked by delinquents and the percentage of 
delinquents who completed their court-mandated hours.
    The second annual report card of the county's juvenile court, to be 
released during Juvenile Justice Week which begins today, will show 
that 98 percent of delinquents freed from court supervision in 2003 
completed their community service sentences, which typically are 100 or 
more hours. In 2002, that figure was 96.6 percent.
    That year, the youths worked 68,791 hours. In 2003, their hours 
rose to 69,654.
    Jim Rieland, the county's chief probation officer and director of 
juvenile court services, believes those numbers may be the highest in 
the country. That's something he would know from his frequent travels 
nationwide promoting the concept of Balanced and Restorative Justice, 
which was adopted by Pennsylvania during a reform of juvenile justice 
in 1995.
    The concept widens the traditional focus of juvenile court----
reforming errant youths----to include efforts to help victims and 
protect communities.
    Community service is a big part of that.
    John Fiscante, probation supervisor at the McKeesport CISP program, 
explains that the community service projects create a relationship 
between the youngsters and community residents that makes it harder for 
the teens to repeat their offenses.
    For example, in McKeesport, where the population is dominated by 
senior citizens, delinquents in the CISP program work off their 
community service hours by mowing lawns and weed whacking for residents 
too frail to do the work themselves. All that's asked in exchange is a 
glass of pop or a sandwich. The eating promotes talking. The seniors 
get to know the scary teens. The youths get to know the scary old 
people.
    ``An emotional bond is formed,'' Fiscante said. ``The boys know who 
lives in that house now. It is no longer just a house on the street.''
    The reporting of the community service hours served is part of the 
Balanced and Restorative Justice concept. The community has a right to 
know just how well its juvenile justice system is working, and the 
reporting, now in its second year, is part of that.
    Rieland is trying to get every chief probation officer in the state 
to do it, and he promotes the idea when he travels.
    His report card this year shows a decrease in repeat offenses while 
youngsters are on probation, from 13 percent in 2002 to 11 percent in 
2003.
    The percentage of youngsters who did not violate the terms of their 
probation remained the same at 94 percent.
    The amount of restitution paid rose from $138,979 to $155,911, but 
the percentage of youngsters who paid in full dropped from 81 percent 
to 77 percent.
    In addition to reporting the numbers to the public, it's crucial to 
collect and study them so the department knows where it must improve, 
Rieland said.
    One reason the community service numbers are so high, he said, is 
that youngsters frequently complete more hours than required.
    Fiscante said it's not unusual for a youngster to perform 200 hours 
when sentenced to 100.
    Fiscante is always looking for meaningful community service 
projects. He just set up one with Glenshire Woods, a McKeesport nursing 
home. Teens visit the seniors there twice a week now; they play 
checkers and cards and wheel the seniors around.
    When he heard about the needs of the Burdas' church last summer, 
Fiscante was intrigued. When he walked through the church building the 
first time, he was horrified.
    ``I felt something was going to fall on me from the ceiling,'' he 
said. ``It was that terrible.''
    The youngsters started work in July, under direct supervision of 
the Burdas and a CISP worker. The boys performed some tasks requiring 
limited skills, like washing and painting walls. But Tom Burda also 
taught them to repair plumbing in the church bathroom, to buff and 
stain hardwood floors, and to set and clean pews.
    The Burdas had bought the church on Soles Street 2\1/2\ years 
earlier but had only been able to conduct services in a small, restored 
section of the fellowship hall. With the boys' help, they held their 
first service for approximately 25 members on Aug. 1.
    The Burdas gave the boys lunch each day--fun food like pizza and 
chicken and hoagies that the youngsters considered far superior to CISP 
fare. Virginia Burda said those times with the boys were the best.
    ``I really enjoyed sitting and talking with them,'' she said.
    When the work was done, the Burdas e-mailed photos across the 
country to their 14 sister churches. And, at a service, they recognized 
the youngsters for their hard work.
    ``We promised them that as long as they lived, this would be their 
church and told them that they had invested in the church in a way that 
makes them a part of it as long as we are in existence,'' Virginia 
Burda said.
    Before they found the old church in McKeesport, the Burdas had 
conducted services in a home in Duquesne. They felt drawn to the 
dilapidated church and bought it not knowing how they would ever 
restore it.
    Then Fiscante showed up.
    ``We thought the CISP young people and community service were an 
answer to our prayers,'' she said.
                                 ______
                                 
    [Questions for the record sent to Mr. Lawrence follow:]

                                      [VIA ELECTRONIC MAIL]
                                                     July 13, 2007,
Hon. Paul H. Lawrence,
Judicial Branch-Goffstown District Court and the Coalition for Juvenile 
        Justice, State of New Hampshire, Goffstown, NH.
    Dear Judge Lawrence: Thank you for testifying at the July 12th, 
2007 joint hearing of the Subcommittee on Healthy Families and 
Communities and the Subcommittee on Crime, Terrorism, and Homeland 
Security.
    Representative Raul Grijalva (D-AZ), a member of the Healthy 
Families Subcommittee, has asked that you respond in writing to the 
following questions:
    1. Please talk more about the transfer of youth to the adult court 
and placement of youth in adult jails. What are the implications for 
the reauthorization of the JJDPA?
    2. When considering your recommendation to trim back the laundry 
list of core purposes in JJDPA, what basic tenets should we keep in 
mind to guide us?
    Please send an electronic version of your written response to the 
question by COB Monday, July 23, 2007--the date on which the hearing 
record will close. If you have any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [Response from Mr. Lawrence follows:]
                                                     July 23, 2007.
Hon. George Miller,
Chairman, Education and Labor Committee, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman Miller: Thank you for the opportunity to testify at 
the July 12th, 2007, joint hearing of the Subcommittee on Healthy 
Families and Communities and the Subcommittee on Crime, Terrorism, and 
Homeland Security, titled ``The Juvenile Justice and Delinquency 
Prevention Act: Overview and Perspectives.'' I truly appreciate the 
committees' consideration of and attention to the issues related to the 
reauthorization of this important statute.
    Today, I am writing in response to questions posed to me, following 
the hearing by Representative Raul Grijalva (D-AZ) a member of the 
Healthy Families Subcommittee:
    1. Please talk more about the transfer of youth to the adult court 
and placement of youth in adult jails. What are the implications for 
the reauthorization of the JJDPA?
    Currently, all U.S. states, territories and the District of 
Columbia have laws that allow for the transfer/waiver of juveniles 
under the age of majority into adult criminal court. However, a recent 
study from the Centers for Disease Control, submitted with the written 
hearing testimony of Dr. Jennifer Woolard, Georgetown University, found 
that transfer of minors to adult court for prosecution and sentencing 
has, at best, no effect on public safety and, at worst, causes the 
transferred juveniles to become more likely to recidivate and to re-
offend in more violent ways. The CDC report amplifies the findings and 
recommendations of two comprehensive reports on the topic, also 
included in the hearing record: Coalition for Juvenile Justice, 2005, 
``Childhood on Trial: The Failure of Trying & Sentencing Youth in Adult 
Criminal Court'' and Campaign for Youth Justice, 2007, ``The 
Consequences Aren't Minor: The Impact of Trying Youth as Adults and 
Strategies for Reform.''
    In its reauthorization of the Juvenile Justice and Delinquency 
Prevention Act (JJDPA), Congress can ensure responses that are more 
appropriate to a young person's age and stage of development. Several 
leadership organizations, the Coalition for Juvenile Justice and the 
Campaign for Youth Justice, among more than 150 other national and 
state-based organizations, recommend that the reauthorization seek to 
phase in an expansion of the core protections of the JJDPA to apply to 
all youth until the age of 18, whether tried and sentenced in juvenile 
or adult criminal court. Specifically, by consensus, this group of 
organizations recommends the following changes in the statute with 
which I concur:
    <bullet> Amend Sec. 223(a)(13(A) to require states and local 
jurisdictions to
    <bullet> remove all youth charged as adults and detained in adult 
jails pending trial, allowing for a four-year phase-in period for 
needed change to state statutes, and
    <bullet> implement the American Bar Association (ABA) standards for 
youth convicted as adults in adult jails and prisons, as contained in 
the ABA's publication, Youth in the Criminal Justice System: Guidelines 
for Policymakers and Practitioners, again allowing for a four-year 
phase-in.
    <bullet> Amend Sec. 252 (b) to require the Office of Juvenile 
Justice and Delinquency Prevention (OJJDP) to provide intensive 
Technical Assistance (TA) to states and counties to comply with the 
above provisions.
    <bullet> Add a new (f) to Sec. 222 to provide incentive funding and 
technical assistance resources for model demonstration programs 
regarding effective and timely removal of youth from adult 
incarceration settings.
    <bullet> Amend Sec. 204(b)(7) to require OJJDP to----
    <bullet> work with states and counties to collect ongoing data on 
youth in the adult criminal justice system, including age, race, 
ethnicity, gender, offense, pre-trial detention, transfer mechanism, 
sentencing outcome, placement pre and post trial in jails, prisons or 
juvenile facilities, and
    <bullet> conduct research on the outcomes of filing juveniles as 
adults in criminal courts, i.e. does it increase or decrease public 
safety and violence?; how does it impact facility conditions?; does it 
effect the state of developmentally appropriate services and programs 
for youth in adult jails and prisons?
    <bullet> Amend Sec. 103(25) to clarify that the core requirements 
of the JJDPA expressly prohibit any contact of youth with adults in 
adult jails and prisons.
    <bullet> Amend Sec. 103(26) to ensure that the core protections for 
children in the JJDPA apply to youth over age 18 in ``extended juvenile 
jurisdiction'' (EJJ) states so that these youth are not considered 
``adults'' and states are not forced to remove them from juvenile 
jurisdiction.
    2. When considering your recommendation to trim back the laundry 
list of core purposes in JJDPA, what basic tenets should we keep in 
mind to guide us?
    My recommendation is to use as guidance the basic tenets embodied 
by the ``Act-4-Juvenile Justice Statement of Principles'' submitted 
into the record with the testimony from witness Captain Derrick 
Johnson, Phoenix, Arizona, and signed by the same body of more than 150 
national and state organizations mentioned above.
    It is critical to squarely focus allowable uses of State Formula 
Funds (Title II Funds) on support for compliance with the JJDPA core 
requirements [See Sec. 102 and Sec. 223 (a) (7) (B)]. There may be 
efforts to engulf the JJDPA with priorities such as character education 
or law enforcement initiatives which are more appropriately managed in 
other statutes and under other authorities.
    More specifically, I would recommend amending Sec. 223 (a)(7)(B) to 
strongly promote:
    <bullet> Alternatives to detention and incarceration;
    <bullet> Home and community based mental/behavioral health care for 
children;
    <bullet> Discharge planning and access to aftercare services; and
    <bullet> Access to effective quality counsel for children.
    Additional important statutory changes could be made in the 
following sections:
    Amend Sec. 223 (6)(B)(iii) and Sec. 223 (9)(C), (J) and (S) to 
ensure that mental health and substance abuse screening, assessment and 
referrals include culturally and linguistically appropriate services, 
and involvement of families in service design and delivery.
    Elevate and amplify the work under current Sec. 223 (a) (22), known 
as the core requirement on ``Disproportionate Minority Contact,'' by 
strengthening it to require that OJJDP and its agents assist states and 
localities to achieve actual reductions in racial/ethnic disparities 
and differential treatment of youth of color in the justice system from 
the point of surveillance and arrest to the point of re-entry.
    It is also important to prohibit the use of JJDPA funds for 
ineffective programs, such as boot camps, scared straight programs, 
unlicensed private facilities, and large residential institutions. Such 
prohibitions can be appropriately added to Sec. 299 (C) (a) (2) in the 
reauthorization. Furthermore, it is critical to prioritize and focus 
the Office of Juvenile Justice & Delinquency Prevention (OJJDP) 
office's research and technical assistance functions so that they truly 
support states' efforts to comply with the core protections in the 
JJDPA. This can be done through adding more directive language 
regarding the functions of the OJJDP Administrator and staff in 
Sections 251 and 252 of the JJDPA. It is essential to ensure that OJJDP 
is responsive to state-identified/locallyidentified needs and the State 
Plan process, including support in Sec. 251 for field-based and field-
strengthening research and evaluation to refine and expand the array of 
best and evidenced-based practices.
    Moreover, several states are reporting that their technical 
assistance requests regarding serious compliance concerns related to 
the Deinstitutionalization of Status Offenders (DSO) and Sight and 
Sound Separation of adult and juvenile inmates presently go unanswered 
by OJJDP. Yet, OJJDP was originally designed and authorized to support 
the mandates and precepts of the JJDPA. Congress must ensure sufficient 
oversight and transparency to intervene as needed to require assistance 
for states who are working to meet the mandates of the JJDPA.
    Thank you once again for requesting my views. Please let me know if 
you have any additional questions or areas where my colleagues and I 
can be of any further assistance to you. I serve on the board of an 
excellent resource organization that is centrally involved in the 
``Act-4-Juvenile Justice'' effort, the Coalition for Juvenile Justice. 
The executive director, Nancy Gannon Hornberger (202-467-0864, ext. 111 
and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="16787778756f567c63607c6365627f757338796471">[email&#160;protected]</a>) and deputy executive director, Tara Andrews 
(202-467-0864, ext. 109 and andrewsnjuvjustice.org) stand by, ready to 
help. and are networked with many other expert groups and individuals.
    Thank you, too, for your stewardship of this important federal 
statute which so positively affects the lives of youth and families and 
shapes more promising futures for them, their families and communities.
            Sincerely,
                                          Paul H. Lawrence,
                                   Judge, Goffstown District Court;
              Immediate Past Chair, Coalition for Juvenile Justice.
                                 ______
                                 
    [Internet link to Coalition for Juvenile Justice 2003 
annual report: ``Unlocking the Future: Detention Reform in the 
Juvenile Justice System,'' submitted by Mr. Lawrence, follows:]

    http://www.issuelab.com/downloads/8015CJJ-----2003--Report-----
                       Unlocking--the--Future.pdf

                                 ______
                                 
    [Internet links to Coalition for Juvenile Justice briefs, 
parts I and II, ``What Are the Implications of Adolescent Brain 
Development for Juvenile Justice?,'' submitted by Mr. Lawrence, 
follows:]

        http://juvjustice.org/media/resources/resource--134.pdf

        http://juvjustice.org/media/resources/resource--138.pdf

                                 ______
                                 
    [Questions for the record sent to Mr. Shepherd follow:]

                                      [VIA ELECTRONIC MAIL]
                                                     July 13, 2007,
Mr. Robert E. Shepherd, Jr., B.A., LL.B.,
Emeritus Professor of Law, Washington and Lee University, University of 
        Richmond Law School, Richmond, VA.
    Dear Mr. Shepherd: Thank you for testifying at the July 12th, 2007 
joint hearing of the Subcommittee on Healthy Families and Communities 
and the Subcommittee on Crime, Terrorism, and Homeland Security.
    Representative Raul Grijalva (D-AZ), a member of the Healthy 
Families Subcommittee, has asked that you respond in writing to the 
following question:
    You mentioned the importance of research by the Office of Juvenile 
Justice & Delinquency Prevention (OJJDP). What studies, if any, have 
been conducted on Native American youth in the juvenile justice system?
    Please send an electronic version of your written response to the 
question by COB Monday, July 23, 2007--the date on which the hearing 
record will close. If you have any questions, please contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [Response from Mr. Shepherd follows:]
                                                     July 19. 2007.
Hon. George Miller, Chairman,
House Education and Labor Committee, U.S. House of Representatives, 
        Washington, DC.
    Dear Congressman Miller: Thank for your letter of July 13, 2007, 
forwarding on a question from Congressman Raul Grijalva regarding 
Native American youth in the juvenile justice system, and what studies 
the Office of Juvenile Justice and Delinquency Prevention (OJJDP) has 
conducted on such youth.
    The Office has on its staff an outstanding resource, Laura Ansera, 
Tribal Youth Program Coordinator, and she may be reached at (202) 514-
5679, laura.ansera( usdoj.gov. There have not been a lot of recent 
studies published by OJJDP, but those that are most relevant include 
Youth Gangs in Indian Country, NCJ 202714 (2004), OJJDP's Tribal Youth 
Initiatives, NCJ 193763 (2003), United National Indian Tribal Youth, 
Inc., NCJ 189412, Evaluation/Assessment of Nat ajo Peacemaking, NCJ 
187675 (1999). OJJDP's Program of Research for Tribal Youth, FS 2001 10 
(2001), and Training and Technical Assistance for Indian Nation 
Juvenile Justice Systems, FS 99105 (1999). There are some data from 
2006 and earlier that have recently been released and published 
regarding youth prosecuted federally that include information on Native 
American youth and may be found at http:llojjdp.ncjrs.org/ojstabb/
nr2006/downloads/ehapter4.pdf , with the information on Native American 
youth may be found on page 1 17. There are additional resources that 
may be found outside of OJJDP and I particularly recommend the 
Coalition for Juvenile Justice's publication, Enlarging the Healing 
Circle, published in 2000, and there are two excellent outside 
resources I can refer you to, one is Terry L. Cross, Executive Director 
of the National Indian Child Welfare Association who may be contacted 
at (503) 222-4044, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="30595e565f705e595347511e5f4257">[email&#160;protected]</a> and Michael Guilfoyle, Consultant on 
American Indian Justice and Cultural Competence who may be reached at 
(208) 285-1271. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b55525c4e52575d5442575e7b5d5249484f4b52581554495c15">[email&#160;protected]</a> The Coalition for Juvenile 
Justice Publication may be obtained from them at (202) 467-0864, 
extension l 11, for the Executive Director Nancy Gannon Hornberger, and 
it may be downloaded at www.juvjustice.orglfactsheet--3.html.
    There is a serious dearth of research on American Indian/Tribal 
youth in the courts and in the juvenile justice system, but section 251 
of the Juvenile Justice and Delinquency Prevention Act only provides 
that the Administrator of OJJDP ``may'' do a number of things in the 
research and evaluation line and, as I mentioned in my testimony, that 
should probably be changed to ``shall'' and set forth a research agenda 
that Congress would like to see the office pursue. I might also note 
that the Federal Advisory Committee on
    Juvenile Justice has included several recommendations in its most 
recent reports to Congress and the President regarding the development 
of a different formula for ``pass-through funds'' to go to the tribes 
for juvenile justice activities.
    Please let me know if I can be of any further assistance to you, to 
Congressman Grijalva, or to your staff. I will forward an electronic 
version of this letter to Deborah Koolbeck and I am sending Congressman 
Grijalva of this letter.
    With best wishes for your committee's consideration of the 
reauthorization of this important piece of legislation, I am
            Very truly yours,
                                   Robert E. Shepherd, Jr.,
                                         Emeritus Professor of Law.
                                 ______
                                 
    [Additional submission by Ms. Woolard follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [Internet link to Campaign for Youth Justice report, ``The 
Consequences Aren't Minor,'' dated March 2007, submitted by Ms. 
Woolard, follows:]

 http://www.campaign4youthjustice.org/Downloads/NEWS/National--Report--
                            consequences.pdf

                                 ______
                                 
    [Internet link to International Journal of Forensic Mental 
Health article, ``Juveniles Within Adult Correctional Settings: 
Legal Pathways and Developmental Considerations,'' Vol. 4, No. 
1, 2005, submitted by Ms. Woolard, follows:]

              http://www.iafmhs.org/files/Woolardspr05.pdf

                                 ______
                                 
    [Whereupon, at 4:30 p.m., the subcommittees were 
adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
